<html>
<title> - SENATORS' PERSPECTIVES ON GLOBAL WARMING</title>
<body><pre>[Senate Hearing 110-12]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-12

                SENATORS' PERSPECTIVES ON GLOBAL WARMING

=======================================================================

                                HEARING

                               before the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 30, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________




                      U.S. GOVERNMENT PRINTING OFFICE
33-987 PDF                    WASHINGTON  :  2007

---------------------------------------------------------------------
    For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 













               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CRAIG THOMAS, Wyoming
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director


























                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 30, 2007
                           OPENING STATEMENTS

Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    32
Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    23
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    56
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    19
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    42
Craig, Hon. Larry E., U.S. Senator from the State of Idaho.......    39
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....    18
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    47
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey    35
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................    28
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....    52
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    62

                               WITNESSES

Akaka, Hon. Daniel, U.S. Senator from the State of Hawaii........   104
Bingaman, Hon. Jeff, U.S. Senator from the State of New Mexico...    69
Durbin, Hon. Richard J., U.S. Senator from the State of Illinois.   114
Feinstein, Hon. Dianne, U.S. Senator from the State of California    72
Kerry, Hon. John, U.S. Senator from the Commonwealth of 
  Massachusetts..................................................    75
Levin, Hon. Carl, U.S. Senator from the State of Michigan........    92
Lincoln, Hon. Blanche, U.S. Senator from the State of Arkansas...   107
McCain, Hon. John, U.S. Senator from the State of Arizona........    80
Murkowski, Hon. Lisa, U.S. Senator from the State of Alaska......    98
Nelson, Hon. Bill, U.S. Senator from the State of Florida........   111
Obama, Hon. Barack, U.S. Senator from the State of Illinois......    87

                          ADDITIONAL MATERIAL

Charts:
    American Businesses Call for Action on Global Warming, U.S. 
      Climate Action Partnership.................................   128
    An Urgent Call to Action, Scientists and Evangelicals Unite 
      to Protect Creation........................................   129
    A Sample of Editorial Boards from Across the Country on the 
      Need to Address Global Warming............................131-133
    Eleven National Academies of Sciences Urge ``Prompt Action'' 
      to Address Global Warming..................................   127
    Interior Secretary Kempthorne Announces Proposal to List 
      Polar Bears as Threatened Under Endangered Species Act.....   137
    Oil Companies on the Need for Action on Global Warming.......   134
    President Bush State of the Union Address....................   136
    Prime Minister Tony Blair's Recent Comments on Global Warming   138
    State and Local Action to Address Global Warming.............   130
    U.S. Defense Department Sponsored Report, Climate Change and 
      Its Implications for National Security.....................   135
Past Climate Speeches by:
    Senator Craig and Colleagues................................139-996
    Senator Inhofe.............................................997-1053
Report, Agricultural & Forestlands: U.S. Carbon Policy 
  Strategies, Prepared for the Pew Center on Global Climate 
  Change, September 2006, by Kenneth R. Richards, School of 
  Public and Environmental Affairs, Indiana University; R. Neil 
  Sampson, The Sampson Group, Inc.; Sandra Brown, Winrock 
  International, Ecosystem Services Unit......................1054-1134
Resolution, S. Res. 30...........................................  1135
Statements:
    Biden, Jr., Hon. Joseph, U.S. Senator from the State of 
      Delaware...................................................   124
    Enzi, Hon. Michael B., U.S. Senator from the State of Wyoming   119
    Feingold, Hon. Russ, U.S. Senator from the State of Wisconsin   118
    Gregg, Hon. Judd, U.S. Senator from the State of New 
      Hampshire..................................................    66
    Inouye, Hon. Daniel K., U.S. Senator from the State of Hawaii   123
    Kennedy, Hon. Edward M., U.S. Senator from the Commonwealth 
      of Massachusetts...........................................   120
    Lugar, Hon. Richard G., U.S. Senator from the State of 
      Indiana....................................................   121
    Snowe, Hon. Olympia J., U.S. Senator from the State of Maine.     8
    Voinovich, Hon. George V., U.S. Senator from the State of 
      Ohio.......................................................    10





















 
                SENATORS' PERSPECTIVES ON GLOBAL WARMING

                              ----------                              


                       TUESDAY, JANUARY 30, 2007


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:06 a.m. in room 
406, Dirksen Senate Office Building, the Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Alexander, Baucus, Bond, Cardin, 
Carper, Clinton, Craig, Inhofe, Isakson, Klobuchar, Lautenberg, 
Lieberman, Sanders, Thomas, Vitter, Voinovich, Warner, 
Whitehouse.
    Also present: Senators Bingaman, Feinstein, Kerry, McCain, 
Obama, Levin, Murkowski, Akaka, Lincoln, Nelson of Florida, 
Durbin.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order. For the 
information of committee members, we will be following the 
early bird rule, which is our standard practice, for committee 
member statements. Because we are also adopting our budget, we 
may have to just take a break in the hearing when we have the 
quorum present, so we can do that and get on our way with the 
committee agenda.
    A couple of little items I wanted to mention. One is not 
little, but a very important one, is that last night Chairman 
David Obey introduced the funding resolution for the remainder 
of fiscal year 2007, a continuing resolution. I know that 
Senator Bond has been working very, very hard with Senator 
Murray and others. I have been working with Senator Baucus and 
Senator Inhofe.
    The good news is that the Federal Aid Highway Program is 
fully funded at the $39.1 billion level authorized in SAFETEA-
LU. We are very happy about this because I know all Senators 
here wanted to make sure we did not see cutbacks. Achieving 
full funding was the result of considerable effort. A 
bipartisan letter was circulated. The Banking Committee also 
worked with us.
    So 72 Senators worked to request the full funding, and I am 
very pleased because it is directly related to our economic 
prosperity, and continued construction and maintenance of our 
roads. So that is a victory, I think, for this committee. We 
weighed in pretty heavily on that point, so I am very proud of 
that.
    The other business item I wanted to mention, just for 
Senators, is that I wanted to give you an idea of a few of the 
hearings that are coming up that have been signed off by the 
Republicans. We are having a hearing on February 6 on EPA 
oversight, where we are going to look at the closing down of 
the libraries, clean air for chlorate, and other top issues. 
Some of us felt those were rolled back, and we'll just look at 
those.
    The next day, on the 7th, Senator Lieberman is going to 
look at global warming and its impact on wildlife. The 
following week we will have a budget hearing, on the 15th, and 
I wanted to mention for all Senators, we are working on a 
hearing on WRDA and Army Corps issues on March 15, with a 
markup on March 29.
    So we are moving ahead with the committee, and other 
colleagues are going to be calling hearings of their 
subcommittees.
    Today, we are going to have an extraordinary Senate hearing 
on global warming, and we will hear from many Senators on this 
crucial issue. We are going to hear from members in order of 
arrival, alternating by party, as I said. Later this morning, 
into early afternoon, we are going to hear from Senators who 
don't serve on this committee, but Senators who care very 
deeply about this subject matter, many of whom have introduced 
legislation. I would just, for the interests of all Senators, 
because I know it's very hard to stay here that number of 
hours, but if you could remain, we still expect to hear from 
Senators Bingaman, Feinstein, Kerry, Biden, McCain, Obama, 
Levin, Murkowski, Akaka, Lincoln, Durbin and Nelson of Florida, 
so we have a good number coming forward.
    What I am hoping is that at the end of this day, we will 
have a reading on where most Senators are, how they feel about 
pursuing legislation to deal with the matter of global warming.
    In a show of extreme bipartisanship and friendship, I have 
agreed, because Senator Inhofe has a very urgent meeting of the 
Armed Services Committee, I have allowed him to open up the 
hearing today. So Senator, I have given you 12 minutes, and the 
rest of us will have 10 minutes. I will have 12 minutes. So 
please go right ahead and take your 12 minutes.
    I just want to thank you for working with me to get us 
moving. I know we have many disagreements, but we truly are 
friends, and I think it is reflected in the progress we're 
making. Thank you.
    [The prepared statement of Senator Boxer follows:]
        Statement of Hon. Barbara Boxer, U.S. Senator from the 
                          State of California
    My colleagues, I believe we must act now to address global warming. 
I believe it is our responsibility. I believe it is our duty. And I 
believe it is our challenge. I believe that just as consensus has been 
built among scientists, it is rapidly building among the American 
people. A recent Time Magazine/ABC News Poll found that 88 percent say 
that global warming threatens future generations. We are at a historic 
moment--the tide is turning. A real consensus is coming together around 
this issue in a way that has never happened before. Scientists, the 
public, and even the Bush Administration agree: global warming is real, 
and humans are making a serious contribution. Let us look at what a 
growing chorus of voices is saying across the country about global 
warming: Chart attached:
    <bullet> National Academy of Sciences
    <bullet> U.S. Climate Action Partnership
    <bullet> Evangelicals and Scientists
    <bullet> State and Local Governments
    <bullet> Editorials
    <bullet> Oil Companies
    <bullet> Pentagon Funded Report
    <bullet> Bush Administration:
    <bullet> State of the Union
    <bullet> Department of Interior/Polar Bear Proposed Listing
    <bullet> Recent Statement by Tony Blair
    We know what is happening--the science is clear: The planet is 
getting warmer because humans are releasing too much carbon pollution 
into the atmosphere.
    If we fail to take action on global warming now, we can expect 
future catastrophic impacts like rising sea levels, more extreme 
weather events of all kinds, damage to coral reefs and fisheries, and 
negative impacts on food production and water supplies. We need to act 
soon, before we reach a tipping point when irreversible changes to the 
world we know may occur.
    We know what sectors in our economy emit these greenhouse gases:
    <bullet> Transportation = 30 percent of emissions;
    <bullet> Power Plants = 40 percent of emissions
    <bullet> Industry, Commercial and Other sources = 30 percent of 
emissions.
    We know what we have to do. In order to avoid the worst effects of 
climate change, it is important to stabilize emissions and hold 
temperature rise to less than 2 degrees Fahrenheit from where we are 
now. In short, we need to cap and eventually, significantly reduce our 
greenhouse gas emissions.
    I am very proud of my home State of California, which enacted AB 
32, an economy wide global warming bill. This law sets a mandatory cap 
on carbon pollution, including a 25 percent reduction from projected 
levels by 2020. The Governor also signed an Executive Order 
establishing a goal of an 80 percent reduction in greenhouse gases by 
2050 from 1990 levels. A consensus is developing that we must take 
action at the Federal level now.
    On June 22, 2005, a majority of the Republican controlled Senate 
(53-44) supported action on climate change through the Bingaman 
Resolution. The resolution was a Sense of the Senate resolution that 
supported mandatory emissions limits.
    There is much to gain in our efforts to reduce greenhouse gas 
emissions. For example, increasing our energy efficiency will save us 
money, make us more energy independent, help cleanup our air, and 
reduce carbon pollution.
    In an effort to make the Federal Government a model, I will be 
introducing legislation to accelerate the effort to make the thousands 
of Federal Government buildings managed by the General Services 
Administration models of energy efficiency, starting with lighting 
systems. The GSA owns or leases over 340 million square feet of space 
in nearly 9,000 buildings located in every State. GSA calls itself the 
largest property manager in the United States. I am already working 
directly with the Administration on this effort to see if we can find 
common ground and achieve the goal of making these buildings a model 
together. Similarly, energy efficiency standards for appliances can 
save us lots of energy and will save money for consumers.
    Using renewable fuels fights global warming and also will reduce 
our dependence on oil, and will help cleanup our air. I have introduced 
legislation that would support the development of cellulosic ethanol, 
which can be made from agricultural waste, grass, and many other 
plants.
    Planting trees and other plants, which absorb carbon, can create 
carbon ``sinks.'' This type of ``carbon sequestration'' also must be 
considered.
    There are many benefits to fighting global warming. As we meet this 
challenge, new technologies will be invented and exported. Jobs will be 
created and these new technologies will be needed by the world. The 
great genius of American entrepreneurship will rise to the challenge.
    When we succeed in the battle against global warming the oceans 
also will be healthier. Right now, the oceans are showing the strains 
from absorbing so much CO<INF>2</INF>. Our oceans have acted like a 
``sink'' for the carbon, and scientists are warning us about trouble 
with coral reef die offs and potential long-term impacts on fisheries.
    There are many approaches to the issue of global warming. Several 
of our colleagues have tackled this issue in a very positive way. Some 
take an economy-wide approach--others, an industry specific approach. I 
am sure we will hear their ideas today. I know it is no secret that I 
call the Sanders/Boxer bill originally written by our dear friend Jim 
Jeffords, the ``gold standard'' bill because it is comprehensive and 
takes bold action that I believe is warranted by the facts. My goal is 
of course to get us as close as we can to that ``gold standard'' which 
is reflected in the California program.
    I am a realist, and I know only by working together can we move 
forward with legislation. I pledge today that all ideas and all 
Senators will have a seat at the table as we move toward action.
    Ladies and gentlemen: I am an optimist. I believe in our ability to 
act and I am counting on the Environment Committee, which has a 
distinguished history, to move us forward:
    <bullet> After the Cuyahoga River caught fire in Ohio in 1969, and 
many of our lakes and rivers were open sewers, our Committee responded 
with a comprehensive remedy, enacting the Clean Water Act in 1972. 
Today we can look with pride on the improvements in water quality 
across this country. While our work is not done, and we must ensure we 
do not take steps backward, the positive results speak for themselves.
    <bullet> When the air was so dirty you could see it and there were 
few tools to address it, our Committee responded with the Clean Air Act 
in 1970. Our work is not done, but the air is much cleaner and safer.
    <bullet> When contaminated tap water was causing widespread 
waterborne disease and exposing people to cancer-causing chemicals, our 
Committee enacted the Safe Drinking Water Act in 1974.
    Now we must face the challenge of global warming. It is one of the 
great challenges of this generation. It's once again our turn again to 
stand up and lead this greatest country on earth to a bright future 
that will energize our people here at home and the whole world. This is 
a challenge we can and will meet.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. I think it is, too, and I do appreciate 
your accommodating my schedule. As Senator Lieberman knows, we 
have Admiral Fallon before the Armed Services Committee, and it 
will be necessary to be there. He is taking over a very 
responsible job as the Commander of the Central Command.
    Let me first of all say, you know, my staff called me up, 
Madam Chairman, when you decided to have this type of a format, 
and said: ``This is unprecedented; we have never done this type 
of thing before. We have a protocol we go by on these that has 
worked very well over the years, whereby we select witnesses. 
The Minority has witnesses. This breaks the protocol.'' So they 
said, ``I assume that you want to object to it.'' I said: ``For 
Barbara Boxer, no, I don't want to object to it. I want to go 
ahead and have this. This is her first hearing, and I would 
personally like to have any type of format that she wants.''
    It would seem to me, though, that a better way of doing 
this would be, because then you get a double shot at it, to let 
these members go to the floor, as if on morning business. I 
have actually given over a dozen speeches, each one over 1 
hour, on the floor of the Senate. That is one thing about it. 
You and I having served on the House side realize that we have 
a lot more time over here to do such a thing. So we have done 
that, and I feel that's the best format to use.
    I have not been satisfied with the way this has started. I 
have to say this, that back 4 years ago when I became chairman 
of this committee, I was a believer that manmade anthropogenic 
gases actually affected climate change. I had been told that. 
All the media said that. The science seemed to say that. This 
is 4 years ago. Then they came along with the Wharton School 
had the Wharton Econometric Survey and others evaluate it. What 
would it cost America if we were to sign onto the Kyoto 
Protocol, at that time, that is what they were trying to do, 
and comply with its emission requirements? I could talk for a 
long time as to what would happen, but it would be just very 
destructive to our country in terms of doubling the cost of 
energy and the cost of fuel. The average family of four, they 
said, it would cost them $2,750 a year.
    So what I did was say, let's look and be sure that the 
science is right, and is decided. About that time, it seemed 
like some hysteria was setting in, because one by one, 
different scientists were coming out and saying, ``no, it is 
not anthropogenic gases that are causing climate change,'' as 
we once thought might be the case. We had the Oregon Petition 
that came long. That was 17,800 scientists who made the 
statement,``There is no convincing scientific evidence that 
human release of greenhouse gas is causing or will in the 
foreseeable future cause catastrophic global warming.''
    You had the 60 Canadian scientists who had recommended to 
the Prime Minister back in the 1990's that they sign onto the 
Protocol, and they did. And then after they started studying 
over the next period of years, just recently came out and they 
said, ``If back in the mid-1990's we knew what we know today 
about climate, Kyoto would almost certainly not exist because 
we would have concluded it was not necessary.''
    So you are having scientists come, and I have many others. 
I think one of the best ones, who was a real advocate of 
climate change being a result of manmade gases, was a very 
liberal Claude Allegre. He is a French geophysicist, a member 
of both the French and the American Academy of Sciences. Keep 
in mind, he was one of those who was marching down the aisles 
in favor of Kyoto, in favor of the notion that manmade gases 
are causing climate change. But after studying this, and 
spending time, and no one questions his qualifications, the 
cause of warming is unknown. The proponents of manmade 
catastrophic global warming are being motivated by money.
    Well, let's stop and look at that for a minute. Just last 
week we had Heidi Cullen, who is with the Weather Channel. We 
all know that the Weather Channel would like to have people 
afraid all the time. That causes them to watch the Weather 
Channel. It caused the ratings to go up. She went overboard 
last week when she came out and she said, and I am paraphrasing 
now, but this doesn't miss it far. She said, you know, any of 
the scientists or meteorologists who don't agree with us should 
be discredited by the American Meteorological Society.
    Now, that is something that is way over the top. Well, I 
have sent an op/ed piece out after that. It was picked up by 
Drudge and several others, and boy the blogs started coming in. 
It was so overwhelming that we had in 1 hour 70,000 responses. 
That let's you know what people are thinking out there. It 
caused them to shut down the Senate website.
    So these things are happening. I figure that what we need 
to do responsively is to follow some of the ideas we had 
before. Put the chart up, the Hagel chart, the first one. It 
seemed to be agreed to by 100 percent of the U.S. Senate, the 
vote was 95 to nothing, that we would not sign onto a Kyoto 
agreement unless two things were present: No. 1, it would not 
hurt us economically; and No. 2, it would affect the developing 
nations the same as the developed nations.
    Now, if you stop and think about it, China is having a 
heyday right now. We have not put on line a new gas-generating 
electric operation in the United States in 17 years. They are 
cranking one out every 3 days in China. They say they never 
have any intentions of complying with any kind of restrictions. 
In the year 2009, they will pass us up and they will be the No. 
1 emitter of CO<INF>2</INF>, and they have no interest in 
stopping it.
    Well, if you look at all the bills that are out there right 
now, or that have been out there, there are five of them, in 
terms of Byrd-Hagel and Bingaman, not one of these complies 
with those two mandates that we have, that it couldn't hurt the 
economy and the developing nations had to be a part of it.
    I will put the new chart I had not seen until this morning. 
Of all of the countries, and this is another thing that has to 
be looked at, who have signed onto this thing, these countries, 
Canada and the rest of them, have not complied with the 
emission requirements. There are 15 countries in Western Europe 
that had signed onto it. There should be a line or point there 
for 1997, would be about there. Yes. At that point in 1997, if 
these countries who signed onto the Protocol had done it, and 
we are talking about 15 European countries, then the red line 
would be where emissions would be today and in the near future.
    However, of the 15 European countries, only Great Britain 
and Sweden have complied with it, and Great Britain did because 
of the big dip they had prior to the time they started keeping 
score. So they actually, with their trade policy, could come 
out ahead.
    The other thing that I think is worth saying in this period 
of time that I have, Madam Chairman, is the IPCC and the fact 
that it is flawed. Lord Nigel Lawson, who is the former 
Chancellor of the Exchequer over in Great Britain, a member of 
the House of Lords Committee that reviewed the IPCC. Keep in 
mind, the United Nations started all this stuff, the 
Intergovernmental Panel on Climate Change. He said, ``I believe 
the IPCC process is so flawed and the institution, it has to be 
said, so closed to reason that it would be far better to thank 
it for the work it has done, close it down, and transfer all 
future international collaboration on the issue of climate 
change.''
    Now, if you will look at the third chart that I have. It 
tells you that even people who signed onto it and say it is a 
wonderful thing, are not complying with it. This is the 
critical one. Back when Al Gore was Vice President of the 
United States, and Al Gore still thinks that he can use climate 
change and global warming. That is his ticket to the White 
House. So he is convinced that is going to get him there.
    But he had Tom Wiggly [phonetically], who at that time was 
at the National Center for Science Research, he had him as his 
scientist, say, all right now, Mr. Wiggly, what I want you to 
do is say if all developed countries complied with and became a 
part of the Protocol of Kyoto and complied with the emission 
requirements, what would that do over a 50-year-period in terms 
of reducing the temperature?
    He made his study and it came out with this chart. If all 
these countries did, and I am talking about all developed 
nations, and not like Europe, because none of them are meeting 
the requirements, if they did meet the requirement it would 
change, it would lower the temperature by 0.06 of 1 
<SUP>+</SUP>C, which isn't even measurable.
    So I have often said, even if we are wrong, let's look and 
see what doing all of this financial punishment to our Country 
would result in, in terms of reducing the temperature. So I 
would only say, Madam Chairman, you are going to have a 
wonderful day today. I regret that I will not be able to spend 
the day with you. I would enjoy that, and maybe there is 
something new I haven't heard yet, but I have studied this 
thing for a long, long period of time.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Madam Chairman, before I begin my remarks on climate change I do 
want to point out that I disagree with the format of today's hearing. 
Just to hold a hearing for members to provide testimony is duplicative 
of the Senate floor. We should be doing this in morning business on the 
floor. When you insisted on holding this in the Committee, we suggested 
a forum or a roundtable instead of a hearing. This event today breaks 
every hearing protocol of this Committee, from no agreed to witness 
list to testimony not being submitted under our rules. If it were not 
your first hearing Madam Chairman, I would have objected to this 
hearing. I do want to state for the record that by agreeing to today's 
format, we are not setting a new precedent for this Committee and I 
will object in the future to any similar hearings.
    On the issue of climate change in the last four years, I have 
spoken on the Senate floor more than a dozen times, held four hearings, 
two stakeholder meetings and many briefings within the Committee. I 
have looked at the science, the economics, and expected benefits of 
differing initiatives and proposals. And I have examined how well the 
world's only large-scale carbon rationing program that has been 
implemented so far--the Kyoto Protocol--has fared in achieving its 
objectives. I have required my staff to research the underlying science 
and read hundreds of studies, as well as major assessments of the 
science. I think it is fair to say that no other federal legislator has 
devoted more time and energy to this issue.
    There is no environmental issue that has become more politicized. 
Scientists have had their grant funding stripped, others have had their 
certifications threatened, and exaggerations have become commonplace. 
In fact, when a recent example of this was put on my web blog, there 
was so much concern that the 70,000 hits per hour crashed the Senate 
server.
    Unfortunately, this politicizing of the science has become so 
commonplace so that even the UN body created to provide the scientific 
justification of climate action has fallen prey to it. Just over a year 
ago, I addressed the Senate on how the UN Intergovernmental Panel on 
Climate Change had embraced highly questionable practices in its 
periodic assessments.
    In fact, the problems identified were so substantial, it led Lord 
Nigel Lawson--former Chancellor of the Exchequer and a Member of the 
House of Lords Committee that reviewed the IPCC--to state:
    ``I believe the IPCC process is so flawed, and the institution, it 
has to be said, so closed to reason, that it would be far better to 
thank it for the work it has done, close it down, and transfer all 
future international collaboration on the issue of climate change. . 
.''
    This is an astonishing statement, but when you look at the way the 
IPCC has conducted business in its past assessments, it is also 
perfectly reasonable. In an attempt to help the IPCC avoid some of the 
mistakes of the past, I have outlined dozens of constructive 
recommendations of the minimum changes needed for the IPCC to restore 
its credibility, and I hope everyone will take the time to read them.
    Perhaps this politicizing of the science is why Claude Allegre--the 
former French Socialist Party Leader and member both the French and 
U.S. academies of science who once warned of catastrophic global 
warming--has now reversed himself and urges caution, stating, ``The 
cause of this climate change is unknown. Is it man? Is it nature?''
    Of course, it is not only the science that has become politicized. 
A recent report by Sir Nicholas Stern that gained worldwide attention, 
known as the Stern Report, touted how it was much less costly to take 
draconian action now in order to avoid global warming impacts later. It 
was hailed as final proof that we must put the world on an energy diet, 
leading British Prime Minister Tony Blair to declare that this report 
represents ``the final word'' on why the world must act now.
    The only problem: within days, a growing chorus of economists--
regardless of their views on climate change--began pointing out its 
serious fundamental flaws. In fact, Richard Tol of Hamburg University 
last week said that:
    ``If a student of mine were to hand in this report as a Masters 
thesis . . . likely I would I would give him an ``F'' for fail. There 
is a whole range of very basic economics mistakes that somebody who 
claims to be a Professor of Economics simply should not make.''
    The fact is that the Kyoto Protocol and proposals on the drawing 
board will be extremely expensive. The Kyoto Protocol would cost the 
average household $2,700 per year. And it would accomplish virtually 
nothing. Even if the alarmists were right, the Kyoto Protocol would 
only reduce temperatures by 0.07 Celsius by the year 2050. Bills 
introduced in the Senate are no different. The Bingaman proposal would 
only reduce temperatures by 0.008 Celsius.
    Of course, while the U.S. was on an energy diet, the rest of the 
world would be free to continually increase their emissions. Here are 
some simple facts:
    China does not plan to accept carbon caps, and will become the 
world's largest CO<INF>2</INF> emitter by 2009--two years from now. It 
is building more than one new coal plant every three days. India and 
Brazil are not far behind. If they are not part of any effort, then 
efforts to curb emissions are doomed to failure.
    <bullet> The Kyoto Protocol--which is the only program that has so 
far tested the cap and trade scheme--is broken. Japan will not meet its 
targets. Canada will not meet its targets. Of the EU-15, only Britain 
and Sweden will meet their targets. And even Britain is no success 
story--virtually all its emission reductions off of the 1990 baseline 
occurred before it signed the accord in 1997. Since 1998, its emissions 
have been rising.
    <bullet> The United States, even though it does not have a federal 
carbon cap, has been more successful than most of the nations on the 
globe in reducing its emissions relative to GDP. But that isn't enough 
for some, because our economy is growing. This has led one recent study 
to advocate that the best way for Americans to combat global warming is 
to reduce their living wage. In short, poorer is better.
    <bullet> Not one piece of legislation introduced this year meets 
the test laid out in the Byrd Hagel and Bingaman resolutions that U.S. 
efforts to reduce greenhouse gases should: (1) not harm of the economy; 
and (2) include developing countries. Even the Bingaman bill introduced 
this year fails the test.
    In regards to the 10 companies which announced their Climate Action 
Partnership last week, I would like to introduce into the record a 
commentary from the Wall Street Journal. This outlines the fact that 
each of the companies from Duke to GE, will individually profit from 
their plan. It is not an example of companies thinking of the quote 
``common good'' as some of my colleagues have suggested, but more a 
case of climate profiteers.
    While I look forward to a vigorous debate this Congress I also look 
forward to vigorously pointing out the lack of scientific consensus, 
the real economic impact, and the effects of unilateral disarmament of 
our economy if we enact mandatory carbon reductions in the United 
States, while the rest of the world is failing to meet their goals.
    At this time I would like to make Senator Voinovich's statement 
part of the record.
    I would also like to insert all of my past climate speeches that 
I've given on the Senate floor in the record.

    [The referenced document follows on page 997.]
    Senator Inhofe. I also want to submit for the record the 
statement of Senator Olympia Snowe and also a statement by 
Senator Voinovich for the record.
    Senator Boxer. Without objection, so ordered.
    Senator Inhofe. Thank you, Madam Chair.
    [The referenced documents follow:]
       Statement of Hon. Olympia J. Snowe, U.S. Senator from the 
                             State of Maine
    Good afternoon, Madam Chairman and Members of the Committee. 
Holding this hearing on ``Senator's Perspectives on Global Warming'' 
today is admirable on your part, Madam Chairman, as you and others of 
us in the U.S. Senate care deeply about the issue of global warming and 
want to take action. I am testifying today because the issue of global 
warming is no longer seriously open to skepticism. The evidence is 
irrefutable and the cost of inaction incalculable. It is no longer a 
question of science--it is now a question of political will.
    Surely, in the numerous provisions of the various introduced 
climate bills we can find the keys to consensus and hopefully this 
hearing will help guide us in that direction. We should be able to find 
the most realistic and attainable path that averts negative impacts on 
our economy and strengthens our national security by decreasing our 
thirst for imported fossil fuels from the most volatile areas of the 
globe. I believe we can find the right course at the right cost.
    The U.S. comprises only four percent of the world's population yet 
emits 20 percent of the world's carbon dioxide, it's time our response 
to this crisis become proportional to our nation's contribution to the 
problem. Because of the lack of any movement on the part of the United 
States, two years ago, I accepted the co-chairmanship of the 
International Climate Change Taskforce, or ICCT, which consists of a 
group of respected scientists, business leaders, and elected officials 
from eight industrialized and developing nations.
    Our Taskforce report, ``Meeting the Climate Challenge'', published 
in January of 2005, was the culmination of close to a year's work 
across oceans and partisan lines--each of you has been given a copy. As 
you can see, the Report recommends ways to involve the world's largest 
economies in the effort, including the U.S. and major developing 
nations, to ensure that dangerous climate change can be avoided. In 
truth, the U.S. has given the major developing nations like China and 
India a ``get out of jail free'' card. The U.S. position has been to 
say that these emerging nations need to decrease their greenhouse gas 
emissions or we won't either.
    It is ludicrous to think we can expect large emerging nations to 
move toward reducing their emissions without any national action on our 
part. Only after the U.S. puts in place a mandatory carbon cap and 
trade system can we expect to sit at the international table and ask 
the poorer developing countries to take actions also. China is putting 
up one coal-fired power plant a week. China will surpass the U.S. as 
the largest emitter of CO<INF>2</INF> in the world around 2010. Yet, to 
its credit, China has more stringent CAFE standards in place than the 
U.S.
    The message today is that we in the Senate can take the ICCT 
recommendations and incorporate those applicable into our domestic 
global warming legislation, in particular, the Taskforce's first 
recommendation that defines a goal. If you don't know where you want to 
end up, there is no reason to start the journey. So, to begin our 
journey, to set our goal, the first ICCT recommendation reads, ``A 
long-term objective be established to prevent global average 
temperature from rising more than 2 degrees Centigrade (or 3.6 degrees 
Fahrenheit) above the pre-industrial level to limit the extent and 
magnitude of climate-change impacts.'' This is the foundation of the 
bill Senator Kerry and I introduced last year and will reintroduce this 
week. A goal such as this one is also an integral part of the 
Lieberman-McCain Climate Stewardship and Innovation Act of 2007, for 
which I am also a cosponsor.
    The reasoning behind this goal is solid; the Taskforce came up with 
the 3.6 degree Fahrenheit goal as, beyond this increase, scientific 
evidence suggests that there is a threshold of temperature increase 
above which the extent and magnitude of the impacts of climate change 
increases significantly--a tipping point that threatens human societies 
and ecosystems. For example, there will be substantial agricultural 
loses, billions more people will be at risk of water shortages, and 
there will be widespread adverse health impacts, floods, and droughts. 
Also, beyond that threshold, scientists predict the likely loss of 95 
percent of coral reefs and irreversible damage to forest areas, 
including the Amazon Rain Forest. Above the threshold, irreversible, 
abrupt climate change may increase, such as the loss of the Antarctic 
and Greenland ice sheets, the potential shutdown of the the North 
Atlantic conveyor belt, and transforming the natural world from a net 
carbon sink--one that takes up CO<INF>2</INF>--to a net carbon source--
one that releases CO<INF>2</INF>.
    We need to take medium-term action and set goals up to 2050 for 
reductions of CO<INF>2</INF> emissions in order to bring concentrations 
back down to levels that are consistent with a high probability of 
limiting warming to 3.6 degrees Fahrenheit by the end of the century. 
Such an approach would enable long-term options to be reassessed as new 
knowledge becomes available.
    In order to meet the 3.6 degree goal, the Taskforce recommended a 
global framework that brings all countries into action on climate 
change at the international level over the coming decades for steps 
leading to limiting their greenhouse gases through post-2012 emissions 
reductions commitments. This international framework would build on the 
UN Framework Convention on Climate Change (UNFCCC)--which the U.S. 
Senate ratified in 1992--and the Kyoto Protocol, as honored by most of 
the developed world.
    Madam Chair, we need to seize on a bold new program like President 
Kennedy did in sending a man to the moon, when, on September 12, 1962, 
he stated, ``We choose to go to the moon in this decade and do the 
other things, not because they are easy, but because they are hard, 
because that goal will serve to organize and measure the best of our 
energies and skills, because that challenge is one that we are willing 
to accept, one we are unwilling to postpone, and one which we intend to 
win.'' On July 21, 1969--less than seven years later--Astronaut Neil 
Armstrong walked on the moon. This is how we should be addressing 
global warming.
    This Friday, the Intergovernmental Panel on Climate Change, 
composed of 2,500 scientists from more than 130 countries, will release 
a stunning six year report on the current science of climate change. 
The IPCC will tell us that a rise in temperatures of 3.6 to 8.1 degrees 
Fahrenheit by the end of this century is likely. The IPCC will say it 
is at least 90 percent sure than human activities, led by the burning 
of fossil fuels, are to blame for global warming over the past 50 
years. IPCC Chair, R.K. Pachauri--who was also a science advisor to our 
Taskforce--stated, ``I hope this report will shock people, governments 
into taking more serious action as you really can't get a more 
authentic and a more credible piece of scientific work. `` He went on 
to say, ``There are a lot of signs and evidence in this report which 
clearly establish not only the fact that climate change is taking 
place, but also that it really is human activity that is influencing 
that change.''
    Arctic glaciers and polar ice caps millions of years old are 
melting. Sea levels are rising globally. Our own federal agency, NOAA, 
reporting that 2006 was the warmest year since regular temperature 
records began in 1895 and the past nine years have been among the 25 
warmest years on record for the contiguous U.S. CO<INF>2</INF> releases 
today will remain in the atmosphere for at least 100 years--and 
concentrations will rise in the coming decades. Just think--
CO<INF>2</INF> emissions from Henry Ford's very first car are still in 
the atmosphere. Clearly, we can't afford to wait any longer.
    This past Sunday, the Boston Globe ran a very disturbing article on 
how the climate is altering the regional character and economy of New 
England. While admittedly only a snapshot, many scientists say that for 
a growing number of reasons, they are confident that New England's 
century-long heat rise is significantly related to global warming. They 
have noted that temperatures began accelerating around 1970, the same 
time overall global temperatures rose as well, and that the temperature 
rise is lasting longer than during previous warm stretches in the last 
century that we attributed to natural variability.
    Madam Chair, weather is an integral part of the economy in my State 
of Maine and others as well. It is time to curb the warming. We cannot 
wait any longer--we need to act now. There are other important 
provisions I believe should be included in a climate bill, such as 
research on abrupt climate change and ocean acidification, but those 
are under the jurisdiction of other committees. Today I hope I have 
left you with a compelling reason to establish a goal based in science 
in the hopes you will include such a goal in any climate legislation 
you consider in your committee. Thank you.
                               __________
     Statement of Hon. George V. Voinovich, U.S. Senator from the 
                             State of Ohio
    Chairwoman Boxer, I want to thank you for holding this hearing. As 
the former Chairman of the Subcommittee on Clean Air, Climate Change, 
and Nuclear Safety, I have had a keen interest in this issue and look 
forward to the debate I know the Committee and Senate will have on this 
very important matter.
    Simply mentioning this issue can spark a heated discussion about 
the future of our planet and actions that should or should not be 
taken. The wide disparity of views is showcased on the Environment and 
Public Works Committee where members call climate change both the 
``greatest hoax'' and our ``greatest problem.''
    While some may push for no action, several of my colleagues have 
put forth proposals to impose significant restrictions on the emissions 
of greenhouse gases. Unfortunately, these proposals would be 
devastating to our country because they ignore our economic and energy 
needs. These proposals would have a significantly negative impact on 
our nation's economy, cause extensive job loss, and raise electricity 
and natural gas prices.
    Higher costs of natural gas would be overwhelming to our country. 
Over the past six years, natural gas prices have increased over 300 
percent. We have the highest natural gas prices in the world, impacting 
families who depend on it to heat their homes and businesses that use 
it to make their products. Due in large part to these increased prices, 
the U.S. has lost more than 3.1 million manufacturing jobs since 2000 
and my State of Ohio has lost nearly 200,000.
    Jack Gerard with the American Chemistry Council testified before my 
Subcommittee on February 9, 2006:

          ``In a few short years, the U.S. chemical industry has lost 
        more than $50 billion in business to overseas operations and 
        more than 100,000 good-paying jobs in our industry have 
        disappeared. Put another way, the chemical industry went from 
        posting the highest trade surplus in the nation's history in 
        the late 1990s to becoming a net importer by 2002.''

    Concerns about natural gas prices led the Senate to take two major 
actions last year to address this problem. First, we made available an 
additional $1 billion for the Low Income Housing Energy Assistance 
Program--or LIHEAP. Since 1999, funding for this program to provide 
assistance to low-income households to help with their heating or 
cooling costs has increased by about 70 percent.
    Second, Congress passed the Gulf of Mexico Energy Security bill to 
open more than 8.3 million acres on the Outer Continental Shelf for oil 
and gas leasing. Passage of this bill has the potential to develop an 
estimated 5.8 trillion cubic feet of natural gas--enough to heat and 
cool all five million Ohio homes for over 15 years.
    If these climate change proposals were passed, we would eliminate 
any progress associated with these two actions. EIA predicts that coal 
use would decline sharply and more natural gas would be used to 
generate electricity. This would further increase the demand for 
natural gas and use up any additional resources that we expect to 
extract from the Gulf of Mexico. As EIA predicts, the bill would drive 
up the price of natural gas even further. The impact would be 
astronomical costs to the poor, the elderly, and the middle class in 
this country--and of course, there would be an even greater need for 
increased LIHEAP funding.
    This is the problem with our nation's tail wagging the dog 
environmental policy. For far too long, we have failed to consider the 
impact our environmental policies have on our energy and economic 
needs. Part of the reason is that we have many groups that have only 
one concern--the environment. As the father of the Ohio EPA with a 
strong record on clean air and a lifelong proponent of Great Lakes 
restoration, I am an environmentalist that must balance many different 
needs.
    The United States is in the midst of an energy crisis. It is time 
for a `Second Declaration of Independence'--independence from foreign 
sources of energy--and for our nation to take real action toward 
stemming our exorbitantly high oil and natural gas prices. Instead of 
considering them separately, we must harmonize our energy, environment, 
and economic needs. This is an absolute must as we consider any 
additional actions to address climate change.
    Advocates of climate change proposals attack the U.S. for not doing 
anything--but this is simply not true. I am going to address two very 
important questions today: (1) what are we doing; and (2) how are we 
doing?
    In 2002, President Bush established a national goal to reduce 
greenhouse gas intensity (emissions per unit of GDP) of the U.S. 
economy by 18 percent by 2012. To meet this goal, the United States is 
spending more than any other nation and has created many different 
programs. The federal government has devoted nearly $29 billion since 
2001 to climate science, technology, international assistance, and 
incentive programs, and the President's Fiscal Year 2007 budget calls 
for $6.5 billion for climate-related activities. The Administration has 
also implemented more than 60 federal programs, and I will summarize 
several of them:
    <bullet> Climate Leaders is an EPA partnership encouraging 
individual companies to develop long-term, comprehensive climate change 
strategies. Over 100 corporations are participating in the program.
    <bullet> Climate VISION is a Department of Energy public-
partnership program involving fourteen major industrial sectors and the 
membership of the Business Roundtable, who have committed to work with 
four cabinet agencies to reduce greenhouse gas emissions in the next 
decade.
    <bullet> The Climate Change Technology Program is a multi-agency 
program that increases the development and use of key technologies 
aimed at reducing GHG emissions. The FY2007 budget included almost $3 
billion for the program.
    <bullet> The Climate Change Science Program is a multi-agency 
program led by the Department of Commerce, and the FY2007 budget 
included $1.715 billion.
    <bullet> The SmartWay Transportation Partnership is a voluntary 
partnership between various freight industry sectors and EPA designed 
to increase energy efficiency and reduce greenhouse gases and air 
pollution.
    <bullet> For the first time, the Department of Agriculture is 
providing targeted incentives through its conservation programs to 
increase carbon sequestration in soils and trees and to reduce methane 
and nitrous oxide emissions from crop and animal agricultural systems.
    While these are examples of domestic programs, there are numerous 
international actions as well. In fact, the United States has 
established 15 climate partnerships since 2001 with countries and 
regional organizations that together account for almost 80 percent of 
global greenhouse gas emissions.
    <bullet> The Asia-Pacific Partnership for Clean Development and 
Climate involves six nations--Australia, China, India, Japan, South 
Korea, and the United States. It is designed to promote the development 
and deployment of cleaner energy technologies to meet pollution 
reduction, energy security, and climate change concerns. This 
Partnership is unprecedented given that these developed and developing 
nations collectively represent about half of the world's manmade carbon 
dioxide emissions.
    <bullet> The Methane to Markets Partnership focuses on advancing 
cost-effective, near-term methane recovery and use as a clean energy 
source from coal beds, natural gas facilities, landfills, and 
agricultural waste management systems. This Partnership, which involves 
18 countries, is very significant because methane is a greenhouse gas 
that is more than 20 times more potent than carbon dioxide.
    <bullet> The United States worked with the United Kingdom and other 
G-8 partners to launch the 2005 Gleneagles Plan of Action, which 
contains over fifty actions to address climate change, development, 
energy security, energy access, and air pollution. Additionally, 
President Bush and European Union leaders will enter into a High Level 
Dialogue on Climate Change, Clean Energy and Sustainable Development 
this fall.
    <bullet> The United States launched the International Partnership 
for the Hydrogen Economy as a vehicle to organize, co-ordinate, and 
leverage multinational hydrogen research programs that advance the 
transition to a global hydrogen economy.
    In addition to all of these domestic and international actions, 
Congress also acted comprehensively to address climate change with 
enactment of the Energy Policy Act of 2005.
    <bullet> The energy bill provides for about $5 billion in tax 
credits and incentives over 5 years that will help to unleash 
substantial new capital investment in cleaner, more efficient 
technologies.
    <bullet> Research and development funding is provided for long-term 
zero or low emitting greenhouse gas technologies, including fuel cells, 
hydrogen fuels, and coal gasification.
    <bullet> It includes extensive provisions to increase energy 
efficiency and conservation.
    I also worked to include three bills that Environment and Public 
Works Committee Chairman Jim Inhofe and I authored to provide for the 
safe and secure growth of nuclear power. These initiatives combined 
with the loan guarantee and production tax credit provisions in the 
energy bill have provided a foundation for the industry to pursue new 
nuclear power plants. The Nuclear Regulatory Commission currently 
expects to receive license applications for more than 30 new nuclear 
reactors in the next two to three years. Due to the energy bill, our 
country is experiencing a nuclear renaissance--which means we will 
hopefully be utilizing more on this emissions-free power, and relying 
less on foreign source of energy.
    Even though these provisions all address climate change, I joined 
Senators Chuck Hagel and Mark Pryor to successfully include an 
amendment by a vote of 66 to 29 to promote greenhouse gas reducing 
technologies domestically and abroad. This amendment authorized the 
very important Asia-Pacific Partnership that I mentioned earlier. Last 
year, we led a letter that a total of 21 senators signed in support of 
the President's request of $52 million for this important initiative.
    Clearly, we are doing a lot--but how are we doing? Are all of these 
programs and funds having an impact? The answer is a resounding yes, 
which I will show through two main points.
    First, the United States has engaged developing countries such as 
China and India. In 2005, I visited China where it became clear that 
they must be involved in any effort due to the large number of coal 
plants that they are building.
    According to a June 11, 2006 New York Times article entitled 
``Pollution from Chinese Coal Casts a Global Shadow'':

          ``The increase in global-warming gases from China's coal use 
        will probably exceed that for all industrialized countries 
        combined over the next 25 years, surpassing by five times the 
        reduction in such emissions that the Kyoto Protocol seeks . . . 
        Already, China uses more coal than the United States, the 
        European Union, and Japan combined . . . Every week to 10 days, 
        another coal-fired power plant opens somewhere in China that is 
        big enough to serve all the households in Dallas or San Diego . 
        . . To make matters worse, India is right behind China in 
        stepping up its construction of coal-fired power plants--and 
        has a population expected to outstrip China's by 2030.''

    According to EIA's International Energy Outlook 2006, Organization 
of Economic Cooperation and Development (OECD) countries accounted for 
53 percent of world carbon dioxide emissions in 2003 with non-OECD 
countries, which include China and India, making up the remaining 47 
percent. By 2030, non-OECD countries will account for 60 percent of 
world carbon dioxide emissions. These countries will also account for 
77 percent of the projected increase in global emissions from 2002 to 
2030.
    My staff attended the 11th Conference of the Parties to the United 
Nations Framework Convention on Climate Change in Montreal at the end 
of 2005. The primary focus of the two week meeting was post-2012, since 
the Kyoto Protocol's commitment period ends at that time. My staff met 
with the representatives from the Group of 77, which is made up of the 
developing nations. They strongly stated that all countries including 
the U.S. should commit to the Kyoto Protocol and then another round of 
reductions before they would even begin any discussions about mandatory 
reductions for themselves.
    Through the Asia-Pacific Partnership, the United States has been 
able to finally bring China and India to the table on this important 
issue. Without their involvement, any efforts by countries to reduce 
greenhouse gases will be completely offset by emissions increases in 
developing countries.
    Now to my second point, the United States is meeting its intensity 
goal and is doing as well or better than other nations.
    To meet our greenhouse gas intensity reduction target of 18 percent 
by 2012, there needs to be an average annual rate of improvement of 
about 1.96 percent. EIA preliminarily estimates that carbon dioxide 
emissions intensity improved in the U.S. by 3.3 percent in 2005. This 
means that we are on target to meet our goal and may even exceed it.
    The overall progress of the United States compares favorably with 
other countries--even those that have signed the Kyoto Protocol. Based 
on data reported to the UN Framework Convention on Climate Change, from 
2000 to 2004, the major developed economies of the world are at about 
the same place as the U.S. in terms of actual greenhouse gas emissions. 
Emissions are increasing in some countries and decreasing in others--
but no country is decreasing its emissions massively. In fact, the U.S. 
has seen its actual emissions increase at a rate of 1.3 percent 
compared to 2.1 percent for the European Union.
    In summary, I think the United States is unfairly criticized on 
this issue of climate change. In reality, we are doing more than any 
other country in terms of our overall effort. Since 2001, our nation 
has taken action to address climate change by spending almost $30 
billion, implementing more than 60 federal programs, establishing 15 
international partnerships, and enacting an Energy bill.
    The great news is that this effort is working. We have brought 
developing countries to the table and are doing as well or better than 
other nations that have committed to very costly mandatory programs.
    Chairwoman Boxer, I want to thank you for holding this hearing, and 
I look forward to working with you and other members of this Committee 
to find the right balance.

    Senator Boxer. Senator, thank you very much for your 
statement. Since today is the day we are taking the temperature 
of members of the Senate, I will put you down as skeptical on 
global warming.
    [Laughter.]
    Senator Inhofe. Undecided. How is that?
    [Laughter.]
    Senator Boxer. Leaning no.
    Well, Senator, thank you. I know you will miss us 
throughout the day, but any time that you can come back, please 
do. If we don't get a quorum here this morning because of 
people coming and going, we will do something off the floor 
together to pass the budget, if that is all right with you.
    Thank you, Senator.
    Needless to say, we do have strong disagreements. I 
disagree with some of the charts up there, but the point is, 
today is not the day for give and take. Today is a day for us 
to affirmatively say how we feel about the topic. I think that 
Senator Inhofe did do that. Now, I am going to take a chance 
and lay out what I think is the case.
    My colleagues, I believe we must act now to address global 
warming. I believe it is our responsibility. I believe it is 
our duty. I think an issue like this comes along very 
infrequently, an issue as important. I believe it is our 
challenge. We did not choose to be here now, but we are. Fate 
has thrown us together on this committee now. I am very hopeful 
we will step up and meet this challenge.
    I do believe that a consensus has been built among 
scientists, and I also think a consensus is being built among 
the American people. A recent Time Magazine/ABC News poll found 
that 88 percent of our people say that global warming threatens 
future generations. We are at an historic moment, and I believe 
the tide is turning. A real consensus is coming. It is coming 
together around this issue in a way that has never happened 
before.
    Scientists, the public, even the Bush administration agree, 
global warming is real and humans are making a serious 
contribution. I want us to take a look at what a growing chorus 
of voices is saying across the Country about global warming. 
For that, I am going to use a series of charts, if we could do 
that.
    [The referenced document follows on page 127.]
    The National Academies of Sciences from the United States, 
Japan, Russia, United Kingdom, France, Germany, Italy, Canada, 
China, India and Brazil all agree, ``There is now strong 
evidence that significant global warming is occurring. It is 
likely that most of the warming in recent decades can be 
attributed to human activities. We urge all nations to take 
prompt action to reduce the causes of climate change,'' 
sciences, 11 academies, 2005.
    Next chart? U.S. Climate Action Partnership is the one I 
have, American business. American businesses call for action on 
global warming, and they endorse goals that match the toughest 
proposal. I would say to my committee, this was an historic 
moment early last week when ALCOA, British Petroleum, 
Caterpillar, Duke, and DuPont got together with Environmental 
Defense, Florida Power and Light, General Electric, National 
Resources Defense Council, Pew Center on Global Climate Change, 
Pacific Gas and Electric Corporation, PNM Resources, and World 
Resources Institute.
    They say, we, the members of the U.S. Climate Action 
Partnership, have joined together to recommend the prompt 
enactment of national legislation in the United States to slow, 
stop and reverse the growth of greenhouse gas emissions over 
the shortest period of time reasonably achievable. I think that 
is a breakthrough in and of itself.
    The next chart, an urgent call to action by scientists and 
evangelicals, who have united. The evangelicals, we agree that 
our home, the Earth, which comes to us at the inexpressibly 
beautiful and mysterious gift that sustains our very lives, is 
seriously imperiled by human behavior. The harm is seen 
throughout the natural world, including a cascading set of 
problems such as climate change. This is another breakthrough.
    The next chart? The reason I am saying this is, I am trying 
to show the consensus here. I want us to be part of that State 
and local actions to address global warming. Thirteen States 
and 376 mayors from all 50 States recognize the threat of 
global warming and have taken steps to address the threat. I 
have copies of all these charts that I will give to colleagues.
    I will go to the next chart; a sample of editorial boards 
from across the Nation. We have several of these. I am not 
going to read them all. I am just going to tell colleagues that 
we have them. These are from, yes, California, New Orleans, 
Idaho, the Columbus Dispatch, the Tennessean, the Atlanta 
Journal-Constitution. They say while the political debate in 
the United States over global warming spins in mindless 
circles, scientific evidence that manmade gases are dangerously 
leaving the planet keep piling up.
    Senator Lautenberg. Madam Chairman?
    Senator Boxer. Yes?
    Senator Lautenberg. Was one of those an Ohio newspaper?
    Senator Boxer. Yes.
    Senator Lautenberg. Thank you.
    Senator Boxer. And then Newport News Daily Press, Anniston 
Star, Alabama. Idaho, did we see that already? OK, thank you.
    There is never enough time to do everything I want to do, 
but that gives you a sense of what we have done.
    Oil companies, on the need for action on global warming, 
yesterday the head of Shell called me and discussed this with 
me. Here he is quoted, ``For Shell, the debate on climate 
change is over. It is time to work on solutions. A national 
approach to greenhouse gas management is important to the 
future. Such an approach requires a regulatory framework that 
enables markets to work for both supply and demand side needs. 
It would be very challenging to have different State by State 
regulatory requirements.''
    So this gives you the reason why we need to move forward, 
because States and localities are doing this.
    U.S. Defense Department sponsored a report. In cutting to 
the chase, they say disruption and conflict will be endemic 
features of life if we don't reverse this.
    President Bush in his State of the Union, technological 
breakthroughs will help us be better stewards of the 
environment. They will help us to confront the serious 
challenge of global climate change. That was the State of the 
Union we all heard.
    Interior Secretary Kempthorne, when asked about a proposal 
to list polar bears as threatened under the Endangered Species 
Act, and he says, ``We are concerned. The polar bears' habitat 
may literally be melting. The Administration treats climate 
change very seriously and recognizes the role of greenhouse 
gases in climate change.''
    There is more. Tony Blair, ``We know it is happening. We 
know the consequences for the planet. We now know urgent action 
will prevent catastrophe, and investment in preventing it will 
pay us back many times over. We will not be able to explain 
ourselves to future generations if we fail.'' Tony Blair.
    I think that covers it, but again, I have all these for 
Members if you wish.
    We know what is happening. The science is clear. The planet 
is getting warmer because humans are releasing too much carbon 
pollution into the atmosphere. If we fail to take action on 
global warming, we can expect future catastrophic impacts like 
rising sea levels, more extreme weather events of all kinds, 
damage to coral reefs and fisheries, and negative impacts on 
food production and water supplies.
    We need to act soon before we reach a tipping point, when 
irreversible changes to the world we know may occur.
    Now, we know what sectors in our economy emit these 
greenhouse gases. That is not a secret. Thirty percent of the 
emissions come from the mobile sources, transportation. Forty 
percent of the emissions come from powerplants. Industry, 
commercial and other sources are the remaining 30 percent.
    We know what we have to do in order to avoid the worst 
effects of climate change. It is important to stabilize 
emissions and hold temperature rise to less than 2 
<SUP>+</SUP>F from where we are now. In short, we need to cap 
and eventually significantly reduce our greenhouse gas 
emissions.
    Now, I am very proud of my home State of California, which 
enacted AB 32, an economy-wide global warming bill. This 
bipartisan law, signed into law by a Republican and worked on 
with a Democratic legislature, sets a mandatory cap on carbon 
pollution, including a 25 percent reduction from projected 
levels by 2020. The Governor also signed an executive order, a 
goal of an 80 percent reduction in greenhouse gases by 2050 
from 1990 levels. A consensus again is developing that we must 
take action at the Federal level now.
    On June 22, 2005, a majority of the Republican-controlled 
Senate, in a 53-44 vote, supported action on climate change 
through the Bingaman Resolution. The resolution was a sense of 
the Senate resolution that supported mandatory emission limits.
    There is much to gain in our efforts to reduce greenhouse 
gas emissions. For example, increasing our energy efficiency 
will help us save money, make us more energy independent, help 
cleanup our air, and reduce carbon pollution. I know some of 
you do have concerns about that. In an effort to make the 
Federal Government a model, I will be introducing legislation 
to accelerate the effort to make thousands of Federal 
Government buildings managed by the GSA models of energy 
efficiency, starting with lighting systems.
    The GSA owns or leases over 340 million square feet of 
space in nearly 9,000 buildings located in every State. GSA 
calls itself the largest property manager in the United States. 
I am working directly with the Bush administration on this 
effort to see if we can find common ground and achieve the goal 
of making these businesses a model of efficiency. Similarly, 
energy efficiency standards for appliances can save lots of 
energy and save money for consumers.
    So the point I am making here, my colleagues, is when we do 
these things, it is good for the American pocketbook. Using 
renewable fuels fights global warming, and also will reduce our 
dependence on oil, help cleanup the air. I have introduced 
legislation that would support the development of cellulosic 
ethanol, which can be made from agricultural waste, grass, and 
many other plants.
    Planting trees and other plants which absorb carbon can 
create carbon sinks. The ocean is known as a carbon sink. Trees 
and greenery are known as carbon sinks. This type of carbon 
sequestration should be considered.
    There are many benefits to fighting global warming. As we 
meet this challenge, new technologies will be invented and 
exported. Jobs will be created, and these new technologies will 
be needed by the world.
    I remember when I first got involved in air pollution 
control, it was when I was a county supervisor and I belonged 
to the Air Pollution Control District in the Bay Area of San 
Francisco. The biggest argument against doing anything is that 
it would cost jobs. At the end of the day, it created jobs. I 
think the great genius of American entrepreneurship will rise 
to this challenge. It is already starting.
    When we succeed in the battle against global warming, the 
oceans also will be healthier. Right now, the oceans are 
showing strains from absorbing too much CO<INF>2</INF>. Again, 
our oceans have acted like a sink for carbon, and scientists 
are warning us about trouble with coral reef die-offs and 
potential long-term impact on fisheries.
    There are many approaches to the issue of global warming. 
Several of our colleagues have tackled the issues in very 
positive ways. Some of them are here today, Senator Carper, 
Senator Alexander, Senator Lieberman, who will be back, and 
others. Some take an economy-wide approach, and I mean to say 
Senator Sanders as well, others an industry-specific approach. 
So whether it is economy-wide or industry-specific, all of 
these bills are making a great contribution.
    I know it is no secret that I called the Sanders-Boxer 
bill, originally written by our dear friend and colleague Jim 
Jeffords, the ``gold standard'' bill, because it is 
comprehensive and it takes bold action which I personally 
believe is warranted by the facts. My goal is, of course, to 
get us as close as we can to that gold standard, which is 
reflected in the California program. But I am a realist, and I 
know only by working together can we move forward with 
legislation.
    I pledge to you today, my colleagues on all sides of the 
aisle, that all Senators will have a seat at the table as we 
move toward action.
    Ladies and gentlemen, I am an optimist. I believe in our 
ability to act and I am counting on this committee, which has a 
distinguished history, to move us forward. After the Cuyahoga 
River caught fire in Ohio in 1969, and many of our lakes and 
rivers were open sewers, this committee responded with a 
comprehensive remedy, enacting the Clean Water Act in 1972. 
Today, we look with pride on the improvements in water quality.
    When the air was so dirty you could see it, and there were 
few tools to address it, our committee responded with the Clean 
Air Act in 1970. Our work is not done, but the air is much 
cleaner and safer now.
    When contaminated tap water was causing widespread 
waterborne disease and exposing people to cancer-causing 
chemicals, our committee stepped up and enacted the Safe 
Drinking Water Act in 1974.
    Now, we must face the challenge of global warming. I 
believe it is one of the greatest challenges of our generation. 
It is once again our turn to stand up and lead this great 
Country to a bright future that will energize our people here 
at home and across the world. This is a challenge. I believe we 
can and I believe we will meet, because I believe so much in 
the quality of the people on this committee.
    Now, it is my pleasure to call on Senator Isakson.

OPENING STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Isakson. Thank you, Madam Chairman. I will not take 
all 10 minutes, but I appreciate the opportunity to address the 
subject. I appreciate your giving us a chance to express 
ourselves.
    I come from the belief that there are two great motivators 
in life. One is fear and the other is reward. I don't think 
there is any question that there are things going on that we 
can respond to, and I don't think there is any question that in 
the end it is us and it is American industry, business and 
enterprise that can be the solution, not necessarily just the 
whipping boy.
    First of all, the Chairman took away one of my examples, 
the Cuyahoga River, but there are many other examples we can 
point to where Congress pointed out areas where we could 
improve, and we improved. But in each and every one of those 
areas, it was the innovation, many times in the private sector, 
that brought about that improvement.
    For example, recycling. The biggest problem we had in solid 
waste disposal 20 years ago was tires, newsprint, polyethylene, 
all these things that went in and never went away. They never 
naturally dissolved. So we created a use in the Country. Now we 
grind up tires and pave roads and sports fields with them. In 
fact, if you watch any professional football game played today 
on an artificial tuft, ground tires are the little black things 
that you see bouncing up in the air when they slide, to help 
cushion those particular athletes.
    Cigarette smoking. When the facts became clear and we in 
the Congress started making people aware of the dangers of 
cigarette smoking, not only did it create the beginning of a 
reduction in terms of people changing their habits, but more 
importantly it created opportunity in industry. Look at what 
the pharmaceutical industry has done in terms of smoking 
cessation. They have created product after product and 
innovation after innovation that help people do it. Why, in the 
end? I think it is the fact that facts were brought forward and 
people made conscious decisions.
    There are three things I want to focus on first of all, in 
terms of my interests. The first is conservation. Conservation 
is an important thing to do, but if you conserve every way you 
can on hydrocarbons, you can make about a 6 percent difference. 
But should we be doing that? Absolutely. It is a contribution.
    The second is innovation. Innovation is particularly 
important, and it is something this Congress ought to be 
incentivizing. Southern Company in Georgia, by way of example, 
is doing a coal gasification demonstration in Orlando, FL right 
now. That is one of the things we ought to be motivating, 
bragging about, and elevating, as somebody in the industry that 
is actually looking for a way to innovate, use something, coal, 
that burned as we do, we don't do anymore, but turn it into a 
gas that is cleaner, more efficient and it is better for the 
atmosphere.
    And motivation. Tax policy is good policy when it drives 
good decisions. It has been proven over and over again. I am a 
perfect example of that. Last year, I bought a hybrid car. I 
bought it for two reasons. One, I thought it was a good thing 
to do and I like 36 miles to the gallon. The other is, I am 
doing my taxes right now, and I just realized a Ford Escape 
hybrid has a $2,100 tax credit for a purchase of that vehicle. 
I commend Ford for doing it. I commend this Congress for 
creating the motivation through the tax, and we are now 
changing habits.
    If you look at 2008, what is happening in terms of the 
automobile industry both in the foreign industry and the 
domestic industry, things are changing in terms of what they 
are producing, not because we beat up on them, but because we 
made facts available, because we motivated people, and because 
people changed their attitudes and industry responded to it 
because of the motivation of why people are in business to 
start with.
    I think by disseminating facts, motivating the private 
sector, and not running off on political tangents to beat up on 
one side to dissatisfy another, we can make a huge dent in what 
is going on. But if we each decide to retrench and to lob barbs 
back and forth, without conscientious effort to cause good 
changes in people's practices, good innovation in business, 
then we will really not do what I believe the Chairman and the 
rest of the members of this committee want to do.
    Motivation, conservation, and innovation. I believe reward 
is the great motivator in human nature. Fear never accomplished 
anything. We should do everything we can to disseminate all of 
the facts around global warming, not just the ones that might 
tailor and be fitted to our argument. We must look at an 
overall landscape that motivates people to change where change 
is good for them and good for the environment. Remember always 
that in the end in our system and in our Country, what has made 
us great is the free enterprise system, innovation and 
competition. Don't stifle it through a punishing atmosphere 
that is all political, without the practical effect of making a 
change.
    Madam Chairman, I thank you very much for the opportunity 
to give my statement.
    Senator Boxer. Senator, I found your statement to be very 
important. Technology, innovation, incentives, and conservation 
are all part of what we will be doing. I really will be working 
with you on those areas. Thank you so much.
    Senator Carper.
    Senator Carper. Thank you, Madam Chairman.
    I have a statement I would like to submit for the record.
    Senator Boxer. Without objection.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. I think I would choose instead of giving 
that prepared statement, just to talk with my colleagues from 
my heart. I want to commend you for inviting us all to be here 
today. We sort of jokingly call this session ``open mic 
night,'' or actually ``open mic day.'' All 100 Senators have 
the opportunity to come in and talk about what I think is one 
of the gravest threats, but really great opportunities that we 
face as a Nation.
    There is an old Chinese saying that in crisis lies 
opportunity. I believe we do face a crisis, but I believe that 
crisis also includes with it significant opportunity.
    The President is on the road today. He is in Illinois. He 
is visiting a big company there called Caterpillar, to tout the 
strength of our economy. Last Wednesday, he was in my State, in 
Delaware. He visited the DuPont Company. He came to Delaware to 
the DuPont Company to our experimental station in order to put 
a spotlight on the great work that is being done by several 
thousand of the world's smartest scientists, to help reduce our 
reliance on foreign oil, on petroleum products like cellulosic 
ethanol and corn stalks, biobutanol, which DuPont is preparing 
to make out of sugar beets, a better alternative than ethanol, 
as it turns out. He wanted to spotlight the great work we are 
doing there on fuel cells and other technologies.
    The President doesn't know this, but as it turns out, the 
CEO of the company he is visiting today and the CEO of the 
DuPont Company that he visited last Wednesday, along with a 
number of their colleagues, banded together last Monday and 
they released a call for action. This is not a lot of 
harebrained, crazy treehuggers like some of us. These are some 
of our top business leaders in the Country, who promulgated 
this call for action. I am not going to read it all, but there 
is part of it I want to share with us.
    The call for action starts off like this, ``We know enough 
to act on climate change,'' that is their basic premise. ``The 
challenge is significant, that the United States cannot grow 
and prosper in a greenhouse gas-constrained world.'' They go on 
to say, ``In our view, the climate change challenge will create 
more economic opportunities than risks for the U.S. economy.'' 
Finally, they say, ``We need a mandatory, but flexible climate 
program.''
    They don't just stop there either. They go on and they lay 
out a bunch of design principles. I won't go through all those. 
They share with us their recommendations. The back of the 
publication, the copy which I am sharing with all of my 
colleagues on this committee, maybe all my colleagues in the 
Senate, on the back of the publication, it lists the companies 
that are involved in this. I just want to mention them: ALCOA, 
BP, Caterpillar, Duke Energy, DuPont, GE, Florida Power and 
Light, PG&E, and an outfit called PNM, which is a Power New 
Mexico, New Mexico Power.
    There are a couple of environmental groups, Environmental 
Defense, NRDC, World Resources Institute, an outfit called the 
Pew Center, and they banded together, not just to preach a 
sermon, but really to show us a sermon. You know the old 
saying, I would rather see a sermon than hear one. These folks 
are prepared to show us the sermon. By their own actions, 
reducing their own greenhouse emissions, and calling on the 
rest of us not to just watch this parade that is being formed, 
and there is a parade being formed, a parade of consensus 
around greenhouse gases and what to do about it. My friends, I 
will just tell you this. We can watch the parade, we can sort 
of join the parade, or we can lead the parade.
    I said to the President last Wednesday when we were riding 
back on Air Force One to Andrews Air Force Base from my State. 
I said, ``Mr. President, we have an opportunity to lead here. 
You need to lead.'' Frankly, we need to join him.
    Senator Alexander and I and others on this committee and in 
the Senate have been working for a number of years on an 
approach to greenhouse gas that is not economy-wide, but 
something that focuses just on utilities. Our Chairman has just 
said that utilities are responsible for about 40 percent of the 
CO<INF>2</INF> emissions that we are seeing produced in this 
Country. Our view is, let's get started on that. Let's get 
started somewhere.
    I respect those who have a view of sort of a climate-wide 
approach, and economy-wide approach on CO<INF>2</INF>. That is 
fine. I have joined Senators Lieberman and McCain in their 
proposal in past years. I will do it again this year. I regard 
their proposal and other comprehensive economy-wide proposals 
as the Interstate, the freeway. Senator Alexander and I have 
talked about this time and again. There needs to be an on-ramp 
onto the freeway. We need to get started. I believe the 
legislation that we will be introducing next week is that on-
ramp and helps us to get started.
    The question that is before us is, is it possible to come 
up with a plan not just CO<INF>2</INF> emissions, but sulfur 
dioxide emissions, nitrous oxide emissions, mercury emissions 
from utility plants, in a way that doesn't cost consumers an 
arm and a leg, and in a way that doesn't put our economy at 
disadvantage with the rest of the world, that doesn't cause our 
economy to founder? Is it possible to do this in a way that 
doesn't encourage the movement of electricity production from 
coal to more natural gas, and further spikes in natural gas 
prices?
    Is it possible to do this in a way that incentivizes clean 
coal technology, that incentivizes wind powers and other 
renewable forms of energy, that incentivizes for some of us a 
new look at nuclear generation, electricity generation by 
nuclear plants?
    We think that it does. We believe we have a proposal that 
meets that test.
    I like to use the analogy with respect to CO<INF>2</INF> 
emissions when I talk about Kyoto. The Jeffords proposal was 
very well intended, and I respect Jim Jeffords. I know we all 
do. In the proposal, some of us around this table, I know, were 
cosponsors of the legislation he offered and will cosponsor the 
successor. I will not, but I certainly respect him and the 
views he holds. But Kyoto, in the approach he laid out, he 
called for getting CO<INF>2</INF> emissions by 2010 in this 
Country, back to where they were in 1990.
    Now, I am an optimist, but I am not that optimistic. I 
think the proposal we need to follow basically looks more like 
this. I use the car analogy. Some of you have heard me give 
this before. Let me give it again. Imagine you are in a car 
going down the highway at 55 miles an hour. You put the car in 
reverse. That is really the sum and substance of what was being 
proposed in the proposal I just mentioned.
    I think there is a smarter approach. The smarter approach 
is this, slow down the car, slow down the growth of 
CO<INF>2</INF> emissions; stop the car; stop the growth of 
CO<INF>2</INF> emissions; put the car in reverse; reduce 
CO<INF>2</INF> emissions. That makes a whole lot more sense to 
me, and I suspect makes a whole lot more sense to you. It sure 
makes a lot more sense to the folks who banded together and 
presented us last week with what I think is a roadmap to walk 
away from what could be a tipping point. This is a tipping 
point in itself. This is a tipping point. This is a tipping 
point in the debate on how we can deal with this challenge, and 
do so in a way that helps our economy, strengthens our economy, 
and by the same token does something good for our planet.
    I will close with this. Just about everybody here on this 
committee has children. Some of us have grandchildren. We talk 
with our kids from time to time about the challenges that we 
face, the work that we do. I just talked with my son. My 
younger son, Ben, is a junior in high school, and I was telling 
him, Madam Chairman, about open mic night, open mic day, and he 
was kind of amused by that. But I told him what we were doing. 
I didn't say this to him, but I thought it. I just share this 
with all of you, with all of us.
    For those of us who have children and grandchildren, they 
know what we do. Sometimes they think what we do is important. 
Sometimes they are not so sure. This is important. If all the 
science we have been hearing for not just a couple of weeks or 
a couple of months or a couple of years, but a couple of 
decades, if all the science is actually true, we face a grave 
threat on this planet of ours. We have the opportunity to do 
something about it that doesn't jeopardize our economy, doesn't 
cost consumers an arm and a leg, doesn't ignore our enormous 
coal resources we have in this Country, but actually builds on 
those.
    I don't want to some day look at my kids in the eye, they 
are 16 and 18. I don't want to look them some day in the eye, 
10, 20 or 30 years from now, when we actually do reach a 
tipping point, when this phenomenon actually might be 
irreversible, and have them say to me, well, what did you do 
about it? What did you do about it when you had an opportunity? 
Weren't you in the Senate? Did you do anything to stop this?
    I want to be able to look them in the eye and say, I did 
everything I could. I tried to move heaven and earth to make 
sure we took a better course, a smarter course, a wiser course, 
for them and for our planet and for our Country. We can do 
that.
    I would ask each and every one of you to do two things. 
One, take a look at what this partnership has proposed. It is a 
tipping point and it is a good roadmap. Second, I would ask you 
to take a look at the work that Senator Alexander and I have 
done, along with a bunch of our colleagues. Take a look and see 
if it meets muster in your view. I strongly urge you to join us 
in this battle.
    Thank you.
    Senator Boxer. Senator Carper, I want to thank you for your 
eloquence and your hard work with Senator Alexander in the 
Power Plant Sector bill. We are really looking forward to 
seeing the details of the bill.
    I also want to thank you for, in such a strong way, calling 
attention to this new coalition that has developed between the 
business sector and the environmentalists. I think if you look 
at evangelicals, the business sector, we have these groups that 
we never had before saying to us, ``please act.'' I want to 
thank you for that.
    Just for members to know when they will be called on, I am 
going to go to Senator Bond next, then Senator Lieberman, then 
Senator Alexander, and then Senator Lautenberg. We will 
continue to go back and forth.
    Senator Bond, before I call on you, I again want to thank 
you for your hard work on the highway number in the CR. I think 
it was terrific that we all worked together on that. So please, 
you have 10 minutes.

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Thank you, Madam Chair. Patty Murray, the 
Chair of the Transportation Appropriations Committee and I 
worked, along with you and Senator Baucus, and we were very 
pleased it came out. I thank you for holding the hearing today, 
and I particularly thank my colleague from Delaware for 
pointing out how we get there is important.
    I think it is very important that we make sure that we do 
not fight climate change on the backs of the poor, on the backs 
of certain sectors of this Country, and do not take short-term 
steps that will jeopardize our ability to come to long-term 
solutions.
    The weak, the infirm, the vulnerable are all in the 
crosshairs of some of the proposals that have been put forward 
to address climate change. If you are worried about the 
economic divide between rich and poor, immediately imposing 
carbon caps could have a drastic impact. Carbon caps will 
increase the cost of basic necessities that families cannot do 
without, heating in the winter, air-conditioning in the summer, 
and lost blue collar jobs that support middle-income families, 
particularly in the heartland of the Nation where I live.
    Unfortunately, carbon caps will hit hardest those with the 
least ability to pay. Do we really want to do that, make life 
harder and more expensive for the weakest parts of our society? 
The problem is that energy for heat, air-conditioning and jobs 
produces carbon missions. If you limit carbon, you limit 
energy. When you make something scarce, you make it more 
expensive. But carbon cap proposals don't stop there. They also 
decide who gets less of the limited amounts of energy. Many 
proposals do this through auctions that drive prices up even 
higher because we will pay twice, first for the energy and the 
second at an auction just to buy it. The poor and elderly can't 
even afford to pay their heating bills now. How much will they 
suffer if they have to pay again for auctioned energy?
    Will people be forced to forgo, when they must instead pay 
higher energy costs? Will a low-income family in the rural 
parts of my State forego food in their pantry? Will we force 
them to choose between heat or eat? Will a fixed-income senior 
in the cities choose between buying prescription drugs needed 
to survive, or running the air-conditioner in sweltering 
summers of St. Louis?
    We as Senators need to know how these carbon cap proposals 
or limitations will impact our States, our less fortunate, our 
struggling. Unfortunately, we don't have those answers yet. 
Witnesses testifying before the Energy Committee this week on 
the Bingaman plan said it would have very little macroeconomic 
effect. I am not from the State of macroeconomics. I am from 
the State of Missouri. I need to know how these proposals will 
hurt Missourians.
    Many efforts give us national averages, $1,000 per family. 
I know lots of people who have drowned in water over their 
heads in lakes that average 3 feet deep. Some families may 
escape relatively unharmed and pay little. Others, depending on 
how they heat or how they support their family, may pay 
thousands more, or even lose tens of thousands of dollars if 
the workers lose their jobs.
    But cap proponents have not done their homework. The 
Senator from Hawaii, a State with some of the highest costs for 
electricity and gasoline in the Nation, asked how the Bingaman 
cap plan would affect his State. He was told that nobody knew. 
Well, that is not going to be good enough for responsible 
members who want to know how these proposals will hurt their 
constituents.
    Now, I think that States in the Northeast and the West 
Coast will be spared some of that hardship because the energy 
needs they have are supplied by natural gas, to which they have 
easy access. I would go back to a statement I heard Nobel 
Laureate Glenn Seaborg make over a quarter century ago. He 
said, ``To use natural gas and electricity and a combustion 
boiler to generate electricity is like heating your home by 
throwing your most valuable antique furniture in the 
fireplace.'' I will describe why in just a moment.
    States currently dependent on coal, however, to meet their 
energy needs, like my State and States throughout the Midwest, 
the Great Plains and the South, are going to face extra 
hardships. Unfortunately, carbon cap proponents have not done 
the homework that tell us how those plans will hurt these 
families. States with white-collar service workers may be fine, 
but caps will hit hard States with manufacturing, States with 
energy-intensive industries such as steel, aluminum and other 
metals.
    Carbon cap proponents have not said how we will take care 
of these workers. Workers who make products dependent on 
natural gas will suffer, and they already are. Their feedstock 
will be in demand to generate more power, making raw materials 
more expensive. Many of these natural gas-dependent industries, 
plastics, chemicals, pharmaceuticals, have moved to other 
countries, to China for example. Farmers who depend upon 
natural gas for the nitrogen in their triple number fertilizer 
are being squeezed, and they can't leave. They are being hit by 
cost increases on their input.
    Many Missouri families have all these traits, low-income, 
fixed-income seniors, manufacturing, or coal-dependent. We have 
far too many families suffering through winters who have 
already lost their jobs to China. Some have said we need not 
face these choices, that we can solve our carbon emissions 
problems through a combination of efficiency, savings, and 
renewables. Well, I am all for efficiency savings and 
renewables, couldn't be a stronger supporter.
    Greenpeace recently put out a new report, however, called 
Energy Revolution: A Blueprint for Solving Global Warming. It 
says that their energy revolution would install wind generating 
capacity by 2050 or 464 gigawatts. That is 464,000 megawatts of 
electric power from wind power, a 100-fold increase from the 
current wind generating capacity.
    Well, where we could do wind generating, I am very proud of 
it. Missouri's own Kansas City Power and Light recently 
completed construction of the Spearville Wind Facility with 67 
wind turbines, at capital cost of $166 million, generating 100 
megawatts of emissions. However, using this experience to see 
what Greenpeace expects, we would need 309,000 wind turbines at 
a cost of $767 billion. These turbines stretch side by side, 
400 feet tall, visible 15 miles away, and would stretch over 
12,000 miles, completely encircling the coast of the United 
States. Turbines would line up our shores from Maine to 
Florida, around to Texas, stretch all the way to California to 
Washington, and almost completely encircle Alaska.
    Has anybody seen what happened when we tried to put some 
wind turbines off of Massachusetts? Well, the ``not in my 
backyard,'' the NIMBY syndrome hit. Hey, listen, we want energy 
conservation; we want to use renewable energy, hey, but don't 
put it off of my shore.
    Well, I happen to live one-half mile from a biodiesel 
plant, and about 20 miles from a nuclear power facility, and I 
am delighted. If we had natural gas in Missouri, I would be 
happy to drill for natural gas. Unfortunately, people off the 
coast do not want to drill for natural gas. I would offer them 
a trade. They could have our lead. If they want to mind the 
lead that we mine in Missouri, and let us drill for natural 
gas, we would be happy to have natural gas in my backyard. But 
these costs of over $1 trillion for wind generated electricity 
just don't make sense.
    Now, I am not satisfied with the status quo. Biofuels, 
ethanol and biodiesel can cut carbon emissions. Missouri 
utilities are increasing their renewable power generation. 
Missouri farmers are supplying biofuels. But we also need to 
make coal clean. We have 250 years of energy in coal. Coal is 
dirty when you burn it. You have to have scrubbers or fluidized 
bed combustions. But we can do more. We can push the technology 
to get it ready so we don't bring pain to those least able to 
bear it.
    Carbon caps, which would heavily impact fiscally coal 
companies and utilities, would penalize the very companies that 
we are expecting to put $1 billion or more into each coal or 
liquefaction or gasification plant. We cannot take short-term 
steps that will compromise our ability ultimately to use our 
most abundant energy source, and that is coal, by gasifying it, 
or liquefying it, separating out all of the pollutants, 
including carbon, and sequestering the carbon. It is a big 
challenge. It is going to cost a lot of money, but we ought to 
get serious about doing it.
    We need to know in the meantime what regions of our 
Country, of the States, what cities will be affected by these 
proposals, just as the Senator from Delaware said. What sectors 
of the economy, what types of jobs, who holds them, who will 
lose them, what types of workers, blue collar, union, are most 
at risk? What types of people, families, young, old, 
struggling, will face burdens too high?
    Only then will we be able to produce a responsible future 
that not only meets our environmental needs, but assures we 
meet our social justice needs and continue to have a growing 
economy that can afford the investment we must make in 
continued productivity and an environmentally friendly way.
    Thank you, Madam Chair.
    [The prepared statement of Senator Bond follows:]
     Statement of Hon. Christopher S. Bond, U.S. Senator from the 
                           State of Missouri
    Madame Chairman, thank you for seeking our views on climate change 
strategies. I hope you will take them to heart. Simply put, we must not 
fight climate change on the backs of the poor.
    The weak, the infirm, the vulnerable, are all in the crosshairs of 
proposals that you Madame Chairman, Senators Lieberman and McCain, and 
others have put forward to address climate change. If you truly are 
worried about the economic divide between rich and poor, carbon caps 
will only widen that gap.
    The reason is that carbon caps will increase the cost of basic 
necessities that no family can do without--I am talking about heating 
our homes in the winter, air-conditioning our homes in the summer, and 
lost blue collar jobs that support middle-income families. 
Unfortunately, carbon caps will hit hardest those with the least 
ability to pay. Is this what we really want to do? Make life harder and 
more expensive for the weakest parts of our society?
    The problem is that energy for heat, air-conditioning and jobs 
produces carbon emissions. If you limit carbon, you limit energy. And 
when you make something scarce, you make it more expensive.
    But carbon cap proposals don't stop there. They must also decide 
who gets less of the limited amounts of energy. Many proposals do this 
through auctions that will drive prices up even higher because we will 
pay twice--the first time to make the energy and the second time at an 
auction just to buy it. Many poor and elderly can't even afford to pay 
their heating bills now. How much will they suffer if they have to pay 
again for auctioned energy?
    What will people be forced to forgo when they must instead pay 
higher energy costs? Will a low-income family in rural Missouri heating 
their mobile home with electric space heaters forgo food for their 
pantry? Will we force them to choose between ``heat or eat''? Will a 
fixed-income senior have to choose between buying the prescription 
drugs they need to survive or running their air-conditioner in the 
sweltering summers of St. Louis?
    We as Senators need to know how these carbon cap proposals will 
impact each of our States, our less fortunate, our struggling. 
Unfortunately, the answers have not yet arrived.
    Witnesses testified before the Energy Committee last week that the 
Bingaman plan would have very little macroeconomic effect. Well I'm not 
from the State of Macroeconomy. I represent the State of Missouri. I 
need to know how these proposals will hurt Missourians.
    Many efforts give us national averages, such as $1,000 per family, 
but these plans will not hit all States, families, or workers equally. 
Some families may escape relatively unharmed and pay little. Others, 
depending on how they heat their homes, or how they support their 
families, may pay thousands more, or even lose tens of thousands of 
dollars if they are the workers who lose their jobs.
    But cap proponents have not done this homework. The Senator from 
Hawaii, a State with some of the highest costs for electricity and 
gasoline in the Nation, asked how the Bingaman cap plan would affect 
his State. He was told that such a state-by-state analysis had not been 
done. Well that's not going to be good enough for the responsible 
members who want to know how these proposals will hurt their 
constituents.
    I have to think that States in the Northeast and West Coast will be 
spared hardship because their energy needs are supplied by natural gas, 
to which they have easy access.
    States currently dependent on coal to meet their energy needs, such 
as Missouri, but including States all throughout the Midwest, Great 
Plains and South will face extra hardship. Unfortunately, carbon cap 
proponents have not done this homework to tell us how their plan will 
hurt families in these specific States.
    States with many white-collar or service workers may be fine, but 
caps will hit hard States with manufacturing. States with energy 
intensive industry such as steel, aluminum or other metals will have 
suffering workers. But carbon cap proponents have not done this 
homework to tell us how their plan will hurt these specific workers.
    Workers who make products dependent on natural gas will suffer. 
Their feedstock will be in demand to generate more power, making their 
raw material more expensive. Plastics, fertilizer, automotive, 
chemicals, pharmaceuticals workers will all suffer. Many energy and 
natural gas dependent blue-collar workers have already lost their jobs 
to low-cost China. Again, carbon cap proponents offer no details of how 
their plans will hurt these workers.
    Missouri has families and workers with all of these traits: low-
income, fixed-income senior, manufacturing or coal dependent. We have 
far too many families suffering through winters, or who have already 
lost their blue-collar family supporting jobs to China. I cannot 
blindly go into what may bring them even more pain and hardship.
    Some have said we need not face these choices. That we can solve 
our carbon emissions problems through a combination of efficiency 
savings and renewables. Some quick and easy calculations reveals that 
this is pie in the sky.
    For example, Greenpeace recently put out a new report called 
``Energy Revolution: A Blueprint for Solving Global Warming.'' It 
claims to show how wind and solar energy combined with efficiency 
advances could replace coal to reduce carbon emissions.
    Unfortunately, their proposals are also drastically impossible and 
impractical. Their Energy Revolution requires installed wind generating 
capacity in 2050 of 464 gigawatts. That is 464,000 megawatts of 
electricity from wind power--a staggering number in itself and a 100-
fold increase from current wind generating capacity.
    Now I support increased power generation from renewables including 
wind power. I am very proud that Missouri's own Kansas City Power and 
Light recently completed construction of their Spearville wind 
facility. Its 67 wind turbines, at a capital cost of $166 million, will 
generate 100 megawatts of emissions free electricity.
    However, using this experience to see what Greenpeace expects, we 
would need 309,000 wind turbines at a cost of $767 billion. These 
turbines side-by-side, 400 feet tall and visible 15 miles away, would 
stretch 12,229 miles. That would almost be enough to encircle 
completely the entire coast of the United States. Turbines would line 
our shores from Maine to Florida, around to Texas, stretch all the way 
up California to Washington, and almost completely encircle Alaska.
    To pay the $767 billion bill we would need every man, woman and 
child in America to pay $2,550, or family of four to pay $10,200. But 
these numbers assume Greenpeace's massive energy efficiency savings. If 
energy demand hits full predictions, we would need nearly 400,000 
turbines at a cost of nearly $1 trillion.
    Do the sponsors of the Boxer-Sanders carbon cap bill really expect 
us to spend $1 trillion on wind turbines? No, of course not. And yet, 
we continue to see these schemes pedaled as real solutions.
    Now I am not satisfied with the status quo. We can and must do 
better, including more with renewables. I am a big supporter of 
biofuels such as biodiesel that can cut carbon emissions by 30%. 
Missouri utilities are increasing their renewable power generation and 
Missouri farmers are helping supply biofuels. We also have nuclear 
power in Missouri. We can and must do more of all of these things.
    Serious people must also support making coal clean. We are working 
on technologies to gasify coal, burn it cleanly and capture the carbon 
emissions. We must do much more to figure out how and where we can 
affordably sequester carbon emissions.
    But what we cannot do is push past where technology is not yet 
ready and thereby intentionally bring pain and hardship to our weak and 
vulnerable families and workers.
    General legislation that leaves the details and dirty work to 
others, like those recently passed at the State level, is unacceptable. 
We cannot abdicate these questions or our responsibility to our 
constituents.
    To avoid this, we need to know what regions of the country, what 
States, what cities will be affected by proposals? What sectors of the 
economy, what types of jobs, their locations, who holds them and who 
will lose them? What types of workers, blue collar, union, are most at 
risk? What types of people, families, young, old, struggling, will face 
burdens too high?
    Only then will we be able to produce a responsible future that 
meets our environmental and social justice needs.
    Thank you.

    Senator Boxer. Senator, thank you so much.
    Before I call on Senator Lieberman, just two quick things. 
I want to respond just a little bit to what you said, because I 
think it is a very positive contribution. I also want to take a 
moment, now that we have a quorum, and I believe we have a 
quorum, to suspend the hearing for just a moment.
    [Whereupon, the committee proceeded to other business.]
    Senator Boxer. Senator Bond, I thank you for bringing up 
the issue that you did in a very eloquent way. We don't want to 
do anything on the back of the poor. I think environmental 
justice, as you call it, social justice is key. I think it is 
why we all come together around the LIHEAP Program and others 
things that we do.
    I do want to make one point about energy efficiency, 
because energy efficiency helps our families. I also want to 
say as far as coal is concerned, you are right. We cannot turn 
our back. We have 250 years of coal in America. We have to make 
sure that technology steps up and helps us resolve and solve 
this problem.
    I am kind of taking everybody's temperature on where you 
are coming from, and I really do appreciate the contribution 
you have made. Thank you so much, Senator.
    Senator Lieberman, we are very delighted you are here.

  OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, U.S. SENATOR 
                 FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Thanks, Madam Chairwoman. I hope that 
when I am done you will put my temperature down as ``hot.''
    Senator Boxer. I will do it right now.
    Senator Lieberman. Hot to get something done.
    I thank you very much for your leadership. Let me express 
to you how grateful I am that you are moving global warming to 
the top of this committee's agenda. You have been a longtime 
leader in this area of environmental concern. At times, as we 
both know, there weren't many people out there. I think now you 
and I hear the sound of the cavalry coming to meet this 
enormous challenge to our future and the future of those who 
will follow us here on Earth.
    The great thing is that it is a very diverse cavalry. Like 
you, Madam Chairwoman, I have been listening to our colleagues 
in the Senate. I have been reading what they have to say. I 
have been listening to leaders in the public, private and 
academic sectors, and reading what they have to say. It is hard 
not to conclude that the politics of global warming has 
changed, and a new consensus for action is emerging. It is a 
bipartisan consensus.
    I believe that in this Congress, we can adopt legislation 
that will begin to stop the advance of the warming of our 
planet. If we can achieve a consensus agreement here on this 
committee, and I believe a bipartisan consensus, we can take it 
to the Senate floor, join it up with legislation our colleagues 
in the House will pass, and I think ultimately enact strong, 
comprehensive global warming legislation.
    Now, people will then say, well, what about the President? 
Well, part of the change here occurred in the State of the 
Union a week ago. The President uttered less than a dozen 
words, but they were heard around the world. It is quite 
remarkable. I am looking for a bad meteorological metaphor, but 
it is as if the President created a seismic change at the 
bottom of the ocean that set off a positive tsunami of 
hopefulness around the world that the United States was ready 
to assume its leadership place in the global battle to stop 
global warming.
    So I think we have to build on that and start it right 
here. The time is right. Solutions are at hand, and coalitions 
of goodwill are forming across political and ideological lines. 
The often-varied orbits of Democrats, Republicans, and of 
course I have to add Independents, along with the business 
community, academic, and the environmental and scientific 
communities, seem to be moving into an alignment, creating what 
I think is the real probability that we can adopt strong 
legislation.
    Why is this happening? I think some of the questions that 
people have been asking about global warming are being 
answered. The first fundamental question that was being asked 
in the early stages of the battle to get something done here, 
was, is it real? Is it really happening? If it is happening, 
that the planet is warming, is it happening because of things 
we humans are doing?
    At the outset, those who were concerned were deriving their 
worst concerns from computer models. You couldn't really see 
it. Today, unfortunately, you can see that it is real. You can 
see it in the melting of ice masses on the Earth. You can see 
it in tides rising in different places on the Earth. You can 
see it in the movement of species, wildlife species, the 
endangerment of certain species. You can even see it in the 
beginning of movements of diseases.
    It is real, and the evidence, to me, and increasing 
consensus of people around the world, is that what we are doing 
is causing that real problem.
    A second question, I suppose, is can we afford it? I will 
talk about that a little more in my statement, but I think 
people are beginning to come to the point where they are 
feeling that doing something about global warming now will cost 
us a lot less than waiting to pay the costs of dealing with the 
effects of global warming, some of which may be catastrophic.
    The third question that has been raised is, what does it 
matter if we do it, and the Chinese and the Indians, the great 
rising economies of the world, don't do anything about global 
warming? That is a good question. It doesn't relieve us of our 
responsibility. It is actually a moral responsibility, but it 
is a responsibility to act to protect the people of the United 
States from a problem that we are the greatest cause of, 
because we emit more greenhouse gases than any other nation on 
Earth.
    But I hope that the President goes from that one sentence 
that he uttered in the State of the Union, to assuming a 
leadership role in bringing China and India, particularly, into 
a leadership group of developed and developing nations of the 
world to work on what might be called the post-Kyoto system for 
dealing with the reality of global warming. Chancellor Merkel, 
a great ally, Prime Minister Blair, a great ally, have 
suggested as much, and I hope President Bush will join them in 
that.
    Now, let me come back to where we are. I want to mention 
one final reason why I think this new consensus is emerging. In 
a classic example of the American Federal system at work, when 
the people see a problem and they want their government to 
protect them from it, but the Federal Government does not act, 
where do they go? They go the States and localities. The States 
and localities are acting, most notably the Northeastern States 
have come together in a tough anti-global warming compact. Of 
course California, our largest State, is now playing a 
leadership role.
    What does that do? It says to people in the business 
community that this is coming. So do we want to deal with what 
we are going to be asked to do in responding to a maze of State 
and local regulations and laws? Or are we going to have one 
national law that will give us predictability? That is part, in 
addition to their good citizenship and recognition of the 
reality of the problem, why business leaders are saying now, 
yes, it is worth the cost. In fact, it is going to save jobs 
and create wealth.
    I think most important is for us to go ahead in this 
committee, to seize this moment by listening to each other and 
trying to find a bipartisan common ground. I congratulate our 
colleagues, Senator Carper and Senator Alexander, who have done 
that with their proposal, which will reduce greenhouse-gas 
emissions from the electricity-generating sector of our 
economy. I hope that in our subcommittee, and I look forward to 
working with Senator Warner as Ranking Member, that we will be 
able to build on that bipartisan consensus.
    Madam Chairwoman, as you know, I have introduced 
legislation that I have sponsored in the last two Congresses, 
with Senator John McCain, the Climate Stewardship and 
Innovation Act. I am very grateful that this bill has the 
support of a broad bipartisan group, Senators Lincoln, Snowe, 
Obama, Collins, and Durbin, and our colleagues on this 
committee, Senators Clinton and Carper.
    Let me just talk briefly about the bill in the 2 minutes I 
have left. This bill does have a cap, because if you don't have 
a cap, you are not going to have results. But it uses the power 
of the marketplace and a cap and trade system, the kind that 
has worked with regard to the reduction of acid rain that was 
mandated in the Clean Air Act Amendments of 1990. Our bill 
would cap the greenhouse gas emissions of the electric power, 
industrial, transportation and commercial sectors of our 
economy at year 2004 levels by 2012. It would then lower that 
cap gradually so that it reaches one-third of the year 2004 
levels by 2050.
    The bill controls compliance costs by allowing companies to 
trade, save and borrow emissions credits, and by allowing them 
to generate credits when they induce noncovered businesses, 
farms and others to reduce their greenhouse gas emissions or 
capture and store greenhouse gases. The bill then would invest 
set-aside emission credits and money raised by the auction of 
those allowances for advancing several positive ends, such as 
deploying advanced technologies, protecting low- and middle-
income Americans from higher energy costs, keeping good jobs in 
the United States, and mitigating the negative impacts of any 
unavoidable global warming on low- and middle-income Americans, 
low-income populations abroad, and wildlife.
    This bill is sound. It is tested. I want to say to my 
colleagues on the committee, as good as I think it is, it is 
not perfect. I welcome the collaboration, the input from 
members of this committee to make the bill even better. I want 
to do the same with members of the Senate outside the 
committee, particularly Senator Bingaman, who has wrestled with 
these facts and offered solutions that demand careful 
consideration.
    Madam Chairwoman, in closing let me again thank you for 
your leadership and reiterate how eager I am to assist you as 
you lead this committee to the bipartisan solutions to the 
challenge of global warming that now lie within our grasp, both 
technologically and politically. It is time for us, in facing 
one of the truly great challenges of our time, to seize the 
moment and prove to the American people that here in Congress 
we can work across party lines to solve the problems they sent 
us here to solve.
    Thank you very much.
    [The prepared statement of Senator Lieberman follows:]
       Statement of Hon. Joseph Lieberman, U.S. Senator from the 
                          State of Connecticut
    Thank you, Madame Chairwoman. Let me start by saying how delighted 
I am by your accession to the chair of this committee, and how much I 
look forward to working under your leadership.
    Second, let me tell you how deeply grateful I am to you for moving 
global warming to the top of this committee's agenda. You have been a 
long-time leader on the need to confront the challenge of global 
warming. And you and I both know that was a lonely outpost for 
sometime.
    But now I think I hear the sound of cavalry coming and a new 
willingness to charge into this challenge head on.
    For months, I have been reading and listening both to my colleagues 
in the Senate and to leaders in the public, private and academic 
sectors. And I believe the politics of global warming have changed and 
that a new consensus is emerging. I believe that in this new Congress--
and under your leadership of this Committee--we can create bipartisan 
support here and then on the Senator floor for a strong, comprehensive 
bill to curb global warming.
    The time is ripe. Solutions are at hand. And coalitions of good 
will are already forming across political and ideological lines. The 
often varied orbits of Democrats, Republicans--and Independents--along 
with the business community, academia and the environmental and 
scientific community have moved into an alignment, creating a 
galvanizing, gravitational tug toward action.
    I believe it is crucial to our ultimate success that we proceed in 
a bipartisan manner from the very beginning of this process. For 
instance, one of my Republican friends on this committee, Senator 
Alexander, has already cosponsored my Democratic friend Senator 
Carper's bill to reduce greenhouse gases from the electrical generating 
sector of the U.S. economy.
    I want to help build and nurture this bipartisan momentum through 
the subcommittee I am privileged to lead with my good friend and 
colleague Sen. Warner. This week, in fact, I hope to notice a February 
7 subcommittee hearing that will examine the impacts of global warming 
on the wildlife and ecosystems that are central to our American values, 
way of life, and . . . our very livelihoods across this nation.
    Left unchecked, there is no region of the country that will not 
suffer from the effects of global warming and I invite all my 
colleagues on this committee to attend this hearing. The devastation 
wrought by rising sea levels, droughts, waves of insect borne diseases 
will sweep from coast to coast, leaving no one untouched.
    Madam Chairwoman, you and my colleagues here know that I have 
reintroduced legislation I sponsored with Sen. McCain in the last two 
Congresses to reduce global warming--the Climate Stewardship and 
Innovation Act.
    This bill has the bipartisan support of Senators Lincoln, Snowe, 
Obama, Collins, and Durbin, and my committee colleagues, Senators 
Clinton and Carper, having signed on as cosponsors as well.
    Several of my colleagues on this committee and in the Senate have 
expressed a concern that, in reducing greenhouse gas emissions, we 
might inadvertently force more American jobs overseas and increase the 
energy costs borne by low- and middle-income Americans.
    These are perfectly understandable, reasonable concerns. Indeed, 
Sen. McCain and I shared them when we sat down to write our bill. And 
we are both convinced that we can fight the quickening slide into 
catastrophic climate change in a way that actually creates new high-
paying jobs in the United States, improves this country's position in 
relation to its trading partners, and lowers Americans' energy costs 
over the long term.
    Our bill uses the power of the free market to promote the rapid and 
widespread deployment of advanced technologies and practices for 
reducing greenhouse gas emissions. Moreover, as I mentioned, it is 
designed to promote the economic well-being of low- and middle-income 
Americans, and to keep good jobs in the United States.
    The Climate Stewardship and Innovation Act would cap the 
greenhouse-gas emissions of the electric power, industrial, 
transportation, and commercial sectors of the economy at year 2004 
levels by 2012. It then would lower that cap gradually, such that it 
reaches one-third of year 2004 levels by 2050.
    The bill controls compliance costs by allowing companies to trade, 
save, and borrow emissions credits, and by allowing them to generate 
credits when they induce non-covered businesses, farms, and others to 
reduce their greenhouse gas emissions or capture and store greenhouse 
gases.
    The bill then invests set-aside emissions credits and money raised 
by the auction of those allowances in advancing several positive ends, 
such as deploying advanced technologies and practices for reducing 
emissions; protecting low- and middle-income Americans from higher 
energy costs; keeping good jobs in the United States; and mitigating 
the negative impacts of any unavoidable global warming on low- and 
middle-income Americans, low-income populations abroad, and wildlife.
    I believe our bill is sound. And with the help of Republicans and 
Democrats on this committee, we can make it even better. I for one will 
be very receptive to suggestions presented by my colleagues on this 
committee as to ways we can further protect American competitiveness 
and jobs.
    I will also work with those Senators not on this committee, who 
have devoted a great deal of thought and effort to the issue of cost 
control and the mechanics of an economy-wide, market-based emission 
reduction system.
    Here Senator Bingaman, the distinguished chair of the Energy and 
Natural Resources Committee, deserves special mention. He has wrestled 
with the facts and details of climate legislation as much as any other 
Senator, and his ideas merit careful consideration.
    Madame Chairwoman, let me close by again thanking you for your 
leadership and by reiterating how eager I am to assist you as you lead 
this committee to the bipartisan solutions that we know lie within our 
grasp.

    Senator Boxer. Senator, thank you for your long term 
leadership. I think that your partnership with Senator McCain, 
whom we will hear from this afternoon, has been a role model 
for us on this matter. I agree with you that we can do it in 
this committee.
    I also want to underscore something you said about the 
economic costs of not doing anything, because most people say 
it is going to cost up front. Nicholas Stern, who is the chief 
economist for the World Bank, said that $1 spent now will save 
$5 later because of the economic disruption that could come if 
we don't mitigate the problem. So I think this is something we 
need to keep discussing.
    So thank you very much. I understand members are coming and 
going. I have lots of other things to do, so please feel free 
when you need to leave.
    It is my pleasure to recognize Senator Alexander, then 
Senator Lautenberg.

 OPENING STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM 
                     THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Madam Chairman.
    The National Academy of Sciences of the United States, as 
well as the National Academies of Japan, Germany, China, and 
other nations, have agreed that human activity is having a 
significant influence on global temperature increases. I 
believe that amounts to a scientific consensus and that it is 
now time for Congress to take reasonable steps to reduce U.S. 
emissions of greenhouse gases.
    In my judgment, the right first step would be the one that 
Senator Carper described, a market based system of greenhouse 
gas permits that would limit carbon dioxide produced by 
electric utility generating plants in the United States. This 
would affect about 40 percent of the carbon dioxide produced in 
our Country.
    Senator Carper and I introduced legislation in the last 
Congress to do this. We expect to do it again within the next 
several weeks. Our legislation is a little different in that it 
affects the utility generators, about 40 percent of the carbon, 
and it also is what we call an ``integrated'' approach. It puts 
stricter controls on the other major pollutants which come from 
fossil fuel plants, sulfur, nitrogen and mercury, which have 
created a serious clean air problem in many parts of the 
Country, especially in eastern Tennessee, where I live.
    I don't believe that it is wise at this point to enact one 
of the various legislative proposals that would impose carbon 
controls on the entire economy.
    We have looked pretty carefully, Madam Chairman, to try to 
make sure that our bill can be accomplished at a minimal cost. 
We believe that it can, through the modeling that was done 
working with the Environmental Protection Agency in the last 
session of Congress. We try to clean up air pollution from 
existing plants through a combination of emission caps, market 
based trading, offsets, and technology incentives. We believe 
that both reduces pollutants in the years ahead and does it at 
the most minimal cost.
    And importantly, since coal is such an important part of 
our electricity production in the United States and will 
continue to be, we believe our bill will make it possible to 
use coal abundantly, while keeping the air clean and healthy in 
a cost-effective way.
    I would like to spend just a few minutes talking about that 
bill and why I care about it. Most of us are affected by where 
we come from. I come from the mountains of east Tennessee. I 
grew up in a county that includes a big part of the Great Smoky 
Mountain National Park. I might add, this is a very Republican 
county, very Republican area. We haven't elected a Democrat to 
Congress since Lincoln was President, and there is no 
indication we ever will.
    So the views that I am expressing are not partisan views, 
but they do express the views I believe of most of the people 
where I live. For example, the next county over is Sevier 
County, which is Dolly Parton's home. It also contains a lot of 
the Smokies, and is also a very Republican county. When I 
walked into the Chamber of Commerce in Sevier County and asked 
them what their No. 1 priority was a couple of years ago, they 
told me ``clean air.'' Clean air is the No. 1 priority because 
10 million people visit the Smoky Mountains Park each year. 
They bring a lot of tourism dollars with them. They come to see 
the purple haze that has been there since the days of the 
Cherokees, not the smog that is currently there. Current 
visibility on the haziest days in the Smokies is 15 miles. 
Natural visibility on the haziest days ought to be 77 miles. 
Visibility is an issue, and that affects our jobs.
    We are also concerned about the health impacts of all that 
smog on those of us who live there. East Tennessee fails to 
meet minimum Federal healthy air standards for fine particles 
and ozone, both of which cause serious health damage. Knoxville 
was the 14th most polluted city for ozone, for example. Ozone 
irritates the lung tissues. It increases your risk of dying 
prematurely. It increases the swelling of lung tissue. It 
increases the risk of being hospitalized with worsened lung 
diseases, and triggering asthma attacks. At risk in Knox County 
alone are 176,000 children, 112,000 seniors, 15,000 children 
with asthma, and 50,000 adults with asthma.
    So an integrated bill such as the Clean Air bill that 
Senator Carper and I propose would control all of those 
pollutants. Ozone is not emitted directly from tailpipes and 
smokestacks. The raw ingredients come from coal-fired 
powerplants and cars. They cook in the air when it is sunny and 
warm. Sulfur is in many ways our biggest problem. It is the 
primary contributor to the haze. It causes difficulty in 
breathing. It causes damages to the lung tissue and respiratory 
disease, and even premature death.
    Mercury is also a problem. Monitoring by the EPA, the 
National Park Service and others show that these areas have 
high levels of mercury deposits from air pollution. Our areas 
have more than most other parts of the Country. Recent studies 
have shown that much of that mercury comes from not very far 
away. It is polluting waterways, with mercury contaminating the 
fish we eat, posing a serious threat to public health.
    So we are concerned about mercury. We are concerned about 
nitrogen. We are concerned about sulfur especially, and as time 
goes on, we have become concerned about climate change. The 
leaves changed earlier when I was a boy. We used to look at 
October 15 as the day for that. There was more snowfall then 
than there is today, but that is not exactly a scientific 
analysis. But now we have the National Academy of Sciences of 
our Country and many other countries saying that our human 
activity is playing a significant role in the rising average 
temperature.
    So that is why I joined with Senator Carper 3 or 4 years 
ago to introduce our legislation, to move along, not just to 
clean up sulfur, nitrogen and mercury, but also to take what we 
believe is a reasonable first step to deal with carbon, the 
principal contributor to climate change. The bill will cut 
sulfur dioxide emissions by 82 percent; nitrogen oxides by 68 
percent; mercury by 90 percent, without trading. It would cap 
carbon dioxide emissions at 2001 levels, all these reductions 
to be achieved by 2015.
    It permits utilities to undertake projects that reduce or 
capture CO<INF>2</INF>, such as planting trees. These are known 
as offsets. Why focus on powerplants? Well, first, as has been 
said two or three times here, they produce about 40 percent of 
the CO<INF>2</INF>. Of greater concern is that emissions from 
powerplants are growing at nearly twice the rate of the economy 
as a whole. This trend will only accelerate if electricity 
companies build the more than 150 new coal-fired powerplants 
they are currently proposing.
    Fossil fuel powerplants provide more than 50 percent of our 
electricity nationwide. They emit more harmful air pollution 
than nearly any other source in the Country, including two-
thirds of the sulfur dioxide, one-quarter of the nitrogen 
oxide, and 40 percent of the mercury.
    Madam Chairman, I think we are at a point in our Country's 
history when we are ready with technological advances to deal 
with these clean air challenges, and to do it in a way that 
permits us still to have a very strong economy. Obviously, 
conservation and efficiency is the first and easiest thing to 
do. We can be aggressive about that, reducing electricity 
demand, lowering consumer utility bills, speeding the 
deployment of energy-saving appliances, lighting, and 
encouraging efficient building practices.
    Second is renewable energy. Senator Bond pointed out, I 
thought pretty graphically, that as important and as attractive 
as renewable energy might be today, it is only 2 to 3 percent 
of our electric production outside of hydropower. To take that 
to a very high number in this generation is not very practical. 
We don't need a national wind turbine policy. We need a 
national energy policy. Renewable energy is a part of it, but 
it is a small part.
    That takes us to nuclear power. Nuclear power produces 20 
percent of all of our electricity today, but 70 percent of our 
carbon-free electricity. That number must go up.
    And then to clean coal. We would be very unwise if we did 
not make sure that any legislation we passed did not make 
plenty of allowance for a future that is based on coal, an 
abundant source of electricity. There are now technological 
ways to use coal in clean ways that get rid of all four of the 
pollutants that our legislation seeks to control. Carbon 
sequestration technology has advanced to a great degree.
    So that is why I am here today. I care about clean air, and 
to deal with clean air I believe we have to deal with sulfur, 
nitrogen, mercury and carbon. I hope, Madam Chairman, that the 
legislation that Senator Carper has worked so hard on the last 
several years, and several of us on both sides of the aisle 
have cosponsored, will form a framework for responsible action 
this year in this committee.
    Thank you.
    Senator Boxer. Senator, I want to thank you from the bottom 
of my heart for the contribution you are making to this issue. 
I think you and Senator Carper, as Senator Lieberman and 
Senator McCain have proven, that we can work across party 
lines. I know that we have been working with both your staffs. 
I think the bill has moved in the best of directions. I am 
optimistic that whatever happens here, your work will have been 
a huge part of what we eventually do. So I just want to thank 
you very, very much.
    Now, just so we know, we are going to hear from Senator 
Lautenberg, if Senator Warner is not back, Senator Craig, if 
Senator Clinton is not back, and Senator Klobuchar. Is that 
right, Bernie? Was she here before you?
    Senator Sanders. She says so.
    [Laughter.]
    Senator Boxer. All right.
    Senator Lautenberg.

 OPENING STATEMENT OF HON. FRANK LAUTENBERG, U.S. SENATOR FROM 
                    THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Madam Chairman. I want to 
commend you for presenting an openness here that portends good 
things for the future. So my compliments for doing that.
    As I have listened to various presentations, I have to be a 
little defensive in terms of whether or not the question is 
livelihood or life. I don't think that ought to be the way to 
do the equation. The suggestion that we can't adapt our systems 
so that we are producing less carbon dioxide, less greenhouse 
gases, for me is a wondrous question.
    There are sources of revenue that are diverted to other 
things than important research like stem cell research of 
course, but in energy independence as well. If we had some of 
those funds available for these studies, maybe we could improve 
the situation that we face. It is shocking to me when finally 
with a lot of hard work, and there are no accusations intended 
here, but we see a report in today's New York Times. Madam 
Chairman, it was brilliant planning to have this report in the 
New York Times today from the world scientists, the U.N. 
Intergovernmental Committee on Climate Change, they are going 
to release their report on February 2 before this week is out.
    They say several things in there that kind of challenge 
what I am going to call the relative complacency that we have 
seen about this problem, and continually debate whether or not 
the costs for doing so are going to remove job opportunities, 
increase costs of living. The costs of dying are the ones that 
I don't want to pay.
    I don't want my grandchildren to be the substitute for the 
proverbial canary in the coal mine. I don't want anybody else's 
grandchildren to be the testing mechanism for seeing whether 
global warming is having a negative affect on our being. These 
scientists say things like this, their findings that the Arctic 
Ocean could largely be devoid of sea ice during summer later in 
this century. European Mediterranean shores could become barely 
habitable in summers, while the Alps could shift from snowy 
winter destinations to summer havens from the heat. Growing 
seasons in temperate regions will expand, while droughts are 
likely to ravage further the semi-arid regions of Africa and 
Southern Asia. Concerns about climate change and public 
awareness on the subject are at an all-time high. We know that.
    The chairman of the panel told delegates on Monday, and 
some time ago a report was developed for the use of the 
Pentagon, and I submit that we ought to see if we can get it 
distributed.
    Madam Chairman, this report was done in October 2003, and 
is a grim conclusion about what could happen as we continue to 
see sea levels rising. They are fairly close projections in 
time. We heard a commentary that Al Gore's pitch for the 
presidency is a primary reason, the production of the film that 
he helped produce, and displays very directly what the 
consequences are of the current trends toward global warming.
    I think that Al Gore did us all a major service. I am 
particularly disturbed that the evidence we see in front of us 
has not been taken seriously. My State of New Jersey had the 
unique leadership in the change in temperature among all 50 
States in the Country. We are at the top of the ladder in terms 
of the degree of change, not very comforting.
    I also want to talk, and start today by talking about the 
Doomsday Clock. The Doomsday Clock is maintained by the 
Bulletin of the Atomic Scientists, a group of international 
experts who are committed to our, ``security, science and 
survival.'' The hands on the clock convey how close the human 
race is to destroying itself, the metaphoric ``midnight'' or 
the end of life as we know it.
    In the past, the clock moved closer to midnight because of 
nuclear weapons testing or war, but this year the Doomsday 
Clock was pushed 2 minutes closer to midnight because of global 
warming. Stephen Hawking, scholar, author of ``A Brief History 
of Time,'' said, ``Terror only kills hundreds of thousands of 
people. Global warming could kill millions. We should have a 
war on global warming.''
    The United States needs to actively engage in the war on 
global warming, and it starts with this committee, Madam 
Chairman. I am pleased to see the action that you have kicked 
off today.
    The average global temperature in 2006 was 2.2 degrees 
warmer than the average temperature throughout the 20th 
century, and that is according to NOAA. This is not an anomaly. 
It is a recurring fact. The last seven 5-year periods were the 
warmest 5-year periods on record. As the temperature rises, our 
world suffers. Polar Bears, long a symbol of the wilderness, 
may soon have a new home, and that is on the threatened species 
list. Their habitat has already melted so much that bears have 
drowned swimming and searching for food.
    The ocean level is being altered. We know that the ocean 
level is rising, and it threatens coastlines across the globe. 
I have already pointed out the effects of what we are seeing 
could be gigantic in their outcome.
    The United States, the glaciers in Glacier National Park 
are shrinking. The park's largest glaciers are one-third of 
their 1850's grandeur. We also know that the Pentagon sees 
security risks coming from global warming, and I indicated that 
there is a report that was developed for the Pentagon.
    So here is Congress's choice: deny these real and rising 
impacts of global warming, or confront them. I think that what 
we have seen here today is a serious attempt to get the ball 
rolling. The answer is obvious. We have to act and here is what 
we need to do. We need to cap and reduce greenhouse gas 
emissions. We need to increase CAFE standards. We need to 
create incentives for cities and companies to go green and 
build green. The one thing that we have to end is censorship or 
suppression of government scientists' reports who do critical 
research on global warming. That has been going on.
    All of this has to be done right now. The public is taking 
better care of our environment. They want to do more. People 
are buying cars based on fuel efficiency by way of example. 
This year, Senator Sanders has a Global Warming Pollution 
Reduction Act, which calls for an 80 percent reduction in 
global warming pollutants by 2050, and I am pleased to be a 
cosponsor of that.
    So we end up now by saying, enough of this cynicism that we 
have seen in the past, enough of the suggestions that global 
warming was a hoax perpetrated on the American people. It is 
time for action and the time to start is now.
    Thank you very much, Madam Chairman.
    [The prepared statement of Senator Lautenberg follows:]
     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey
    Thank you Madam Chairman for holding today's forum on the biggest 
environmental threat of our time.
    I want to start today by talking about the Doomsday Clock.
    The Doomsday Clock is maintained by the Bulletin of the Atomic 
Scientists, a group of international experts who are committed to our 
``security, science and survival.''
    The hands on the clock convey how close the human race is to 
destroying itself--the metaphoric ``midnight,'' or the end of life as 
we know it.
    In the past, the clock moved closer to midnight because of nuclear 
weapons or war. But this year, the Doomsday Clock was pushed two 
minutes closer to midnight because of global warming.
    Stephen Hawking, the scholar and scientist said, ``Terror only 
kills hundreds or thousands of people. Global warming could kill 
millions. We should have a war on global warming. . . .''
    The U.S. needs to actively engage in the war on global warming. And 
it starts with this committee.
    The average temperature in the United States in 2006 was two-point-
two degrees warmer than the average temperature throughout the 
twentieth century, according to NOAA.
    And this is no anomaly--it is a recurring fact: the last seven 
five-year periods were the warmest 5-year periods on record.
    And as temperatures rise, our world suffers: The Polar Bear, long a 
symbol of the wilderness, may soon have a new home: the ``Threatened 
Species List.''
    Their habitat has already melted away so much that some bears have 
drowned swimming and looking for food.
    The ocean is being altered. We know the ocean level is rising, 
threatening coastlines across the globe.
    In Germany, the Alps could lose nearly three-quarters of its 
glacial mass this century, according to the World Glacier Monitoring 
Service.
    Back in the United States, the glaciers in Glacier National Park 
are shrinking. The park's largest glaciers are one-third of their 
1850's grandeur. If what the scientists say is accurate, Glacier 
National Park will have to drop the word ``Glacier'' from its name.
    We also know the Pentagon sees security risks from global warming. 
A 2003 Department of Defense report begins by saying ``There is 
substantial evidence to indicate that significant global warming will 
occur during the 21st century.''
    That same report says that Bangladesh could become nearly 
uninhabitable because of a rising sea; mega-droughts could affect the 
world's major breadbaskets, such as America's Midwest--and future wars 
could be fought over the issue of survival in this new, hotter climate.
    So here is Congress's choice: Deny these real and rising impacts of 
global warming?
    Or do what our citizens sent us here to do--confront them?
    The answer is as obvious as the problem. We simply have to act.
    And here is what we need to do:
    We need to cap and reduce greenhouse gas emissions from power 
plants and other facilities that pollute.
    We need to increase CAFE standards to get car and truck emissions 
down, and dependence on foreign oil down, too.
    We need to create incentives for cities and companies to go green 
and build green.
    We must end the censorship and suppression of government scientists 
who do critical research on global warming.
    And we must do all of this right now.
    The public is taking better care of our environment--and they want 
to do more. People are buying cars based on fuel efficiency, for 
example.
    Some in the private sector are taking better care of our 
environment. Last week, we had CEO's from some of America's largest 
companies, such as General Electric and DuPont, call for strong, 
national legislation to reduce greenhouse gas emissions.
    It's time for the federal government to wake up and do its part.
    This year, I am proud to co-sponsor Senator Sanders' ``Global 
Warming Pollution Reduction Act'', which calls for an eighty percent 
reduction in global warming pollutants by 2050.
    And I will be introducing the `High Performance Green Buildings 
Act' with Senators Snowe and Boxer. I also want to thank former Senator 
Jim Jeffords for his work on this issue.
    Buildings--from small apartments to skyscrapers--account for nearly 
forty percent of our greenhouse gases. And the federal government can 
have a major impact, because it is the biggest landlord in the country.
    So our bill promotes energy efficiency in the design and 
maintenance of federal buildings. And with greater efficiency, we get 
fewer greenhouse gases.
    On Friday in Paris, the International Panel on Climate Change will 
release its long-awaited report on global warming; the work of twenty-
five hundred scientists. It will paint a vivid portrait of how global 
warming is affecting our planet.
    With this report as a catalyst, my hope is that we can answer the 
Doomsday Clock's call--and take real action to protect future 
generations from the threat of global warming.
    Our children and grandchildren cannot afford us waiting any more.
    Thank you Madam Chairman.

    Senator Boxer. Thank you, Senator Lautenberg. I know you 
very well, and I know that everything you do is with the next 
generation in mind, and I thank you for giving us that 
perspective.
    I am very pleased to call on Senator Craig, a new member of 
the committee, but certainly one who has very firm ideas, and 
we look forward to hearing from you, Senator. You have 10 
minutes.

OPENING STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR FROM THE 
                         STATE OF IDAHO

    Senator Craig. Madam Chairman, thank you very much for the 
forum as we move forward on this issue. There are some givens 
here and there are some realities. I thought that what I ought 
to do at first is to suggest that most of us already have an 
opinion that we have shaped over a good period of time on this 
issue. Some of us have modified our opinion a bit.
    So I asked CRS to find out how much had been spoken by U.S. 
Senators on climate change. Well, here are my speeches, Madam 
Chairman. I will ask you to file them for the record; 59 of 
them on the floor of the Senate since the 102d Congress. Now, 
here is CRS's search of the rest of you. These are not the 
actual speeches. This is imply referencing the 50,000 pages 
spoken on the floor of the U.S. Senate approximately since the 
102d Congress on this issue.
    [The referenced document follows on page 139.]
    As we all know, we have voted numerous times on a variety 
of proposals, and each time they have failed. They have failed 
out of skepticism and concern on the part of a good number of 
us that we hadn't quite got the science right, and we were 
going to plunge, as some of us have suggested, our economy into 
a recession or depression that would dramatically impact our 
citizens.
    I find it ironic that in the recession of this Bush 
administration, when we lost 3 million jobs in our Country, we 
hit 1990 emission gas levels that are the Kyoto principles. 
Actually, Kyoto is 1990 minus 5.2 percent. So with the loss of 
3 million jobs under current technology, 5 years ago we met the 
standard.
    So some of us who have argued at that time that we should 
not move until we knew what to do, I must say we were 
reasonably accurate in our projection. Like many of you, I have 
traveled the world to climate change conferences. I found it 
fascinating when I listened to some countries talk about what 
they could do and what they were going to do.
    Now, all of those that ratified Kyoto, by 2012 there will 
only be two countries remaining that are in or near compliant: 
Sweden because they are dominantly hydro and nuclear; and Great 
Britain because they rush to gas. The rest of them will be 
substantially out of compliance, and the reason is really quite 
simple: to grow an economy in today's world you have to have 
energy, and our forms of technology that produce that energy 
are less than clean.
    So Japan will be well out. Italy will be well out. By 2012, 
most of them will have stepped back and walked away from Kyoto.
    But Kyoto was a beginning of a discussion that I think is 
tremendously important for us. I think the environmental 
community, at least the extremists, were frustrated because 
they lost and they were not used to losing these kinds of 
debates. But when you promise the developing world that the 
only way to save their future is with a candle and living in a 
cave, you should accept the rejection that Kyoto got.
    I find it interesting, the former Vice President was in my 
State recently, a large gathering, talking about The 
Inconvenient Truth, which is the new packaging of an old book, 
but I guess he is going to get Hollywood to recognize him for 
that. But I find it very principled that the World Food 
Organization, World Health Organization and the United Nations 
itself don't support his approach. Why? For the very reason all 
of us have talked about the importance of doing it right. And 
that is that we do not want to subject the rest of the world to 
the status quo. We should obviously enhance the world toward a 
better life, and that is where technology comes in.
    I was telling Senator Carper a few moments ago, don't 
apologize to your kids. Don't say you haven't done anything to 
date. That is simply not true. We passed the National Energy 
Policy Act in 2005 and in the last three quarters, it has 
produced the largest investment in the history of this Country 
in clean technology. When we passed it in July 2005, there was 
one nuclear reactor on the drawing board. Today, there are 30 
nuclear reactors on the drawing boards, and probably half of 
them will be built.
    We are investing heavily now in coal gasification. We are 
standing up an ethanol distillery about one a week, to the 
point where we are now consuming 20 percent of the corn supply 
of our Country. We have reduced cattle feeder prices by 20 
percent because of the lack of feed grains. Now, we will get 
that all in balance, but it is being driven, Madam Chairman, by 
what we collectively and in a bipartisan way have done.
    My sense is a rush to climate change at this moment, all 
due apologies to Senator Clinton, is something about a 2008 
election. Every so often everybody gets very, very anxious 
about this issue. I am one who said in 2001, our world is 
warming. I am going to be more sensitive to that, and I am 
going to be an advocate of all forms of technology in all forms 
of energy. I really believe that is where we ought to go.
    Madam Chairman, let me thank you for S. 167, cellulosic 
distribution. I am the guy who helped get the loan guarantee 
that we finally got stuck in the CR this last week that will 
stand up the first cellulosic commercial plant somewhere in the 
United States. We ought to be about all of that.
    I am one of those who convinced this President to openly 
and publicly denounce Kyoto, and he did. I said, ``Mr. 
President, once you do that, though, you must do something 
more. You must then lead the world in clean and new 
technologies, because in the absence of that, we will not get 
where we need to get in the world.''
    The Asian Pacific Initiative is a direction that he has 
taken. It is a good one. It brings China and India into the 
fold, to begin to talk more about nuclear and less about coal.
    I am not at all frightened about our future, and I am not 
going to wring my hands and play politics with this issue. I 
will vote for the right kind of technologies. I will not vote 
to penalize the consumer. Senator Bingaman, in a very sincere 
way, last week rolled out an idea that has been studied now. 
Environmentalists said it is less than half of what we need, 
but it impacts every consuming household by $800 a year, and it 
is minimal in the cap and trade concept of today's technology.
    As a result of that, that is a penalty or a price to pay. 
If in solving the cap and trade approach and bringing on the 
kind of revenues that it will generate, we turn to the American 
consumer and say you are going to have to pay $1,200 or $1,400 
a year. We pick winners and losers. That is where we find the 
money to do all the new technology works, I am not sure that is 
quite the direction we ought to head in.
    I assume that consumers are going to pay more for energy. I 
say quite often that the bad news about the summer was gas was 
$3 a gallon. The good news is gas was $3 a gallon. It created 
one of the greatest levels of conservation for a period of time 
in our Nation's history. Why? Because consumers made a choice: 
price is a moderator. There is no question about that.
    At the same time, it also stimulated the greatest 
investment in new and clean technologies ever in our Country's 
history, backed up against EPAC, the Environmental Energy 
Policy Act of 2005. That is not to suggest that we ought to 
rest on our laurels, but doggone it, to suggest we have done 
nothing is simply a false statement, playing to the politics of 
today's emotion.
    This Congress moved in a substantial way, in a most 
significant bipartisan way in 2005. Now we ought to go steps 
further. I chastised the Administration last week for not 
funding appropriately, and this Congress failing to react to 
the necessary funding in the Energy Policy Act. I took on our 
new leader, Harry Reid, for not coming forth and finalizing 
appropriations bills. That is where all the research money is. 
That is where all the development money is.
    We are losing a year in time on all of these new 
technologies because we are not doing our homework, and not 
getting it done now. We ought to be held accountable for that.
    Madam Chairman, I am very excited about working with you on 
some of these tremendously important issues. There is no 
question they are of great import. But to sit here for 
political reasons and say we have done nothing, when we invest 
$3.5 billion a year in clean technology and environmental 
technology on a factor of five to one to the rest of the world. 
We are leading the world toward cleaner technologies, and we 
are the only Country who has the capability of doing that. For 
that, I am very proud.
    Thank you.
    Senator Boxer. Thank you, Senator.
    Let me just say, I did not hear anyone say we have done 
nothing. Honestly, I haven't, but that is how you interpret it. 
But I have to say, we are not here to vote our fears. We are 
really here to vote for solutions. I used a phrase in my 
opening remarks that I am an optimist about it. I think you are 
sitting next to a Senator who is an optimist. You and I have 
worked on cellulosics, and will continue. I think we will find 
that common ground.
    But I just have to say, we have done some things. I am glad 
you reminded us of what they are. But if you look at the 
studies that have been done internationally, the last one I saw 
out of the 56 largest emitters of carbon, they ranked them, we 
were No. 1. We know eventually, in 2009 we are expecting China 
to surpass us. They have done nothing, or next to nothing. But 
the argument is, since when do we wait for China to lead the 
world? That is wrong. We should lead the world.
    The point is, in this study we ranked 53 out of 56, just a 
few countries, I forget, they were Saudi Arabia, China and 
Malaysia had done less overall.
    Senator Craig. Madam Chairman?
    Senator Boxer. I will yield to you, because I want you to 
have a chance.
    Senator Craig. That is absolutely right, and it is 
consistent. We are 25 percent of the world economy today, and 
under today's technologies if you are 25 percent of the world's 
economy, you are going to be the largest emitter. We have 
lifestyles to prove it, and all of us live that lifestyle and 
none of us want to deny it to our citizens.
    I am not at all apologetic for that. I would suggest, and 
think I said it in my statement. We have the resources now to 
move the technology ahead to make the world a cleaner place, 
when few other nations of the world have it.
    Senator Boxer. OK. Well, I would just say that no one is 
suggesting destroying the American way of life. As a matter of 
fact, in my experience ever since I have been a county 
supervisor, as we have cleaned up our air, as we have cleaned 
up the drinking water, our quality of life has gotten better 
and better and better, and we have created jobs.
    I know we have some strong disagreements here, but today I 
am going to seize on the agreement we have on cellulosics and 
some other things. I also agree that many Senators have been 
heard over the years, and you point that out very clearly. But 
this is a different Senate. I mean, I would point out that 
there was an election, some retired, and some lost. It is 
important for me as the Chair, who does want to move 
affirmatively, and I hope in some ways you can help in some 
areas, to really see where people are today.
    I think this also is an area where there is more and more 
information coming out. Now, some of us embrace the information 
and say it is clear, and others attack the information. But 
this is not something that is a stagnant issue. But I do 
appreciate your eloquence on your side of things. I do hope 
that we can find those areas of common ground, and I believe we 
will. We have done it on Agriculture jobs, and we have done it 
on other things. I think we can do it here.
    I thank you very much.
    Senator Clinton, we are delighted to have you here and look 
forward to your remarks.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you very much, Madam Chairman.
    Obviously, we are going to have a lot of spirited 
discussions, but under your leadership I am not only hopeful, 
but confident that we will be able to reach a consensus about 
legislation that will set our Country on the course of 
leadership with respect to climate change that we should be 
exhibiting.
    I am sorry that Senator Craig is leaving, because I wanted 
to certainly express my very strong support for maintaining 
America's lifestyle. As I recall on my many visits to 
California, which has kept electricity use for 30 years, the 
lifestyle is pretty good. I think we can make progress, as has 
been put forth in this call to action by a number of 
organizations whose leaders, so far as I know, are not running 
for political office, who see this as an issue whose time has 
come.
    I, too, have supported cellulosic ethanol; signed onto the 
letter that Senator Craig circulated last year, and I am 
pleased that I hope we are going to get those loan guarantees. 
This is a big opportunity, certainly in my State, and in other 
places around the Country.
    But if we look at where we are, and even after the Energy 
Act, we are not making progress. In fact, emissions are still 
going up. That is another of those inconvenient facts that I 
think need to be addressed. So I am hoping that we can get 
beyond the usual rhetoric and try to find some common ground. I 
am confident that is exactly what our Chairwoman is attempting 
to achieve.
    From my perspective, if you look at the call to action, if 
it hasn't been done already, Madam Chairman, I would like to 
move to have the call to action that was issued by these 
distinguished American businesses made a part of the record.
    Senator Boxer. Without objection, so ordered.
    Senator Clinton. If you look at this, it makes several very 
important points. First, it unequivocally accepts the science. 
Now, this Friday, the Intergovernmental Panel on Climate 
Change, the so-called IPCC, will release its fourth assessment 
report. I hope that we can agree with our leaders of business 
and industry, and scientists around the world, that this is a 
problem whose time has come.
    Second, the call to action makes the point that standards 
drive technology. It is a chicken and an egg. There have been 
some positive developments because of the Energy Act, with much 
more investments in new technology and certainly looking for 
ways to incentivize the venture capital community, to be part 
of looking for solutions. But the Government must set the 
standards and lead the way.
    I have been struck, and I know you are having a hearing 
where we will have international representatives, next week, I 
think, or the week after. I have been struck by what happened 
in Great Britain, an economy and a culture similar to ours that 
decided to go into Kyoto. They not only have reduced emissions, 
increased conservation and efficiency, cleaned up their utility 
plant emissions, particularly, but they have created jobs.
    So I am one of those who believes that this is a win-win. 
It is good for our security. It is good for our environment, 
and it is good for our economy. Innovation is what will drive 
the responses we are looking for. It will also lead to 
increased American competitiveness. This is one of the areas 
that I am particularly interested in.
    I have been struck, despite some of the references to all 
the speeches that have been made, I have been struck in the 
debates we have had, principally around the Lieberman-McCain 
approach, which was the bipartisan approach on the floor of the 
Senate in the past several Congresses, at the level of 
pessimism that seemed to be expressed by some of my colleagues, 
as though we could not take on this issue because of dire and 
inevitable disastrous economic consequences.
    I reject that. We are the most innovative Nation in the 
history of the world. We have put our best minds to work. We 
can actually begin to make progress and lead the world again.
    My objection to the President taking us out of Kyoto is not 
that he decided to go out of an existing process, but that he 
didn't start any other process. The legitimate concerns about 
China and India were not addressed. I think those were 
legitimate to be raised. I hope that there can be, at the same 
time we are proceeding here on a national agenda, a reopening 
of a process that will include India, China and other fast 
developing nations who do have to be part of an international 
consensus about what we must do to deal with climate change.
    Unfortunately, we do not see much evidence of that from the 
President, although I was heartened that he did finally 
acknowledge the issue in the State of the Union, and he has 
continued to speak about technology and voluntary solutions, 
which are not adequate unless there is a framework of 
standards.
    So I do not underestimate the task that we face, but I am 
optimistic, as my Chairman is. What can we do? Well, there are 
a lot of things. We should be addressing the very clear 
challenge of how we create a market. I want to commend the 
eloquence of my colleague, Senator Carper, who has been working 
on this ever since he and I arrived in the Senate together. We 
can look to create a market through a cap and trade system.
    I thought for a moment Senator Craig was advocating a gas 
tax. I don't think that is what he meant, but certainly his 
argument led to that conclusion, not a bad idea, but hardly 
politically palatable at this moment. But if he wishes to 
introduce it, I will be very intrigued to follow that debate.
    We have obviously a lot of work ahead of us. What you are 
working is to bring us together to try to make progress. I am 
very grateful to you and look forward to working with you.
    Thank you.
    [The prepared statement of Senator Clinton follows:]
    Statement of Hon. Hillary Rodham Clinton, U.S. Senator from the 
                           State of New York
    I thank you for holding this important hearing and for doing it in 
such an open way. I think it speaks volumes about your leadership that 
you have made climate change your top priority for the Environment 
Committee and that you are starting by inviting all members of the 
Senate to come here to express their views.
    This is a complex issue, but to me, the bottom line is very simple: 
it's time to act to reduce the growing threat of global warming.
    While some scientific uncertainties remain, the picture grows 
clearer with each passing year. On Friday, the Intergovernmental Panel 
on Climate Change, or IPCC, will release part of its ``Fourth 
Assessment Report,'' which will summarize the current state of climate 
science. The document is being finalized this week, but here are some 
of the conclusions in the draft, according to press reports:
    <bullet> It is virtually certain the warming observed over the last 
50 years cannot be attributed to natural causes. In fact, the report 
will note that the warming occurred during a time when the most 
significant natural climate forcing factors, such as volcanic activity, 
would have been expected to produce cooling rather than warming.
    <bullet> Temperatures are likely to rise by between 2 and 4.5 
degrees Celsius over the coming century.
    <bullet> It is likely that in the coming century that heat waves 
will be more intense, longer-lasting and more frequent, and tropical 
storms and hurricanes are likely to be stronger.
    That's just a sampling from the draft, which will come out in final 
form on Friday.
    To me, the new report reinforces what I have believed for a number 
of years now: we know enough to know that it is time to act. We need to 
start on a path to slow, stop and reverse the growth of greenhouse gas 
emissions. It will require moving to new energy technology solutions. 
This is a daunting task. But I believe that inaction is the riskier 
course to both our environment and our economy. The longer we wait, the 
harder the transformation required by this challenge will become.
    Many U.S. business leaders now agree. Last Monday, a group of 
business and environmental leaders known as the U.S. Climate Action 
Partnership called on Congress and the President to act to address 
climate change, and released a set of principles and recommendations 
for how to go about it. The report they released, ``A Call for 
Action,'' is one of the most significant climate change policy document 
in recent years, both for what is says and for who is saying it. I urge 
all of my colleagues to spend the five minutes to read it, and I ask 
unanimous consent that it be entered into this hearing record.
    I was particularly struck by one paragraph in the report that I 
want to share with this committee:
    ``In our view, the climate change challenge, like other challenges 
our country has confronted in the past, will create more economic 
opportunities than risks for the U.S. economy. Indeed, addressing 
climate change will require innovation and products that drive 
increased energy efficiency, creating new markets. This innovation will 
lead directly to increased U.S. competitiveness, as well as reduced 
reliance on energy from foreign sources. Our country will thus benefit 
through increased energy security and an improved balance of trade. We 
believe that a national mandatory policy on climate change will provide 
the basis for the United States to assert world leadership in 
environmental and energy technology innovation, a national 
characteristic for which the United States has no rival. Such 
leadership will assure U.S. competitiveness in this century and 
beyond.''
    Madame Chair, that is a statement endorsed by Alcoa, BP, 
Caterpillar, Duke Energy, Dupont, Florida Power and Light, GE, Lehman 
Brothers and PNM Resources. It's a diverse set of companies, many of 
whom have major investments in status-quo energy technology. Yet they 
acknowledge the imperative to act believe that it represents an 
opportunity to increase U.S. competitiveness.
    Madame Chair, I strongly agree. In October of 2003, we debated the 
question of limiting greenhouse gas emissions for the first time in the 
Senate, and I was struck by the pessimism that many of my colleagues 
expressed about dealing with the issue. Even some who conceded the need 
to act seemed resigned to failure or disastrous economic consequences 
of taking the issue on. As I said at the time, I reject the idea the 
America--the most innovative, creative nation the world has ever seen--
cannot cope with this problem. I strongly believe that if we put the 
right incentives in place, then we will drive American enterprise to 
tackle this problem.
    That is why I have been working to address climate change since I 
arrived in the Senate in 2001. I worked with you and others on 
legislation to limit carbon dioxide emissions, mercury and other 
pollutants from power plants. I traveled with Senate colleagues to the 
Arctic and to Alaska to see first-hand the dramatic impacts of climate 
change that are already occurring and to try to draw attention to the 
issue. I have proudly supported the bills put forward by Senators 
Lieberman and McCain in 2003 and 2005, and have joined as a cosponsor 
of the updated bill that they introduced in this new Congress.
    I expect they will describe it in some detail, so I won't go into 
details, but I think some of the key features of this legislation are 
that it sets strong targets, uses flexible, market-based mechanisms to 
get there, provides for investments in new energy technologies, and 
offsets impacts on low-income Americans.
    Senator Sanders and the chair of this committee have a proposal of 
their own. And we will hear from many others today about their ideas. 
As a Member of this Committee, I will work to pass a strong, effective, 
flexible bill from this committee.
    But Congress cannot succeed without support from the President. For 
six years now, he has refused to acknowledge the problem, and we have 
wasted valuable time as a result. Had the President made good on his 
2000 campaign pledge to limit carbon dioxide from power plants, we 
would be much further along today. Last week, the President did finally 
acknowledge the issue in his State of the Union, but he did not offer a 
serious solution. Instead, the President continued to talk about 
technology and voluntary solutions. I agree with the President that 
technology is the key to solving this problem. But technology doesn't 
come out of a vacuum. We need to set the conditions that will drive 
innovation.
    I don't underestimate the task. Action by the United States alone 
cannot solve this problem, but American leadership is critical to 
bringing developing countries into the solution. Here at home, we will 
need to pursue a range of technologies and strategies. But we know what 
many of them are and it's time to get serious.
    Energy efficiency is an enormous and underutilized energy resource. 
It's the fastest, cheapest, and cleanest solution, and we ought to be 
doing more. California has done a particularly good job on efficiency, 
holding total electricity use flat for the last 30 years and the 
economy has boomed.
    We need to get serious about the next generation of clean coal 
technologies, particularly carbon sequestration. Our bill has strong 
incentives to promote more rapid deployment of this technology.
    There are many other examples. Another important priority is to 
change our tax system so that we quit subsidizing oil and gas and do a 
better job at promoting renewable energy and efficiency. I have 
proposed a Strategic Energy Fund that would do just that.
    Madame Chair, there are so many things we can and should be doing. 
And I am increasingly optimistic that this Congress will do them. One 
of the big reasons for that is that more and more people understand the 
issue. For that I think for that we all owe a debt of gratitude to Vice 
President Gore for his tireless and creative advocacy.
    In conclusion, I want to restate my belief that we must act and 
that we can do it in a way that makes economic sense. But global 
warming is much more than just an issue of competitiveness, of weighing 
the costs and benefits.
    This is a profound moral question that confronts us. With the 
knowledge we now possess, do we face our responsibility to act or do we 
continue to look the other way? Do we act or do we accept the risk of 
handing a degraded, and perhaps broken, planet to our children, our 
grandchildren, and their grandchildren? Do we act or do we pass on a 
world that many of us would not even recognize, with disappearing 
islands and shorelines, increased floods and droughts, and the 
extinction of plants and animals that cannot adapt to changes in 
climate?
    I think the answer is clear: it is time for us to act.

    Senator Boxer. Thank you so much, Senator. I am glad you 
raised the Prime Minister Blair of Great Britain issue, because 
a few of us went up to meet with the Prime Minister. He had 
invited Republicans and Democrats who head these various 
committees. He told us two things, Senator Clinton. One was 
that the Brits expected to surpass their Kyoto goals, and that 
jobs were being created at a rapid rate.
    One more thing I think would really interest you, and I 
think it would be a great proposal coming from you and others, 
and I would join you in that, is that he suggested a meeting, a 
smaller meeting of countries. In other words, not every country 
in the world, but the countries that really have to face this 
head-on, like China, India and America, among others, and the 
Europeans. So it is a smaller, more workable groups of nations 
where the United States could convene this kind of meeting.
    Because you are right. We have to deal with China. We have 
to deal with India, but we can't if we don't talk to them about 
this. So it is an idea that the Prime Minister had I thought 
maybe you would find interesting.
    I thank you for your contribution, the tone that you have 
set. I do hope that we will make progress. I feel after hearing 
what I have heard so far, that we will make progress, and that 
if this President will join with us, there is nothing that 
could stop us. If he doesn't, there will be a lot more of the 
work to do later, but I hope that he will join us. I thank you 
for your contribution today.
    I am happy to call on a new member of the committee. We are 
very pleased that she is on the committee, Senator Klobuchar.

OPENING STATEMENT OF HON. AMY KLOBUCHAR, U.S. SENATOR FROM THE 
                       STATE OF MINNESOTA

    Senator Klobuchar. Thank you, Madam Chair. I am honored to 
be here today to talk with you about such an important topic. I 
am especially glad to be here at a time where this discussion 
has advanced beyond whether or not global warming exists, to 
what the solutions are to solve it.
    I respect the leadership of so many of my colleagues on 
this issue, and the work that is being done on a bipartisan 
basis, especially my friend, the new Senator Sanders, who 
showed his usual chivalry by allowing me to go first today. 
Thank you.
    As a member of this committee, as well as the Agriculture 
and Commerce Committees, I look forward to being very engaged 
in positive bipartisan solutions to global warming. These 
solutions should build on our efforts to develop homegrown 
energy sources, so we can move away from our dependency on 
foreign oil.
    Every day, Congress makes decisions that have a great 
impact on the American people and the people throughout the 
world. But our decisions on global warming may well be the ones 
that have the most profound impact on our future generations, 
and on the very fate of our Earth.
    Madam Chair, in Minnesota we love the outdoors and we take 
pride in the richness and beauty of our natural resources. We 
protect our forests and our prairies, our lakes and our rivers, 
and our diverse wildlife and abundant farmland. It is January 
now in Minnesota, and this past weekend the temperatures in my 
State were below zero. We have the Winter Carnival going on. 
Ice Box Day is in International Falls. We always welcome you to 
visit.
    But many people here might wonder why Minnesotans would be 
concerned if it warmed up a few degrees. Well, we are 
concerned. We are deeply concerned. We are concerned for 
ourselves and the rest of the world. We are concerned for the 
impact of global warming and the effect it is already having. 
Global warming is on the rise, with enormous consequences for 
our world and our economy. The year 2006 was the hottest year 
ever in this Country, capping a 9-year streak, unprecedented in 
the historical record.
    December in Minnesota felt more like October. Our ice 
fishing seasons are shorter and our skiers and snowmobilers 
haven't seen much snow. Worldwide, glaciers are rapidly 
melting. Just last week, it was reported that glaciers in the 
European Alps will be all but gone by the year 2050. Experts 
worry that within 25 years, there won't be a single glacier in 
Glacier National Park.
    We have seen record storms all across the world. Globally, 
sea levels have risen 4 to 10 inches over the past century. The 
frequency of extremely heavy rainfalls has increased throughout 
much of the United States. The impact is especially dire in 
Greenland and the Arctic regions. The temperature changes there 
have been the greatest, resulting in widespread melting of 
glaciers, thinning of the polar ice cap, and rising permafrost 
temperatures.
    In Minnesota, stewardship for the environment is a part of 
our heritage, and it has been an especially important part of 
preserving our economy. So global warming is an issue that 
strikes us close to home.
    That is why I want to mention several notable Minnesotans 
who are trying to draw attention to global warming and its 
impact on our planet. They are adventurer-explorers who have 
gone literally to the ends of the Earth, not just to pursue 
adventure, but also to pursue greater knowledge and an 
understanding of our place in the world for the benefit of us 
all.
    Will Steger is one of those Minnesotans, and he is a good 
friend of mine. He has led the first dogsled expedition to the 
North Pole and the first dogsled crossing of Antarctica. Next 
month, he embarks on a new expedition, a 4-month, 1,200-mile 
trip by dogsled through the Canadian Arctic. Later this year, 
he plans to kayak around masses of melting sea ice in 
Antarctica. I figure if he can do this, we can get a bipartisan 
bill.
    At age 62, why is Will Steger doing these things? It is to 
promote greater public awareness of global warming and the 
urgent need for action. He says his many journeys over the past 
four decades have shown him firsthand the effects of global 
warming. During the past year, he has been in practically every 
church basement and every community center meeting room in 
Minnesota to talk about this subject.
    A friend says that Will's new determination is rooted in 
sorrow. He is watching the places he loves melt away, 
literally. But Will's message is ultimately one of hope. He 
knows it is within our power to do something about it. Some 
people don't believe this is happening, he says, but the even 
bigger danger is that some think we can't do anything about it.
    Another notable Minnesota adventurer-explorer who feels the 
same way is Ann Bancroft. She was a member of Will Steger's 
North Pole expedition in 1986. She was also the first woman to 
cross both polar ice caps to reach the poles, and she was the 
first woman to ski across Greenland.
    In 2001, Ann and Norwegian adventurer Liv Arneson 
captivated millions of people worldwide as they fulfilled their 
childhood dream and became the first women to ski across 
Antarctica. Next month, she, too, is embarking on a new 
adventure. Ann and Liv are now preparing for an arduous 530-
mile journey by foot across the frozen Arctic Ocean to the 
North Pole.
    Schoolchildren around the world will be able to follow them 
online with a website charting their daily progress, with 
videos, photos and audio postings. Ann Bancroft's mission, like 
Will Steger's, is to inspire action on global warming. She 
acknowledges that climate change is a major challenge that 
cannot be solved easily or overnight, but her goal is to prove 
that small steps add up.
    Finally, there is one more Minnesota adventurer, an 
outdoorsman I want to mention. He is not quite in the same 
league as Will Steger and Ann Bancroft, but he is in a class by 
itself. His name is Jim Klobuchar and he is my dad. For 30 
years he was a sportswriter and columnist for the Minneapolis 
Star Tribune. He is also an avid mountain climber and hiker.
    Now in his 70's, my dad continues to operate an adventure 
travel club, that among other things takes people to what he 
calls the high places of the world, including the Himalayas, 
the Alps, and Mount Kilimanjaro. My dad has been to the summit 
of Mount Kilimanjaro five times, and he has told me that each 
time he goes, he sees clear and dramatic signs of global 
warming there. The snow crown is visibly shrinking. Where he 
once trekked through snow, it is now dry land, and it keeps 
getting worse.
    Three decades ago, he went to the village of Gletsch in the 
Swiss Alps. He stayed at a hotel right at the very edge of the 
famous Rhone Glacier. But this glacier has already retreated 
hundreds of feet since the time he saw it, and now tourists 
come to watch it melt in front of their eyes.
    The stakes here are as high as they get. The American 
people are hoping that this new Congress will at last confront 
the challenge of global warming. This is going to call for a 
bipartisan, ambitious, comprehensive effort on the part of this 
Congress and also for an enlightened response from the business 
community, which we are already starting to see with the call 
to action that the other Senators have mentioned.
    There is much work to be done, and many stakeholders to 
consider. My colleagues here in the Senate that have begun this 
work have advanced a number of thoughtful proposals. There are 
several key elements that I hope to see in the final result: 
first, strong limits on economy-wide emissions of greenhouse 
gases; some version of a cap and trade system; strong renewable 
fuel content standards for cars and trucks; incentives for both 
the manufacture and purchase of hybrid and flex-fuel vehicles; 
strong renewable energy standards for electricity generation so 
we can make greater use of wind, solar and other renewable 
energy sources; aggressive Federal support for research and 
development to build a new Manhattan Project for new energy 
sources.
    Finally, we need to stop the giveaways and special favors 
for the big oil companies. One of the best things that we can 
do to respond to global warming and to achieve energy 
independence is develop our home-grown renewable energy. We 
should be investing in the farmers and the workers of the 
Midwest, instead of the oil cartels of the Mideast.
    Like most Americans, and you Madam Chair, I am an optimist. 
I believe in the power and promise of science and technology 
and innovation when we need to solve a problem. I believe in 
the intelligence and the ingenuity of the American people when 
we are confronted with a challenge. I believe in the capacity 
of our democratic system of government to make the right 
decisions for the good of our Country.
    I think of the tremendous courage and determination of 
explorers like Will Steger and Ann Bancroft. With a single-
minded focus, they overcame the most difficult hardships and 
obstacles imaginable to reach their destinations. That is the 
American spirit.
    I believe we, too, can reach our destination. We can turn 
the corner on the devastating effects of global warming. We can 
take giant strides toward energy independence.
    As you know, former Vice President and former Senator Al 
Gore has been a strong voice on the need to address the urgent 
challenges of global warming. He has stressed the importance of 
farsighted, forward-looking leadership to tackle this issue. He 
recalls the words of General Omar Bradley at the end of World 
War II, when America was confronted by the challenge of 
building a new post-war world. The General said, ``It is time 
we steered by the stars, not by the lights of each passing 
ship.''
    We, too, must now steer by the stars. Like explorers Will 
Steger and Ann Bancroft, we must do so with the determination 
to surmount the obstacles in our way to reach our goal.
    Thank you very much.
    [The prepared statement of Senator Klobuchar follows:]
        Statement of Hon. Amy Klobuchar, U.S. Senator from the 
                           State of Minnesota
    Madam Chair, I'm honored to be here with you to talk about this 
important subject. I'm especially glad to be here at a time where this 
discussion has advanced beyond whether or not global warming exists but 
to what the solutions are to solve it.
    I respect the leadership of so many of my colleagues on this issue, 
the work that's being done on a bipartisan basis. Especially my friend, 
the new Senator Sanders who showed his usual chivalry by allowing me to 
go first today. Thank you.
    As a member of this committee, as well as the Agriculture and 
Commerce committees, I look forward to being very engaged in seeking 
positive bipartisan solutions to global warming. These solutions should 
build on our efforts to develop homegrown energy sources, so we can 
move away from our dependency on foreign oil.
    Every day, Congress makes decisions that have a great impact on the 
American people and people throughout the world. But our decisions on 
global warming may well be the ones that have the most profound impact 
on our future generations and on the very fate of the earth.
    Madam Chair, in Minnesota, we love the outdoors and we take pride 
in the richness and beauty of our natural resources. We protect our 
forests and our prairies, our lakes and rivers, our diverse wildlife 
and abundant farmland.
    It's January now in Minnesota--and this past weekend the 
temperatures in my state were below zero. We've had the Winter Carnival 
going on, Ice Box Days in International Falls--we always welcome you to 
visit. But many people here might wonder why Minnesotans would be 
concerned if it warmed up a few degrees.
    Well, we are concerned--we're deeply concerned. We are concerned 
for ourselves and for the rest of the world. We are concerned for the 
impact of global warming and the effect it's already having.
    Global warming is on the rise, with enormous consequences for our 
world and our economy.
    2006 was the hottest year ever in this country, capping a nine-year 
streak unprecedented in the historical record. December in Minnesota 
felt more like October. Our ice fishing seasons are shorter and our 
skiers and snowmobilers haven't seen much snow.
    Worldwide, glaciers are rapidly melting. Just last week, it was 
reported that glaciers in the European Alps will be all but gone by the 
year 2050. Experts worry that within 25 years, there won't be a single 
glacier in Glacier National Park.
    We've seen record storms all across the world. Globally, sea levels 
have risen 4 to 10 inches over the past century. The frequency of 
extremely heavy rainfalls has increased throughout much of the United 
States.
    The impact is especially dire in Greenland and the Arctic region. 
The temperature changes there have been the greatest, resulting in 
widespread melting of glaciers, thinning of the polar ice cap and 
rising permafrost temperatures.
    In Minnesota, stewardship for the environment is a part of our 
heritage and it has been an especially important part of preserving our 
economy. So global warming is an issue that strikes us close to home.
    That's why I want to mention several notable Minnesotans who are 
trying to draw attention to global warming and its impact on our 
planet.
    They are adventurer-explorers who have gone--literally--to the ends 
of the earth. Not just to pursue adventure, but also to pursue greater 
knowledge and an understanding of our place in the world--for the 
benefit of all of us.
    Will Steger is one of these Minnesotans, and he is a good friend of 
mine.
    He has led the first dogsled expedition to the North Pole and the 
first dogsled crossing of Antarctica.
    Next month, he embarks on a new expedition--a four-month, 1,200-
mile trip by dogsled through the Canadian Arctic. And later this year, 
he plans to kayak around masses of melting sea ice in Antarctica. I 
figure if he can do this, we can get a bipartisan bill.
    At age 62, why is Will Steger doing these things? It's to promote 
greater public awareness of global warming and the urgent need for 
action. He says his many journeys over the past four decades have shown 
him firsthand the effects of global warming.
    During the past year, he has been in practically every church 
basement and every community center meeting room in Minnesota to talk 
about this subject.
    A friend says that Will's new determination is rooted in sorrow. 
``He's watching the places he loves melt away''--literally. But Will's 
message is ultimately one of hope: He knows it is within our power to 
do something about it.
    ``Some people still don't believe this is happening,'' he says. 
``But the even bigger danger is that some think we can't do anything 
about it.''
    Another notable Minnesota adventurer-explorer who feels the same 
way is Ann Bancroft.
    She was a member of Will Steger's North Pole expedition in 1986. 
She was also the first woman to cross both polar ice caps to reach the 
poles, and she was the first woman to ski across Greenland. In 2001, 
Ann and Norwegian adventurer Liv Arnesen, captivated millions of people 
worldwide as they fulfilled their childhood dream and became the first 
women to ski across Antarctica.
    And next month, she, too, is embarking on a new adventure: Ann and 
Liv are now preparing for an arduous 530-mile journey by foot across 
the frozen Arctic Ocean to the North Pole.
    Schoolchildren around the world will be able to follow them online, 
with a Web site charting their daily progress with videos, photos and 
audio postings.
    Ann Bancroft's mission, like Will Steger's, is to inspire action on 
global warming. She acknowledges that climate change is a major 
challenge that can't be solved easily or overnight, but her goal is to 
prove that small steps add up.
    Finally, there is one more Minnesota adventurer and outdoorsman I 
want to mention. He's not quite in the same league as Will Steger and 
Ann Bancroft. But he's in a class by himself. His name is Jim 
Klobuchar--and he's my dad.
    For 30 years he was sportswriter and columnist for the Minneapolis 
Star Tribune. He's also an avid mountain climber and hiker. Now in his 
70s, he continues to operate an adventure travel club that, among other 
things, takes people to what he calls ``the high places of the 
world''--including the Himalayas, the Alps and Mount Kilimanjaro.
    My dad has been to the summit of Mount Kilimanjaro five times. And 
he has told me that, each time he goes, he sees clear and dramatic 
signs of global warming there. The snow crown is visibly shrinking. 
Where he once trekked through snow, it is now dry land. And it keeps 
getting worse.
    Three decades ago, he went to the village of Gletsch in the Swiss 
Alps. He stayed at a hotel right on the very edge of the famous Rhone 
Glacier. But this glacier has already retreated hundreds of feet since 
the time he saw it. And now tourists come to watch it melt in front of 
their eyes.
    The stakes are high as they get.
    The American people are hoping this new Congress will, at last, 
confront the challenge of global warming. This is going to call for 
bipartisan, ambitious, comprehensive effort on the part of this 
Congress and also for an enlightened response from the business 
community who are already starting to see what the call to action that 
the other senators have mentioned.
    There is much work to be done and many stakeholders to consider. My 
colleagues here in the Senate that have begun this work have advanced a 
number of thoughtful proposals.
    There are several key elements that I hope to see in the final 
result:
    <bullet> First, strong limits on economy-wide emissions of 
greenhouse gases,
    <bullet> Some version of a cap and trade system,
    <bullet> Strong renewable fuel content standards for cars and 
trucks,
    <bullet> Incentives for both the manufacture and purchase of hybrid 
and flex-fuel vehicles.
    <bullet> Strong renewable energy standards for electricity 
generation, so we can make greater use of wind, solar and other 
renewable energy sources.
    <bullet> Aggressive federal support for research and development to 
build a new Manhattan Project for new energy sources.
    <bullet> Finally, we need to stop to the giveaways and special 
favors for the big oil companies.
    One of the best things we can do both to respond to global warming 
and to achieve energy independence is to develop our homegrown 
renewable energy. We should be investing in the farmers and the workers 
of the Midwest instead of the oil cartels of the Mideast.
    Like most Americans and you Madam Chair, I'm an optimist. I believe 
in the power and promise of science, technology and innovation when we 
need to solve a problem. I believe in the intelligence and ingenuity of 
the American people when we are confronted with a challenge. And I 
believe in the capacity of our democratic system of government to make 
the right decisions for the good of our country.
    I think of the tremendous courage and determination of explorers 
like Will Steger and Ann Bancroft. With a single-minded focus, they 
overcame the most difficult hardships and obstacles imaginable to reach 
their destinations. That's the American spirit.
    I believe we, too, can reach our destination: We can turn the 
corner on the devastating effects of global warming, and we can take 
giant strides toward energy independence.
    As you know, former Vice President--and former Senator--Al Gore has 
been a strong voice on the need to address the urgent challenges of 
global warming. He has stressed the importance of far-sighted, forward-
looking leadership to tackle this issue.
    He recalls the words of General Omar Bradley at the end of World 
War II, when America was confronted by the challenge of building a new 
post-war world. The general said: ``It is time we steered by the stars, 
not by the lights of every passing ship.''
    We, too, must now steer by the stars. And like explorers Will 
Steger and Ann Bancroft, we must do so with the determination to 
surmount the obstacles in our way to reach our goal.
    Thank you very much.

    Senator Boxer. Senator, I just want to thank you. As one of 
the new members, you have added tremendously to this debate. I 
think what you are telling us is when we talk about our way of 
life, this is just the problem you are pointing out. Our way of 
life is threatened by global warming and you pointed that out. 
I thank you very much.
    Senator Sanders, followed by Senator Cardin. Welcome, 
Senator.

 OPENING STATEMENT OF HON. BERNARD SANDERS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Sanders. Senator Boxer, thank you very much for 
holding this extraordinarily important hearing and for raising 
consciousness on one of the most severe problems faced by our 
planet in its history.
    As you know, I have introduced S. 309, the Global Warming 
Pollution Reduction Act. This legislation, I believe, is the 
boldest effort in Congress aimed at halting global warming. 
Some would say that this bill goes too far. I disagree. The 
reason for that is that if we are not strong, if we are not 
bold, if we are not aggressive, the planet that we are going to 
leave to our children, grandchildren and great-grandchildren 
will be a very different planet than we enjoy, and their 
quality of life will be greatly, greatly diminished.
    Madam Chair, I can go on about all of the different things 
that the best scientists in the world have told us about global 
warming. I could detail the scientific community's effort to 
get policymakers to pay attention. In that regard, I notice 
that some have said, ``Well, isn't it great; the President of 
the United States actually uttered the words `global climate 
change.' ''
    Frankly, I have to tell you that it is not so great. It is 
a bit of an embarrassment, when you have the entire world 
scientific community talking about the enormous problems, and 
finally we have the President beginning to acknowledge. My hope 
is that he will now be serious in trying to address it.
    Madam Chair, I want to suggest, as others have, that I see 
our ability, this Nation's ability to move forward against 
global warming as laden with huge opportunities. Like you, I do 
not accept the argument that if we are aggressive in combating 
global warming, it is going to hurt the economy. Quite the 
contrary, I believe that we have the potential to create 
millions of good paying jobs as we finally move this Country to 
strong energy efficiency, as we lead the world into sustainable 
energy.
    The bill that I have introduced, S. 309, is a bipartisan 
bill. It has 10 Democrats and 1 Independent. That was a joke.
    [Laughter.]
    Senator Sanders. We hope to make it a tripartisan bill. I 
do want to thank you, Senator Boxer, for being a co-sponsor, as 
well as Senator Kennedy, Senator Menendez, Senator Lautenberg, 
Senator Leahy, Senator Reed, Senator Akaka, Senator Inouye, 
Senator Feingold, and Senator Whitehouse for their support.
    This bill is economy-wide. It is science-based, and it has 
two main goals: one, to stabilize the atmospheric concentration 
of carbon at 450 parts per million; and two, to keep 
temperature increases below 3.6 F. To meet these goals, the 
legislation requires that emissions be reduced to a level that 
is 80 percent below 1990 levels by 2050, the same reductions as 
required by the State of California.
    S. 309 describe standards for both powerplants and 
vehicles. It also includes a requirement that 20 percent of the 
Nation's electricity come from renewable resources such as 
wind, solar, biomass and geothermal by 2020. Of course, there 
are other provisions, including one on cellulosic ethanol, but 
we don't have time to get into all of those details.
    The opportunities provided by S. 309 are quite literally 
revolutionary, but the concept is simple. Transforming our 
energy habits away from polluting fossil fuels to renewables 
will reshape our economy and make the United States a leader in 
clean and efficient energy technologies.
    Some people have said this morning, well, we don't want to 
change the American lifestyle. Well, you know what? I do. I 
think we have to end the disgrace that the vehicles that we are 
driving today get worse mileage per gallon than was the case 20 
years ago. If our lifestyle is about driving cars to get 10 or 
12 miles per gallon, as we destroy our planet, I say yes, I 
think the American people are, in fact ready to change that 
aspect of our lifestyle.
    A national requirement for 20 percent of our electricity to 
come from renewables by 2020 would increase our renewable power 
by nearly 11 times, compared to current levels. In the process 
of reducing our greenhouse gas emissions under this 20 percent 
requirement, more than 355,000 new jobs in manufacturing, 
construction, maintenance and other industries would be 
created.
    Now, I want to take this opportunity to thank not only my 
colleagues here in the Senate who have cosponsored this bill, 
but equally important, many, many environmental groups who also 
understand that we have to be very bold in addressing this 
crisis, among others, Friends of the Earth, Greenpeace, the 
League of Conservation Voters, National Audubon Society, 
National Environmental Trust, National Wildlife Federation, 
Natural Resources Defense Council, Physicians for Social 
Responsibility, Public Citizens, Sierra Club, Union of 
Concerned Scientists, USPIRG. I want to thank them, and the 
many others that I didn't support, for their support of this 
legislation.
    What would increased renewable energy mean for the average 
consumer? What would that mean? A 20 percent renewable 
requirement would, over the long run, reduce the bills our 
constituents receive every month. It is incredible to me. We in 
the State of Vermont--actually I think are doing better than 
any State in this Country--is moving to energy efficiency. Yet 
I just spoke yesterday with some of the experts in our State 
and they say that only, at most, 20 percent of the eligible 
sockets are using compact fluorescent bulbs, in the State that 
is leading the Nation. The potential to move just in that 
direction is extraordinary.
    Chairperson Boxer, let me also highlight another area where 
there is tremendous opportunity. That is the movement toward 
sustainable energy. We are making breakthroughs, but we have a 
huge way to go. I know that you appropriately want to see the 
Federal Government lead our society as we move forward.
    The potential for solar once we start producing solar 
panels to the degree that we should is extraordinary; the 
potential for wind; the potential for biomass; the potential 
for geothermal, it is all sitting there waiting to explode.
    In fact, what has happened for many years is that 
technology has gone forward, but the government has lagged 
behind the technology, behind the people. In my view, the 
people of this Country want to break our dependence on fossil 
fuels. They want to become more energy efficient, and they 
understand that we in fact can make huge breakthroughs and 
create a very significant number of jobs if we do that.
    Some have suggested earlier about the economic dislocation 
in beginning to combat global warming. I think the answer is, 
A, it is not true. If we are smart about it, we can create 
millions of jobs more than we lose in that transformation. But 
the second point is, what will it mean to the economy if we do 
not address this crisis? ``The answer is, according to Sir 
Nicholas Stern, former Chief Economist for the World Bank, what 
he said is if no action is taken in addressing global warming, 
we will be faced with the time of downturn that has not been 
seen since the Great Depression and the two World Wars.''
    So Madam Chair, I think we have the American people behind 
us. I think they want action. I think S. 309 is a very good 
start and we look forward to working with you, with the Senate, 
and with the American people to see that legislation passed.
    Thank you very much.
    [The prepared statement of Senator Sanders follows:]
       Statement of Hon. Bernard Sanders, U.S. Senator from the 
                            State of Vermont
    Good morning Chairman Boxer, Ranking Member Inhofe.
    As you know, I have introduced S. 309, the Global Warming Pollution 
Reduction Act. This legislation is the boldest effort aimed at halting 
global warming. Some would say that the bill goes too far; I say it 
doesn't go far enough. This is because we aren't talking about your run 
of the mill problem--we are, in the most literal sense, talking about 
the future of the planet.
    Madam Chairman, I could go on and on about all of the different 
things the best scientists in the world have told us about global 
warming--I could detail the scientific community's efforts to get 
policy-makers to pay attention; I could talk about U.S. Government 
scientists being silenced because their research wasn't in line with 
the Administration's denial of global warming; I could talk about the 
melting of Arctic sea ice decades earlier than previously expected; and 
of course I could talk about the changes in agriculture and water 
systems, sea level rise, new threats to public health such as increased 
incidence of infectious diseases like West Nile virus and malaria, and 
the extreme weather patterns, including more intense hurricanes, that 
we are told will accompany global warming, but there just isn't enough 
time for me to give each of these topics the attention they deserve.
    So instead, I want to focus on the tremendous opportunity that is 
currently in front of us as we set about to tackle the largest 
environmental challenge of our time. To do so I will use some of the 
provisions of the legislation I introduced and that is being 
cosponsored by the Chairman of this Committee, Senator Boxer, and by 
Senator Kennedy, Senator Menendez, Senator Lautenberg, Senator Leahy, 
Senator Reed, Senator Akaka, Senator Inouye, Senator Feingold, and 
Senator Whitehouse.
    My bill is economy-wide, science-based, and has two main goals:
    (1) To stabilize the atmospheric concentration of carbon at 450 
parts per million, and
    (2) To keep temperature increases below 3.6 degrees Fahrenheit.
    To meet these goals, the legislation requires that emissions be 
reduced to a level that is 80 percent below 1990 levels by 2050--the 
same reductions as required by the state of California. S. 309 
describes standards for both power plants and vehicles. It also 
includes a requirement that 20 percent of the nation's electricity come 
from renewable resources such as wind, solar, biomass, and geothermal, 
by 2020. Of course, there are other provisions, including one on 
cellulosic ethanol, but I won't get into any of those details.
    The opportunities provided by S. 309 are quite-literally 
revolutionary, but the concept is simple: transforming our energy 
habits away from polluting fossil fuels to renewables will reshape our 
economy and make the United States a leader in clean and efficient 
energy technologies--creating millions of good paying jobs in the 
process. Let me go into some detail here.
    A national requirement for 20 percent of our electricity to come 
from renewables by 2020 would increase our renewable power by nearly 11 
times compared to current levels. In the process of reducing our 
greenhouse gas emissions under this 20 percent requirement, more than 
355,000 new jobs in manufacturing, construction, maintenance, and other 
industries would be created. In fact--and this is one of my favorites--
truly putting our minds to developing renewables could create almost 
twice as many jobs as producing the same amount of electricity from 
fossil fuels! The addition of these jobs, a net increase of roughly 
157,000, is expected to generate an additional $8.2 billion in income 
and $10.2 billion in gross domestic product.
    We create more jobs, support the American economy, AND reduce air 
pollution that threatens our health and the future of the planet--why 
would anyone be against that?
    But what would increased renewable energy mean for the average 
consumer, since we know that the growing income inequality in our 
country has put more and more pressure on our working families as they 
try to get by? A 20 percent renewable requirement would, over the long 
run, reduce the bills our constituents receive every month. More 
specifically, by 2020, total consumer savings from lower energy prices 
would be $49.1 billion, with people seeing an average annual reduction 
of 1.8 percent. Every dollar that doesn't have to be spent on energy 
can be put toward something else.
    Chairman Boxer, let me highlight another area where there is 
tremendous opportunity--energy efficiency. Using what we have in a 
smarter way seems so obvious, and yet, the commitment to efficiency, 
whether it be in our transportation or in our homes, isn't nearly what 
it should be.
    We all know that efficiency in our transportation sector is an 
utter embarrassment. China, Japan, the European Union, and Australia 
all leave us in the dust. My bill implements the vehicle emissions 
standards already in place in California and adopted by many other 
states, including Vermont. While the auto companies could meet this 
requirement through increased CAFE standards, that is not the only way. 
Of course, instead of focusing on making cars more efficient, most of 
the automakers are focusing their efforts on beating the California law 
in court. What a waste of their time.
    When it comes to our homes, efficiency measures are two-thirds less 
expensive than generating and delivering electricity. Just a quick 
example: Energy Star compact fluorescent lights use \2/3\ less energy 
than standard incandescent bulbs but provide the same amount of light, 
last up to 10 times longer, and can save a person $30 or more in energy 
costs over the lifetime of each bulb! In fact, if we could change 50 
percent of all lighting in the country to compact fluorescent bulbs, 
consumers could save $9 billion. And, I haven't even mentioned how 
efficient lighting reduces greenhouse gas emissions: simply by putting 
one compact fluorescent light bulb in every home across the country, we 
would prevent the equivalent amount of emissions as would be produced 
by 800,000 cars.
    It is clear that responsibly addressing global warming will not 
cause us economic ruin, as some like to suggest, but that it will 
provide for new jobs, enhance efforts geared toward greater energy 
efficiency, and will reduce our energy costs if we get serious about 
using renewables instead of fossil fuels.
    In fact, it is a lack of bold vision that will financially cost us. 
In October of 2006, Sir Nicholas Stern, a former chief economist of the 
World Bank, turned the old economic arguments against taking action on 
climate change on their head. In a report to the British government, he 
writes that bold action to combat the threat of global warming will in 
fact save industrial nations money and that inaction could cost between 
5 to 20 percent of global gross domestic product. Let me repeat that: 
FAILURE to act to boldly curb global warming is what will cost us--and 
it won't be cheap. Speaking to the issue in no uncertain terms, the 
report states, ``If no action is taken we will be faced with the kind 
of downturn that has not been seen since the great depression and the 
two world wars.''
    Madam Chairman and all of my colleagues, grassroots support for 
action on global warming is clear. Not only do we know it from our 
interactions with our constituents, we also know it because over 300 
mayors have committed their cities to meeting the standards described 
in the Kyoto Protocol. In fact, with over 54 million citizens 
represented, the U.S. Mayors Climate Protection Agreement provides 
irrefutable evidence that everyday citizens are demanding bold action. 
Additionally, a group of northeast states have already implemented a 
regional effort to reduce greenhouse gas emissions--the Regional 
Greenhouse Gas Initiative. And, we all know that the state of 
California has recognized the need to act on global warming and is 
moving forward with a tremendous program.
    Everybody is moving forward--isn't it time that the federal 
government be involved?
    To be quite frank, while I appreciate today's forum, I must say 
that the time for talk is over--it is time for bold federal action. The 
American public expects nothing less.

    Senator Carper. [assuming chair.] My colleague, Senator 
Boxer had to slip out of the room for a moment.
    Senator Cardin, while I am tempted to call up the 
legislation that Senator Alexander and I introduced, I will 
forego that temptation.
    Senator Cardin. You probably don't have the support yet. 
You might want to wait for a few more members.
    Senator Carper. That might be smart.
    Senator Sanders, thank you very, very much not just for 
your words, but for your voice and emotion and conviction that 
you bring to this debate. Thank you. Welcome.
    Senator Cardin.

OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, U.S. SENATOR FROM 
                     THE STATE OF MARYLAND

    Senator Cardin. Mr. Chairman, thank you very much. I thank 
our leadership on this committee for holding these hearings on 
global warming. I think it is extremely important. I am going 
to ask that my entire statement be made part of the record, and 
some of the provisions that are in there.
    Senator Carper. Without objection.
    Senator Cardin. For the sake of our Nation, for our 
security needs, for our economic needs, for our environmental 
needs, we need an energy policy in America. We need an energy 
policy that recognizes that we need to produce enough energy in 
our own Country to meet our needs. We need an energy policy in 
America that weans us off of fossil fuels. We certainly need an 
energy policy in this Country that recognizes the environmental 
risks that we all sustain.
    So on security, you all know 65 percent of our oil is 
imported. We use petrodollars, the consumers of America are 
financing a lot of countries with policies that are very 
unfriendly to America. For our economy, when OPEC decides to 
change the amount of oil production or price, it has a direct 
impact on our own economy. On our environment, we know the 
risks of global warming. They are real. We need to do something 
about this.
    In the 109th Congress, when I was in the other body, I 
introduced legislation that addressed an energy policy for 
America. It established a goal to be 90 percent independent of 
foreign energy sources within 10 years, to be 90 percent 
independent of fossil fuels within 20 years. I also believe it 
is reasonable for us to set goals by the year 2030 to reduce 
our greenhouse gases by 26 percent.
    Madam Chairman, I am going to ask that I make available and 
put in the record two programs that were on Discovery Channel. 
Discovery Channel happens to be headquartered in the State of 
Maryland. They had a program, Addiction to Oil, which Thomas 
Friedman presented. I think it is very compelling about our 
need to become energy independent and to rid ourselves of 
imported oil. Tom Friedman points out that to be green is to be 
red, white, and blue. I think that is an important message for 
our Country.
    The second Discovery program I am going to be asked to made 
part of our record deals with global warming, by Tom Brokaw, 
and again points out the real risks to our Country and to the 
world that global warming presents.
    Senator Boxer. [resuming chair.] Senator, we will put them 
in the record.
    Senator Cardin. Thank you, Madam Chair.
    [The referenced documents are retained in the committee's 
file.]
    Senator Cardin. Global warming, as you know, deals with the 
loss of ice in the Arctic. It deals with the sea level rise, 
water temperature increases, and extreme weather. I am going to 
talk a little bit about my State of Maryland, the people that I 
represent in the U.S. Senate.
    Maryland is particularly vulnerable. Twelve percent of our 
land has been designated in the national flood insurance 
program as special flood hazard areas. That represents 68,000 
homes and buildings in the State of Maryland, over $8 billion 
in assessed value. Maryland is the third most vulnerable State 
in our Nation to flooding.
    Sea level rises in Maryland has grown twice the world 
average. We are vulnerable. I have a few slides that I am going 
to share with the committee. The first that is being shown 
shows the impact of what would happen if we have a 1-meter 
increase in sea level. Just to make that clear, that is not 
that unusual. The next slide will show that within a relatively 
brief period of time, we actually have increased the sea level 
by that amount. That was done in a period of 100 years, but we 
know that it is increasing at a much greater rate today.
    So we are at risk in Maryland. All of our areas around the 
sea, around the water are being literally uninhabitable if we 
do not deal with global warming.
    I have a few slides that show some history in our State. We 
used to have an island called Sharp's Island. Sharp's Island 
was a rather large entity, and consisted of over 700 acres. 
Today, it is down to less than 100 acres of land. This land is 
in the bay and will be gone in the not too distant future.
    James Island, in the mid-19th century, you see the outline 
of James Island. Today, it is less than one-third of its size 
150 years ago. When we look at what has happened to our 
wetlands in Maryland, this slide will show you that in a little 
over 50 years, how much of the wetlands we have lost in the 
Blackwater Wildlife Refuge, which is critically important to 
many species of life, including 20 different species of duck, 
which my colleagues like to come to the Eastern Shore and hunt. 
Well, if we are going to be able to have the diverse wildlife 
population, we need wetlands and we are losing our wetlands as 
a result of sea level increases.
    We have one inhabitable island that remains in Maryland, 
Smith Island. Thirty percent of that land has been lost since 
the mid-19th century. It is reported that Lloyds of London is 
the only insurance available for the residents of Smith Island 
because of the uncertainty of their fate, and the residents of 
Smith Island cannot afford Lloyds of London prices.
    This is an issue that is affecting the people of Maryland. 
It is affecting their lives today. What do we need to do about 
it? We need a comprehensive commitment. You can't do it by one 
issue. You need a comprehensive solution. It starts with 
conservation, and conservation starts with transportation. Yes, 
we need to at least double the CAFE standards.
    It is interesting that when the Model T came on, it got 25 
miles per gallon. Our CAFE standards today are 27.5 miles for 
passenger cars. We need to do a lot better. Replacement tires, 
yes, we have done good with low resistance for tires for new 
cars. We need to make that replacement for the older cars that 
are out there. We need to deal with public transportation and 
smart growth, including pedestrian and bike paths. We need to 
deal within our homes with energy conservation, the Energy Star 
program, and weatherization programs. We need to deal with our 
commercial buildings, tax incentives for green building designs 
and government must be a leader in the way that it operates its 
business, including the way it purchases vehicles. Employers 
need to be encouraged to use more telecommuting.
    All that can conserve energy and that must be our start. 
But we also must deal with renewable energies and developing 
much more aggressively renewable energies. We need requirements 
on our utilities to produce a larger part of their electricity 
from renewable sources. We need to use the biograins more 
effectively.
    Madam Chairman, this is biodiesel. It is produced in 
Maryland by a person who on his own without any government help 
decided to do something about our energy and environmental 
needs in the lower Eastern Shore, James and Virginia Warren. 
They have produced biodiesel. If you smell this, it smells like 
I was in the movie theater and with my grandchildren over the 
weekend. It smells very pleasant, very clean. It can help the 
solution on dealing with global warming and energy issues.
    The problem is, it is hard to find a diesel pump that has 
biodiesel, if you want to use biodiesel fuels. There are so 
many diesel vehicles the government owns, and why we are not 
using biodiesel is beyond me.
    So there is a lot more that we can do just in the simple 
area of dealing with biodiesel. We need to look at wind. We 
need to look at solar. We need to increase the Federal research 
dollars that go into energy independence. We know that there is 
promise with hydrogen powered cars and nuclear fusion 
technology. But it is not here today, and we know that unless 
we invest the money for the future, it won't be here for 
decades to come.
    Last, Madam Chairman, I suggest we have blue ribbon 
commission, that we enact changes in law and that we have a 
commission that monitors it to see that we make the adjustments 
necessary so that we do accomplish our goal of being energy 
independent, fossil fuel independent, and more gentle to our 
environment.
    For the sake of our security, for the sake of our economy, 
for the sake of our environment, we need to move forward now on 
these issues. We cannot wait any longer. I applaud you for 
holding these hearings.
    [The prepared statement of Senator Cardin follows:]
      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland
    For the sake of our security, economy and environment, America 
needs an energy policy that is independent from foreign energy sources 
and weans America off of fossil fuels.
    America's current energy policy is simply unsustainable.
    We all know the security issues: The U.S. imports over 65 percent 
of our oil from foreign countries--many of them openly hostile to our 
country. American consumers are literally financing extreme anti-
American groups that we fund through our oil dollars. Our petroleum 
habit creates national security risks and causes long-term energy price 
instability for American consumers--a price or supply change by OPEC 
can directly affect our economy. We are currently spending billions of 
dollars a year to subsidize oil companies, while their profits have 
increased dramatically--Exxon Mobil is on track to break its own 
record-breaking $36 billion dollar profits from 2005.
    America's energy policy has also had a serious impact on our 
economy: Five years ago, the average American family spent $3,300 on 
gasoline, home heating, and electricity. Average U.S. households paid 
nearly $5,000 to power their homes and vehicles in 2006--32 percent 
greater than just 2 years ago. Households with incomes under $15,000--
about one-fifth of all households--spent about one-tenth of their 
income in 2006 on gasoline. Leading economists noted after the release 
of monthly economic reports in September, 2006, that energy prices are 
rising much faster than wages and becoming ``increasingly difficult for 
consumers to absorb.''
    While each of these is important, this hearing is about global 
warming, and about how our energy policy can deliver reductions in 
global warming.
    I introduced legislation in the 109th Congress with many rigorous 
goals to get us on the right path, but there are many ways to 
accomplish these goals. At its heart, America's energy policy needs to 
address energy independence, fossil fuel reduction, and global warming.
    It is reasonable to establish the goal of meeting 90 percent of our 
energy needs from domestic sources by 2017. America imports 30 percent 
of its overall energy needs, but imports over 13 million barrels of oil 
each day--more than 65 percent of U.S. oil needs. The majority of our 
imported energy is oil, and the largest consumption of oil in the U.S. 
is for transportation. 84 percent of U.S. imported energy in 2005 was 
petroleum, representing 28.9 quadrillion Btu. U.S. transportation 
consumption accounted for 28.1 quadrillion Btu, mostly in petroleum.
    It is reasonable to establish a goal to meet 90 percent of our 
energy needs from non-fossil fuel sources by 2027. Fossil fuels--coal, 
oil, and natural gas are America's primary source of energy, making up 
over 70 percent of our electricity generation. Fossil fuel-fired 
electricity generation is the single greatest source of air pollution 
in the United States, and power plants are the leading U.S. source of 
carbon dioxide emissions--a primary contributor to global warming. U.S. 
conventional oil production peaked in 1970, and only produces enough 
oil to meet 35 percent of its oil needs. We have an abundance of coal, 
but we lack the technological ability to use coal in an environmentally 
secure manner.
    It is reasonable to establish the goal of reducing our emissions of 
global warming-causing greenhouse gasses by 26 percent by 2030. With 
only 5 percent of the world's population and 6 percent of the world's 
land area, the U.S. is the No. 1 emitter of carbon dioxide in both tons 
and in per capita emissions, in the world. Greenhouse gasses are 
emitted primarily by the burning of fossil fuels and the clearing of 
forests. Carbon dioxide, along with other heat-trapping gasses, remain 
in the atmosphere for decades or even centuries, and have been melting 
ice, making Earth's water warmer, and increasing extreme weather 
events, such as higher-intensity tropical storms. By 2012, cuts in 
greenhouse-gas emissions required under the Kyoto Protocol will be 
swamped by emissions from new coal-fired plants built in China, India, 
and the United States. These 3 countries are expected to emit an extra 
2.7 billion tons of carbon dioxide. The Discovery Channel has produced 
a couple of stellar programs outlining our global warming problems: 
Addiction to Oil--with Tom Friedman, and Global Warming--with Tom 
Brokaw. I'd like to introduce these programs into the record at this 
point.
    Global warming poses an especially serious threat to my own State 
of Maryland, with a large part of our State consisting of low-lying 
coastal areas that would be inundated if global temperatures keep 
rising. Global warming pollution in Maryland is up by 55 percent from 
1960.
    More than 12 percent of land in Maryland is designated under the 
National Flood Insurance Program as a Special Flood Hazard Area.
    An estimated 68,000 homes and buildings are located within the 
floodplain in Maryland. These structures represent nearly $8 billion in 
assessed value.
    According to 2005 report of the Maryland Emergency Management 
Agency Maryland is the 3d most vulnerable State to flooding and has the 
5th longest evacuation times during a tropical storm event.
    Tide gauge records for the last century show that the rate of sea 
level rise in Maryland is nearly twice the global average. Studies 
indicate that this rate is accelerating and may increase to two or 
three feet along Maryland's shores by the year 2100.
    The effects are already evident: about a third of the marshes at 
Blackwater Wildlife Refuge on Maryland's eastern shore have been lost 
to sea level rise over the past 70 years. Smith Island, the only 
inhabited island community in Maryland and the subject of a recent 
documentary on global warming, has lost 30 percent of its land mass to 
sea level rise since 1850. Lloyds of London is reportedly the only 
company that will insure homes on Smith Island and the premiums and 
high deductibles are unaffordable to most residents. Allstate Insurance 
Corp., one of our largest insurers, recently announced that it will 
stop writing new homeowners' policies in coastal areas of the State, 
citing concerns that a warmer Atlantic Ocean will lead to more and 
stronger hurricanes hitting the Northeast. Hurricane Isabel in 2003, 
which was a modest hurricane, underscored how vulnerable Bay 
communities are to coastal flooding from storm surge. Maryland's 
premier beach resort--Ocean City--representing more than $4 billion in 
public and private investment--remains especially vulnerable to sea 
level rise unless our beach renourishment projects are continued and 
expanded. The combination of sea-level rise and warmer temperatures as 
well as increased salinity levels could have tremendous ecological 
impacts on the Chesapeake Bay.
    Clearly sea level rise will have devastating effects not only on 
the hundreds of thousands of Marylanders who live in low lying areas 
but on our economy, our environment and our quality of life.
    Our first goal must be to conserve energy. This conservation effort 
needs to start w/transportation. The U.S. must increase Corporate 
Average Fuel Efficiency (CAFE) standards significantly over the next 10 
years. The Ford Model T got 25 mpg, yet our current CAFE standard calls 
for 27.5 mpg for passenger cars, and 21.6 mpg for light trucks. ``In 
1981, the last time gas prices breached $3, adjusted for inflation, the 
average car got 21 miles to the gallon. Jump ahead 24 years, a period 
when there have been huge advances in automotive fuel efficiency, and 
the average passenger vehicle on the road gets . . . 21 miles to the 
gallon.''--CNN 9/14/05
    Under Federal fuel-economy standards, automakers equip new vehicles 
with tires that have a lower rolling resistance, which leads to higher 
fuel efficiency. By requiring replacement tires to be as efficient as 
new car tires, we could rapidly begin gasoline savings, and save more 
than 7 billion barrels of oil over the next 50 years. These changes 
would particularly aid lower-income drivers, who are more likely to 
drive used cars with replacement tires.
    There is no one solution to our energy problems, other conservation 
examples include increasing Energy Star funding, and adding solar water 
heaters to the list of products that wear the Energy Star label. The 
Energy Star program brings consumers energy efficient choices in 
appliances, light bulbs, and other goods. This vital program helped 
Americans save enough energy in 2005 to prevent greenhouse gas 
emissions equivalent to 23 million cars--while saving $12 billion on 
utility bills.
    According to the DOE, commercial buildings account for 35 percent 
of America's electricity consumption. An upfront investment of 2 
percent in green building design, on average, results in life cycle 
savings of ten times that upfront investment. I would increase the 
Energy Efficient Commercial Buildings deduction--to encourage business 
owners to look forward and plan ahead by using buildings that will save 
money and electricity over the long run.
    Transportation costs accounted for 58 percent of Federal energy 
consumption in fiscal year 2002. The Federal Government would decrease 
energy costs by both requiring that the Federal fleet exceed CAFE 
standards and requiring that at least 10 percent of the motor vehicles 
purchased by an Executive agency in any fiscal year will be high-
efficiency vehicles or hybrid electric vehicles.
    America's energy policy must encourage energy efficient communities 
and behavior. Congress should encourage smart growth through funding 
transit-oriented development corridors with upgrades in transit 
facilities, bicycle transportation facilities, and pedestrian walkways.
    America should promote energy efficiency in all communities by 
increasing funding for weatherization assistance. In the 27 years since 
its founding, DOE's Weatherization Assistance Program has served over 
5.3 million low-income families. Low-income families spend an average 
of 14 percent of their annual income on energy costs, while other 
households spend only 3.5 percent. Weatherization reduces greenhouse 
gas emissions by one ton per weatherized home, and decreases U.S. 
energy consumption by the equivalent of 15 million barrels of oil every 
year.
    Congress should create Federal tax incentives for employers who 
provide telecommuting to their employees. Telecommuting has 
successfully reduced both transportation and energy use, and the EPA 
reports that if just 10 percent of the nation's workforce telecommuted 
just 1 day a week, Americans would conserve more than 1.2 million 
gallons of fuel per week.
    The U.S. needs to enact mandatory, tradable emissions caps. Not 
only is this a policy that enjoys the broad support of businesses, 
environmental groups, scientists, and Members of Congress, it is the 
right thing to do for our Country's future, and for the well-being of 
our children and grandchildren.
    America must make renewable energy commercially viable, and make 
the up-front investment in renewable energy infrastructure that will 
bring renewable energy to the marketplace.
    The U.S. needs a Federal renewable portfolio standard to ensure 
consumer access to renewable energy, by requiring electric utilities to 
get a larger portion of the energy they provide to Americans from 
renewable sources.
    America needs to find new ways to move renewable energy--by 
creating electricity transmission lines designed to carry electricity 
from renewable sources.
    Congress must make the renewable energy production credit 
permanent, to provide long-term incentives to increase private 
infrastructural investment in the production of renewable energy.
    America has lagged behind Europe in using biodiesel as one way to 
reduce our use of oil. Maryland Biodiesel, owned by James and Virginia 
Warren, is the only plant of its kind in the State, and will use plant 
and animal oil byproducts that are currently thrown away. More than 
600,000 cars capable of running on alternative fuels have been produced 
each year since 2000. The U.S. must dramatically increase the Federal 
commitment to alternative fuels and vehicle technology programs, and 
increase the use of alternative fuels in Federal and State fleets, by 
developing biofuel plants in every region of the country, and speeding 
development of standards that are needed to promote alternative fuels 
use.
    We need to increase the renewable energy use and energy efficiency 
of the Federal Government--the Federal Government should lead the 
country in energy efficiency. All new Federal buildings should be 
required to live up to green building LEED (Leadership and Energy in 
Environmental Design) standards, set by the United States Green 
Building Council. Energy used in buildings in fiscal year 2002 
accounted for 38 percent of the total Federal energy bill. Total 
Federal buildings and facilities energy expenditures in fiscal year 
2002 were $3.73 billion. This Federal investment in green building will 
save the treasury millions while reducing overall electricity 
consumption.
    The Federal Government should ensure that at least 20 percent of 
the electricity consumed by non-defense activities of the government 
will be generated from renewable sources or zero-emission fossil fuel 
energy sources by 2017.
    America should establish a program of grants, low-interest loans, 
and loan guarantees for the commercialization of new renewable energy 
and energy efficiency technologies.
    The U.S. must dramatically increase Federal energy research and 
development commitments.
    Increasing America's energy research dollars will help bring 
technologies that hold great promise but are not feasible today--such 
as hydrogen powered automobiles, cellulosic ethanol, and nuclear fusion 
energy--to the marketplace faster.
    Congress should implement the changes suggested by the National 
Academy of Sciences' Report, Rising Above a Gathering Storm--to ensure 
U.S. competitiveness in research and scientific development, including 
marked increases in The Department of Energy's R&D funding.
    Finally, we should create a Blue Ribbon Energy Commission, which 
would meet every 2 years starting in 2008, to evaluate our progress in 
efforts to become energy independent and the impact of provisions of 
new policy, and to recommend additional changes to be made in reports 
to Congress--so that our energy policy remains focused on our 3 goals 
of energy independence, fossil fuel independence, and the reduction of 
greenhouse gas emissions.
    For the sake of our security, economy and environment, America 
needs a comprehensive energy policy that is independent of foreign 
sources and weans America off of fossil fuels.

    Senator Boxer. Senator, I just want to thank you very much 
for your encouragement and your ideas. They make a lot of 
sense. I was just recently reading an article where insurance 
companies are very reticent now to come into the coastal areas. 
This is the private sector telling us very clearly they are 
worried. So, so many things are coming together, as Senator 
Carper pointed out, that just reiterate to us that maybe we are 
just the last ones to get on board here. But I think we are 
going to do it.
    Senator Whitehouse, I know you have been all morning at 
Judiciary. I am so glad you made it back, just for the sake of 
those in the audience and those who are still here with me, 
those that deserve a prize. Senator Carper, you deserve a 
prize. After you speak, Senator Whitehouse, I believe that is 
the last member of the committee who planned to speak. It would 
bring us to I believe 14 or 15 Senators. I could go back and 
check.
    We have a panel that is supposed to start at 11:45, with 
Senators Bingaman, Feinstein, Kerry and Biden. If any of those 
arrive earlier, I will just sit here, and as soon as they come, 
we will take their testimony. We are getting some testimony to 
place in the record that also is very important testimony, 
bipartisan testimony which I will read just little parts of.
    I don't know how many people are aware that Senator 
Whitehouse has been a tremendous leader in the environment of 
his State, particularly in protecting the health of children. 
So we are most honored that you are on the committee and we 
welcome you, Senator. You have 10 minutes.

OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, U.S. SENATOR FROM 
                   THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chair. I am thrilled 
to be here. I applaud you for holding this hearing. I am a very 
proud cosponsor of your farsighted legislation. I hope and 
expect, truly, that today's hearing marks a turning point in 
the energy and direction of our effort to address this critical 
problem.
    I thought I would speak very locally. If left unchecked, 
climate change will clearly affect communities around the 
globe, but I would like to draw particular attention to the way 
it will affect Rhode Island. There is no place more local than 
the street where you live. So I thought I would lead with this 
photograph, which is taken of a cherry tree on Adelphi Avenue 
outside of my house in Providence. It was taken on January 7.
    You will notice that the tree is starting to bud and in a 
couple of places has gone into full bloom. Now, that may seem 
like an anecdotal aberration, and clearly it is the first time 
in the 20 years we have lived in the house where that tree has 
bloomed in January. But it refers to a trend that the orchard 
owners in Rhode Island have described and noted, that spring 
blooms come earlier every year, earlier and earlier.
    So an aberration, yes, but we know these sorts of 
temperature aberrations are themselves indications of global 
warming.
    The heart of Rhode Island, of course, is Narragansett Bay. 
It is our greatest natural resource. It is our environmental 
prize. Here, we see what has been happening to water 
temperatures in Narragansett Bay since 1955. They have been 
climbing steadily. The mean annual surface water temperatures, 
as you see, has increased 2.5 degrees in that period, and 
actually that understates the effect because in the winter the 
temperature has increased 4 degrees in the last 20 years. As 
the scientists at the University of Rhode Island who track this 
stuff have recognized, 4 degrees in that environment is a full 
ecosystem shift, so it makes an enormous, enormous difference.
    One of the differences that it makes is illustrated in this 
photograph. This is a photograph of Greenwich Bay, which is a 
sub-basin of Narragansett Bay, in the summer of 2003. The warm 
water in the bay led to stratification, which trapped the 
decaying organic manner at the bottom of the bay so that 
oxygenation did not occur and these fish asphyxiated. They 
suffocated swimming in their native waters as a result in large 
measure of the warming that we are seeing.
    It's not getting better. In fact, it is predicted to get a 
good deal worse. From 2010 to 2039, depending on the emissions, 
the scenario could lead to another 3-degree increase, another 
7-degree increase by 2069, and by 2099, a 12-degree increase at 
the higher emissions levels. At lower emissions level, it is 
still a problem, but it is a substantially lesser one.
    Now, at the higher emissions levels, Rhode Island will 
become a State that has the present weather patterns of the 
Carolinas. It is interesting, to a fellow who lives in Newport, 
because Newport was first inhabited as a summer resort by 
merchants from the Carolinas, who came north to enjoy the cool 
waters of Narragansett Bay and Rhode Island, and the cool 
summer air. Now here it is, 100 and some years later, it looks 
like the Carolina weather will be following them there, and we 
will no longer be a refuge from such temperatures.
    Obviously, ecosystem changes of that nature have not only a 
dramatic effect on the environment, but also the economy. In 
northern New England you would see an end to the ski industry, 
and throughout New England you could very well lose our famous 
foliage.
    One of the effects of all this, Madam Chair, is the 
increase in water level. We are seeing it on a small scale 
already in Rhode Island. This is the Newport Harbor tide chart. 
It shows the increase here in the main sea level to this point, 
and then it extrapolates forward the sort of increase that we 
could see. It is happening slowly right now, but it is 
projected to increase. I would note that the projections do not 
incorporate the nightmare scenario that Vice President Gore 
laid out in his Inconvenient Truth. If that were to take place, 
if the Greenland ice cap were to melt and the sea water levels 
were to rise consistent with the presentation Vice President 
Gore makes, you would start to see some very significant 
changes in our Ocean State.
    This is downtown Providence as it exists now. Here is our 
central business district. Here is Brown University. Here is 
what becomes of it with a 20-foot increase. The downtown 
business district is gone. There is our new mall, where my 
daughter loves to shop. Gone. Here is the AMTRAK rail and the 
train station. Gone. Our capitol building is on famous Smith 
Hill, on a high promontory, so the capitol at least will 
survive, but the business district where I worked, here is the 
Federal court where I practiced as United States Attorney. 
Gone.
    If you turn to other Rhode Island landmarks, this is the 
famous Newport Harbor. The historic waterfront through here, 
the ballfield where the Newport Gulls play down here, historic 
Trinity Church right here, an astonishing resource for our 
State and a great piece of history throughout this photograph, 
old buildings, a concentration of history that is really 
remarkable, and there is what happens. Completely inundated, 
completely submerged and completely lost.
    Finally, even bedroom communities can be hit pretty hard. 
This is a lovely bedroom community in Rhode Island called 
Barrington. As you can see, there is a school here and many 
houses through the dappled neighborhood lanes. In the event of 
the sort of rise in water level the Vice President has talked 
about, it is all gone, Madam Chair. It is all submerged.
    So the stakes that we are talking about are very, very 
high. The economic effect, the environmental effect, and the 
long term welfare of our Country, particularly my State, are 
very, very much implicated in these hearings.
    The last point I will make is that, as anxious as we may be 
about these potential consequences, there is real hope by 
changes in public policy. Just in Rhode Island, the 
environmental community gathered together and they charted 
different outcomes based on public policy decisions that were 
made in Rhode Island, and how they would affect the tons of 
carbon released by Rhode Island, which of course connects 
directly the global warming and climate change and to the rise 
in the oceans. What you see is that at the top line, if we did 
nothing there is a very, very substantial gap over the existing 
policies that are already in effect in Rhode Island and are 
already driving our carbon emissions to level, and indeed 
decline a little bit.
    Indeed, policies that are presently under consideration 
could drop it further, to this line. Ultimately, here is the 
green line of where we could end up. This is a significant gap 
and it is the kind of gap that we very, very much need to 
close. So I think the important message for today is, the 
problem is real. The problem is here. The consequences are 
potentially extraordinarily severe, but it is within our 
control and within our hands to get the situation right and 
prevent these outcomes.
    Once again, Madam Chair, I salute the turning point that I 
think this hearing represents, and appreciate your leadership.
    Senator Boxer. Senator, I want to thank you. I think 
everyone was just riveted to your presentation. I would urge 
you to just keep that passion going because from now on, we are 
going to have to really work hard so that none of that ever 
happens that you showed us.
    I want to also say before you leave, just to give everyone 
here an idea of where we are going. My understanding is we have 
now heard from 14 Senators, including myself. That is the 
number that wanted to speak, from the committee. We are going 
to be moving to other Senators shortly within the next 5 
minutes.
    Before, Senator Whitehouse, you leave, and I really want to 
thank Senator Carper who is just a stalwart with me on this 
issue, I wanted to quote from two statements that I am going to 
now place in the record. The point of this, Senator Whitehouse, 
is to say you are part of the New England delegation that on a 
bipartisan basis is very concerned, I will prove that in a 
moment, and also to say to Senator Carper, your interest and 
bipartisanship is borne out by these two statements.
    The first one I will put in the record is a statement by 
Senator Judd Gregg. He has asked that we put this in the record 
today. I will just quote briefly from it, ``Climate change is 
one of the most serious environmental problems facing our 
planet. It touches nearly everything we do.'' Now, Senator 
Gregg is not known for overstatement.
    ``Our climate is inextricably linked to our economy and 
heritage of our Nation.'' He goes on in a very eloquent way. He 
says, ``States alone cannot solve the problem. I believe 
Congress must take action to limit the emissions of greenhouse 
gases from a variety of sources.'' He talks proudly of working 
with Senator Carper for the last 4 years on legislation that 
would reduce carbon dioxide and other emissions from 
powerplants. He says he is looking forward to reintroducing 
that bill with Senator Carper.
    He says, ``Power plants are just part of the problem. That 
is why I have supported economy-wide, market-based approaches 
such as the Climate Stewardship Act's cap and trade system. I 
believe that is the McCain-Lieberman. He says, ``I appreciate 
the committee's attention to this issue and I look forward to 
working with my colleagues on both sides of the aisle to draft 
climate change legislation which protects our environment and 
stimulates our economy.'' So we will put that in the record.
    [The prepared statement of Senator Gregg follows:]
          Statement of Hon. Judd Gregg, U.S. Senator from the 
                         State of New Hampshire
    Climate change is one of the most serious environmental problems 
facing our planet. It touches nearly everything we do. Our climate is 
inextricably linked to our economy and heritage of our nation. Climate 
change affects where we live, where our food is grown, the severity and 
frequency of storms and disease, and many of our industries, including 
tourism, forestry, and agriculture. In New Hampshire, folks are already 
concerned with its impact on skiing, forestry, maple production, 
tourism, and outdoor recreation. In fact, the state was the first in 
the nation to pass a law in 2002 requiring carbon dioxide emissions 
reductions from power plants. Today, approximately 50 towns in New 
Hampshire are poised to vote in March on a resolution seeking the 
establishment of a national greenhouse gas reduction program and 
additional research into sustainable energy technologies.
    States alone can not solve this problem. I believe Congress must 
take action to limit the emissions of greenhouse gases from a variety 
of sources. The overwhelming scientific data and other evidence about 
climate change cannot be ignored. It is for this reason that I have 
been a strong advocate for mandatory limits on greenhouse gases, and I 
will continue working with my Senate colleagues on legislation.
    For the last four years, I have worked with Senators Carper and 
Alexander and others, on legislation which would reduce carbon dioxide 
and other emissions from power plants. The Clean Air Planning Act, 
which I have cosponsored, would address our nation's critical air 
pollution problems in a way that curbs greenhouse gas emissions, 
enhances air quality, protects human health, and facilitates a growing 
economy. This legislation reduces the four primary emissions from power 
plants: sulfur dioxide (a contributing factor in lung and heart 
disease) by 80 percent; nitrogen oxide (associated with acid rain and 
regional haze) by 69 percent; mercury emissions (associated with fish 
contamination and birth defects) by 80 percent; and carbon dioxide 
emissions (linked to climate change) by establishing mandatory caps. 
This bill would protect the quality of air we breathe and the climate 
we live in, while simultaneously stimulating the economy and protecting 
human health. I hope to reintroduce this bill with my colleagues in the 
coming weeks.
    However, power plants are just part of the solution. That is why I 
have supported economy-wide, market-based approaches, such as the 
Climate Stewardship Act's ``cap and trade'' system, as reasonable ways 
to rein in carbon dioxide without undue harm to the U.S. economy. I 
also believe we need to re-examine the issue of vehicle emissions, a 
substantial contributor to the global carbon budget, and consider 
increasing the corporate average fuel economy standards for motor 
vehicles.
    I appreciate the Committee's attention to this issue and I look 
forward to working with my colleagues on both sides of the aisle to 
draft climate change legislation which protects our environment and 
stimulates our economy.

    Senator Whitehouse. Following that is a statement by 
Senator Olympia Snowe that is a very comprehensive statement. I 
will just quote a few paragraphs. Senator Snowe: ``For me, it 
is ludicrous to think we can expect large emerging nations to 
move toward reducing their emissions without any national 
action on our part. Only after the United States puts in place 
a mandatory carbon cap and trade system can we expect to sit at 
the international table and ask the poorer developing countries 
to take such action.''
    Madam Chair, we need to seize on a bold new program like 
President Kennedy did in sending a man to the moon. When on 
September 12, 1962, he stated, ``We choose to go to the moon in 
this decade and do the other things, not because they are easy, 
but because they are hard, because that goal will serve to 
organize and measure the best of our energies and our skills, 
because that challenge is one we are willing to accept, one we 
are unwilling to postpone, and one which we intend to win.''
    She says, ``On July 21, 1969, less than 7 years later, 
Astronaut Neil Armstrong walked on the moon. This is how we 
should be addressing global warming.'' In closing, she says, 
``Madam Chair, weather is an integral part of the economy in my 
State of Maine and others as well. It is time to curb the 
warming. We cannot wait any longer. We need to act now.''
    [The prepared statement of Senator Whitehouse follows:]
      Statement of Hon. Sheldon Whitehouse, U.S. Senator from the 
                         State of Rhode Island
    Thank you, Madam Chairman, for convening this hearing, and for your 
leadership on the issue of global warming. I'm honored to serve on an 
Environment and Public Works Committee whose leadership acknowledges 
that this issue is real, that time is of the essence, and that action 
is called for.
    Left unchecked, climate change will affect every community in every 
nation on earth, altering the world in ways we are only just beginning 
to understand. I want to take this opportunity to speak briefly about 
some of the scientific evidence now available about the projected 
effects of global warming on my home state of Rhode Island.
    Alterations in the growing seasons brought on by warmer 
temperatures around the globe are already evident in Rhode Island. Many 
species of flowers and trees are blooming earlier in the spring than 
the historical average. The cherry tree on my street in Providence is 
in bloom in January for the first time in the 20 years we've owned the 
house. It could be an aberration, but our Rhode Island orchard growers 
have not seen January blooms of fruit trees in living memory. Although 
this bloom did not mark the actual spring bloom, the earlier and 
earlier arrival of the spring bloom is now a documented phenomenon, 
indicating a trend of warmer temperatures throughout the region.
    Shifts in the timing of the seasons also have the potential to 
disturb biological phenomena, such as migratory cycles of birds. For 
example, if a bird's seasonal migration is caused by the length of the 
days, it could arrive at its destination out of synch with the tree 
species that provides necessary food but has bloomed early in response 
to warmer temperatures.
    The land based ecosystems are not the only systems at risk; warmer 
temperatures will also have profound effects on oceans and estuaries. 
This is even more troubling because the water and land based ecosystems 
are so intricately linked.
    The environmental heart of Rhode Island is the Narragansett Bay 
estuary. Narragansett Bay is Rhode Island's most distinctive ecological 
feature, running nearly the entire length of the state and affecting 
every part of our lives. It is our greatest natural resource. As we 
speak, the Bay is undergoing a significant ecosystem shift as the 
water's temperature gradually warms.
    The Bay's annual mean winter temperature has increased by about 4 
degrees Fahrenheit over the past 20 years. This has had a significant 
impact on fish and shellfish in the Bay. Cold water species, such as 
winter flounder, that were once abundant in the bay and had a high 
commercial value have been replaced by warmer water species, such as 
scup, that have a lower value. It amounts to a real ecosystem change 
with associated economic impacts.
    Warmer temperatures in the summer can also have profound effects. 
During the summer of 2003 in Greenwich Bay, a sub-basin of Narragansett 
Bay, warmer temperatures caused stratification in the water column. 
This reduction of water column mixing led to eutrophication and 
consequently lower dissolved oxygen levels on the bottom, causing the 
fish in the bay to suffocate in the water.
    This cycle is predicted to get worse--much worse--if nothing is 
done. At higher emissions levels, New England's climate will become 
more like South Carolina's. (Ironically, the first summer visitors to 
Newport were 19th century merchants from the Carolinas seeking to 
escape that heat.) The result will be a dramatic shift in the economy, 
as well as the ecosystem. For example, there won't be any ski resorts 
or winter tourism in Northern New England. We may very well lose our 
famous foliage.
    If Greenland's ice cap melts and causes sea levels to rise by as 
much as 20 feet worldwide--the nightmare scenario of Al Gore's ``An 
Inconvenient Truth''--here's what happens in the Ocean State. Downtown 
Providence is inundated. Newport's famous harbor overwhelms Newport's 
historic waterfront. And coastal residential communities like 
Barrington are submerged.
    While these are sobering projections, Madam Chairman, there is 
still plenty of hope. We can be effective against these threats if we 
act firmly and swiftly.
    Working with partners from the nonprofit and academic community, 
the State of Rhode Island is already taking steps to address the 
potential effects of global warming, with encouraging results. In Rhode 
Island, environmental groups have quantified the effect of actions 
already underway, of actions that are pending, and of possible further 
actions that we could take. These carbon dioxide emissions curves show 
how profoundly effective the action we take today can be. This kind of 
success requires not only direct government action, but commensurate 
action by private industry and individuals. We must determine not only 
what we will do, but how our choices will influence and stimulate 
others in their decision-making.
    Let me be clear: I believe we cannot solve this problem without 
immediate and unrelenting federal support. I am proud to be an original 
cosponsor of the Sanders-Boxer global warming bill, a measure that I 
believe will help us take a critical first step in addressing the 
challenge of global warming. There is much more to be done, and little 
time to waste.
    Thank you, again, Madam Chairman, for the opportunity to speak 
today.
    I'd also like to acknowledge the members of Rhode Island's 
environmental community for helping us assemble this data, including 
Save the Bay, Environment Rhode Island, the University of Rhode Island 
Graduate School of Oceanography, Brown University, the Rhode Island 
Coastal Institute, Rhode Island Clean Water Action, the Rhode Island 
Chapter of the Sierra Club, and the Rhode Island Conservation Law 
Foundation. Most importantly, I want to recognize Dr. Sandra Thornton 
Whitehouse for her help, her insight, and her expertise.

    Senator Boxer. So, you know, for me, this hearing has been, 
I don't even know how to find the right word. To say that it is 
important is an understatement. It has been critical. It has 
been inspiring to hear my colleagues, to hear my colleagues on 
this committee on both sides. Yes, to hear the concerns of some 
who might not agree, but yet in their comments still hear the 
nugget of some agreement where we can move forward, and some of 
the colleagues who are not on this committee.
    So what we are going to do now is stand in recess. I am 
going to stay right here.
    Senator Whitehouse. Madam Chair? As a personal courtesy, 
may I quickly recognize a leader of the environmental community 
in Iran who is with us today, Dr. Sandra Thornton Whitehouse.
    Senator Boxer. Oh, any relation?
    Senator Whitehouse. She was a considerable help in 
preparing this, and who is, as I said, one of Rhode Island's 
environmental leaders, and I would like, through her, to thank 
the environmental community for their support in putting this 
presentation together.
    Senator Boxer. Well, it was a fantastic presentation. I 
think that actually it is going to, I was going to say it is 
going to move mountains, but I think the glaciers are already 
moving. That is the problem, so it might freeze glaciers, but 
we thank you so much.
    I am so pleased and delighted, Senator Bingaman, that you 
are here. You came a little bit early, and I appreciate that. 
Your timing is impeccable. Here is where we are. We have heard 
from 14 members of this committee. We just heard our last 
presentation. I have put two statements in the record from 
Senator Snowe and Senator Gregg, both very strong for a 
comprehensive plan.
    You are a leader. You and I have teamed up. We have written 
letters, op/ed pieces together. We intend to work together. We 
are honored to have you here, Senator Bingaman, with your 
distinguished record on the environment, on the economy, on 
your great State of New Mexico. Of course, you are the Chair of 
the Energy Committee. We are just proud to have you. So please, 
you have 10 minutes.

STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM THE STATE OF 
                           NEW MEXICO

    Senator Bingaman. Thank you very much, Madam Chairman. Let 
me say that I think it is terrific that you have made this such 
a priority for this committee and for the Congress. I look 
forward to working with you and seeing if we can't get 
legislation enacted in this Congress to deal with this issue in 
a meaningful way.
    Let me just give a general perspective on it, and then if 
you have any questions, I am glad to respond.
    First, I don't think it is particularly useful to have a 
lot more hearings about whether or not there is a problem. I 
think most folks who have spent time looking at it are 
persuaded that there is a serious issue here, that manmade 
activity is a major contributor to the problem, and that we 
need to get one with planning solutions.
    As I see it, there are three real challenges we need to 
focus on. No. 1, convincing our colleagues that some type of 
cap on emissions and some type of trading system for allowances 
or permits is the most significant thing we can do to deal with 
the problem. I am persuaded of that. I believe you are, and I 
hope that as we go through this debate, we can persuade all of 
our colleagues that that is the case.
    No. 2, we need to figure out if we are going to have a cap 
and trade system that is nationwide, which I believe we need to 
have, how do we structure that cap and trade program? There are 
a lot of design issues. There are a lot of questions on how you 
allocate allowances, what you permit as offsets. Your State of 
California is struggling through those problems now, as you are 
trying to design a system for California, in compliance with 
your Governor's mandate or the legislation that was passed 
earlier, last fall in California.
    The No. 3, major challenge that I see is getting a 
political consensus on how quickly we can reduce greenhouse gas 
emissions without significantly or adversely affecting the 
economy. I am persuaded that we can reduce greenhouse gas 
emissions in a significant way. There is a lot of debate going 
on as to how aggressive those targets need to be. That is the 
proper debate to be having.
    The process that I have been involved in really got started 
because of the report of the National Commission on Energy 
Policy. This was a group of business and former government 
officials and environmentalists, NGO leaders. They came 
together under the auspices of the Hewlett Foundation, and put 
together a report nearly 2 years ago now. Part of their report 
recommended a cap and trade program along the lines that I have 
just described.
    I think that was a very useful recommendation. I have 
supported the proposal that Senators Lieberman and McCain have 
presented to the Senate. We voted on that twice, as you know, 
in the Senate. I have supported it both times.
    The National Commission on Energy Policy had a somewhat 
different set of recommendations, but a variation on what was 
earlier proposed. The main point from my perspective was that 
they also recommended putting a cost or a price on the cost of 
putting carbon into the atmosphere, and a very predictable 
price, so that people in industry who are making plans for how 
to increase powerplant capacity would know precisely what they 
are going to be faced with if they go forward and continue to 
pursue options that involve substantial emissions.
    I think that is the right way to go. In February of last 
year, Senator Domenici and I and the Energy Committee came out 
with a white paper on design features for a mandatory market-
based greenhouse gas regulatory program. We asked a series of 
questions there. We had a very distinguished group of folks 
come into our committee and talk about answers to those 
questions, questions such as who should be regulated, how do we 
allocate the permits, should a domestic program be linked with 
the programs in effect in other countries, how do we engage 
developing countries in this effort. All of those are the right 
questions, I think.
    We have tried to follow up on that. Most recently, I joined 
with Senator Specter in circulating a draft proposal to all 
members of the Senate. We are hoping to get feedback and have a 
series of meetings with people, responding to that draft 
proposal. The idea is that we hope to have legislation that 
some of us on the committee and off the committee might 
cosponsor, that we could introduce in the next 6 or 8 weeks. 
That is our hope. It would add to the other bills that already 
have been introduced. I hope it would add to the debate.
    I think the way this issue has been put on the front burner 
by you and your committee is exactly what needs to happen. I 
congratulate you on it and appreciate the chance to be here to 
make a presentation.
    [The prepared statement of Senator Bingaman follows:]
        Statement of Hon. Jeff Bingaman, U.S. Senator from the 
                          State of New Mexico
    Thank you Senator Boxer and Members of the Committee.
    The 2005 Sense of the Senate resolution on climate change 
emphasized that the risks associated with a changing climate justify 
the adoption of mandatory limits on greenhouse gas emissions and that 
an important first step towards addressing climate change can be taken 
at an acceptable cost. In that spirit, Senator Specter and I circulated 
a discussion draft on global warming legislation last week that begins 
with a modest emissions-reduction target that strengthens gradually 
over time.
    The approach is consistent with that of the successful Acid Rain 
Program in that it sets a ``forward price'' on emissions to provide 
both the flexibility and incentive needed to accelerate technology 
development and deployment. The long-term price signal that a forward 
price creates is critical for giving industry certainty and for 
focusing its decision-making on lower carbon options. In order to 
complement that price signal, the discussion draft also includes 
provisions to create incentives for new technology and provides 
significant new R&D funding for low- and no-carbon technologies.
    The decision to circulate a discussion draft, rather than introduce 
legislation, reflects our desire to modify and improve the legislation 
in the coming months. This draft is already the product of over two 
years of work, but there are still many unresolved issues that must be 
addressed and challenges that deserve attention.
    As I see it, there are three main challenges. First we must 
convince our colleagues that the model we have chosen, a cap and trade 
program, is the right model. Second, we must figure out how to 
structure that cap and trade program--there are many different design 
features that must be discussed and analyzed. Finally, we need to see 
what kind of political consensus we can get over the targets to reduce 
greenhouse gas emissions without harming the economy.
    As I mentioned, this process began over two years ago. It started 
with the recommendations of the bipartisan National Commission on 
Energy Policy, or NCEP. This group of business leaders, former 
government officials, environmentalists and NGO leaders published a 
report to influence the upcoming debate on energy policy. Within that 
report was a recommendation to implement a cap and trade program to 
slow the growth of greenhouse gases by mandating targets and allowing 
companies to use tradable credits in a market to meet those limits.
    I supported this type of proposal when Senators Lieberman and 
McCain introduced their Climate Stewardship Act and I still believe 
that this is the most appropriate way to reduce emissions. In order to 
address some of the concerns with a cap and trade proposal and its 
impacts on the economy, the NCEP recommended that growth targets be 
implemented to slow the growth of greenhouse gas emissions before 
stopping that growth and reducing emissions. They also recommended a 
safety valve feature, which would allow the government to sell extra 
permits at a set price. That price would escalate over time, but would 
provide certainty to business and would prevent difficult shocks to the 
economy as we move into a lower-carbon economy.
    After submitting this proposal to the Energy Information 
Administration--the nonpartisan analytical arm of the Department of 
Energy--I drafted an amendment to the Energy Policy Act of 2005 and 
considered amending the Energy Bill with it. Because of the limited 
amount of time available, we decided instead to circulate a Sense of 
the Senate Resolution and added that to the Energy Bill.
    That Resolution gave us the grounds to continue exploring this 
issue over the remainder of last Congress. I worked very closely with 
Senator Domenici to have hearings in the Energy Committee and 
participate in a series of workshops with the NCEP. The purpose of this 
was to examine the structure of a cap and trade proposal.
    In February of 2006, Senator Domenici and I authored a White Paper 
on Design Features of a Mandatory Market-Based Greenhouse Gas 
Regulatory Program. We asked four basic questions: (1) Who should be 
regulated? (2) How do we allocate permits throughout the economy? (3) 
Should a domestic program be able to link with other countries? (4) How 
do we engage developing country participation?
    We received over 150 submissions from major companies, individuals 
and NGO's responding to these questions and Sen. Domenici and I invited 
29 of those respondents to an all-day conference to discuss them here 
on Capitol Hill.
    After incorporating many of the things we heard at this Conference 
into a new draft, I was joined by five of my colleagues in resubmitting 
the legislation to the EIA for further analysis. The results of that 
analysis have shown that it is possible to begin reducing our emissions 
here in the United States without negatively harming the economy.
    It is my plan now to take the next two months to use this 
discussion draft and bring stakeholders and interested parties to the 
table to see if we can get some kind of bipartisan consensus on 
legislation that we can enact this year.
    A first step toward that goal is to host a series of bipartisan 
staff workshops. This Friday at 2 pm in the Energy Committee Hearing 
Room, we are hosting the first staff workshop to look at the issues 
within the discussion draft. I encourage anyone who is interested in 
attending to contact my Committee Office. We are also extending the 
invitation to the Administration and House staff.
    Thank you for the opportunity to express my views before your 
Committee. Global warming is an extremely important and difficult issue 
to resolve, but I know that we can work together in a manner that 
expedites action rather than delay it any longer.

    Senator Boxer. Senator, Mr. Chairman, thank you very much. 
We are not going to ask questions today. Today is our open 
forum, and we are just presenting our views.
    For the benefit of Senators Kerry and Feinstein, they can 
decide who needs to go first. Either way is fine. We are going 
to go to Senator Kerry first, or Senator Feinstein? Senator 
Feinstein, OK.
    We have heard from 14 members of this committee. It has 
just been an extraordinary time. And now we are turning to 
those of you outside the committee who have shown tremendous 
leadership.
    I agree with Senator Bingaman that the more legislation 
that we have on the table, the better, because we can just see, 
in addition to this hearing and others that I know a lot of you 
will be involved in, in the Commerce Committee and in other 
committees, we could see where our colleagues are, because I 
think those of us who spoke today from our heart about how we 
feel now are ready to take the next step. I think Senator 
Bingaman is right. The debate over whether there is global 
warming for the vast majority of us is over. We are now moving 
toward solutions to the problem.
    So at this time, I am going to call on my dear friend, my 
colleague from California, my senior Senator. She and I have 
worked very closely on saving the environment in our State. We 
are very proud of our State for taking the lead on this. She is 
working on a series of bills, the first of which deals with the 
utility sector on carbon emissions. She worked so hard with 
business and so many different groups to come together. It is a 
tremendous contribution to where we are now.
    So Senator Feinstein, it is just a privilege for me to 
introduce you. You have 10 minutes.

STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR FROM THE STATE 
                         OF CALIFORNIA

    Senator Feinstein. Thank you, Madam Chairman. It is 
actually my privilege. I have great pride in what you are doing 
and a great deal of faith that this committee is going to be 
able to produce legislation under your leadership. I am just 
very grateful for that.
    And Senator Carper, I am on your bill, you are on my bill. 
So we have kind of dovetailed our efforts, and I appreciate 
that very much.
    What I would like to do is just informally tell you what I 
have learned. No question, global warming is real. The science 
has now coalesced. No question, the Earth is warming as a 
product of human activity.
    The question is, how fast will it warm. In talking with 
climatologists at Scripps Institute, they said to me, if we 
have erred, we have erred on the conservative side; that the 
Earth is apt to warm much quicker than we predict. That really 
sounds the clarion call for action, and for the United States 
taking a role of leadership in the world, which we have not 
done up to this point.
    Now, what have I learned? I have learned you can't stop it, 
but what we can do is slow it. If we slow it to 1 to 2 degrees, 
we can adapt to it. If it goes 4 to 10 degrees, as many people 
believe it will by the end of the century, it is catastrophic. 
The Earth has tipped and we will not be able to restore the 
balance again. So time is of the essence.
    What we have tried to do is recognize that there is no 
silver bullet; that we have to do a number of different things 
so that everybody does their share, the electric industry, 
industry in general, people, fuels, automobiles, trains, 
everything all across the board.
    We have started by saying, all right, coal is dominant in 
40 States, and 40 times 2 is 80. We have 80 Senators that might 
be a problem on cap and trade. Now, why do we go to cap and 
trade? We go to cap and trade because Europe is using the 
system, the eight Northeastern States are going to be using the 
system; California is going into cap and trade. It looks like 
it provides the regimen to provide the auction and the credits 
to provide the technology to move everything forward.
    We thought, well, all these coal States, what do we do? So 
we went to a group of electric utilities called the Clean 
Energy Group. They are 15 percent of the electricity in this 
Country. They comprise Calpine, Entergy, Exelon, Florida Power 
and Light, which is in 42 States, PG&E, and the Public Service 
Enterprise Group, which is huge in many States. We sat down 
with them, and we said, if we were to negotiate a cap and trade 
system, how would we do it so there would be some support in 
the industry?
    The bill that Senator Carper and I have introduced, Madam 
Chairman, represents something that that section of the 
industry will support. It essentially reduces six global 
warming gases by 25 percent by 2020. It sets up an auction 
scheme that begins in 2011 with $1.9 billion to $10 billion, 
and goes up to $55 billion by 2036. It involves agriculture, so 
that they can get credits for good tillage, for growing energy-
proficient crops, et cetera. It gives you something I think to 
pick and choose from. It has a structure.
    We believe it is workable. These companies have all vetted 
it. They have agreed to support it. In 2020, it caps at various 
times the amount, so you reduce it by 25 percent by 2020. Then 
in 2020, it says EPA, all right, now you would go 1.5 percent a 
year every year. If your independent science shows that you 
need to do more than a year, you have the mandate to issue the 
directions of the cap, but absent that, it moves at 1.5 percent 
a year.
    I believe that we have to tailor cap and trade for each 
industry. We are working now in the industrial sector, and it 
may well be somewhat different than the electricity sector. 
Also, we are submitting to you a biofuels bill, CAFE efficiency 
10 miles over 10 years. That is 18 percent saving by 2020. 
Biofuels, I think, is around 20 percent saving, and then an 
energy efficiency bill patterned after California.
    If I had to say one thing to you, I would say it is 
necessary to do a number of different things and do them well, 
do them in a practical way, and do them so that you know that 
the goals can be reached by people who want to reach them. It 
is most important that it be practical and that it be doable, 
and that we be able to set something. If you can go to China, 
that is going to shortly overcome us, and say, look, here is a 
regimen that we are prepared to do in our Country, in 
electricity, in industry, in business, whatever it is. We 
believe you can do it, too. And India, the same way, so that we 
can provide the kind of leadership that we need to on a 
planetary level.
    Now, we did not include in our bill a preemption. That 
became very controversial. The Governor's people in California 
were concerned. I know environmentalists were concerned. But if 
you think about it, there should be one system, and the goal 
should be to make that one system worldwide so that everybody 
can enter into the cap and trade system, and everybody can 
produce the auction and the credits to do what they need to do 
in their own country to make technology much more improved.
    So I think it is a long road. I think it is a very 
interesting road. I really am so proud of you and your 
committee for holding these hearings and enabling us to come 
forward and present some of these things. So thank you very 
much.
    Senator Boxer. Senator Feinstein, I want to thank you so 
much for your ideas on this topic, for your work. Everything 
that you do, I can assure you is going to wind its way to our 
committee, and we will be, as I have told Senator Kerry, 
working the way we used to work around here, in a very open 
process, when we make finally the decisions as to how we are 
moving.
    You have laid out some very interesting points. Do we move 
sector by sector? Forty percent of the problem is utilities. 
Thirty percent is mobile sources. Thirty percent is smokestack 
and others. Maybe we will move that way. Maybe that is the only 
way we can go.
    Maybe we want to get one system, as you point out, would be 
the best thing where you can say that you are meeting the needs 
that the problem suggests. If we have a good system with good 
goals, then one system is clearly the best. If the States are 
out in front, and they are the ones who are responding to the 
reality, then we have to take another look at it.
    But I understand exactly what you are saying. Certainty, 
one system that meets the need is certainly what we ought to do 
if we can do it. But right now, it is sad to look at the state 
of things, where we have a patchwork.
    Senator?
    Senator Feinstein. I was just going to say, many of these 
companies do business in more than one State, some in dozens of 
States. That is the reason I think why we have to grapple with 
a national standard so that everybody plays by the same rules 
across the board.
    Senator Boxer. Absolutely, if we can get that standard 
strong enough so that it meets the challenge. Senator 
Whitehouse was here. I wish you had seen his presentation on 
what would happen in New England, and I think we will hear some 
of that passion from Senator Kerry. Senators Snowe and Gregg 
handed in testimony that is just a call to action, to do the 
strongest possible thing you can do nationally.
    I would add one point. You are right. These companies, many 
companies do business globally, too. I think one of the 
incentives for them to come to the table is the work of our 
European friends on this, because they want to work with the 
EU. They want to trade with the EU. They have to package for 
the EU. All of these things I think are calling us together 
with a common purpose.
    But I am really looking forward to the rest of your 
legislation. I would urge you to do it because once all those 
ideas are out on the table, Senator Bingaman's as well, and I 
know Senator Kerry is working as well, we will move, and you 
will be a very important part of writing the legislation we 
bring to the floor.
    Thank you very much.
    Senator Carper. Madam Chair, would you yield for just a 
moment?
    Senator Boxer. Yes, I will be happy to yield to you.
    Senator Carper. I want to welcome Senator Feinstein and 
Senator Kerry to this hearing, to our committee. I have had the 
pleasure of working with Senator Feinstein on several issues in 
the 6 years that I have been here. She is bright. She has great 
people around here. She is tenacious. She is able I think to 
lay out issues in a way that I can understand, and I think a 
lot of people could understand and relate to, which is a great 
gift. So thank you for being a partner with us.
    I would just say to Senator Kerry, my friend, my old Navy 
buddy, that I think, and I have said this to you before, I 
think you were ahead of your time in 2004, when you ran for 
President with a huge focus on energy independence and a great 
roadmap to get us there. There is an old saying that a prophet 
is without honor in his own land. You were a prophet and the 
rest of us fortunately are just a few years behind you. Thank 
you for joining us today and for your leadership.
    I have a bunch of people waiting for me in this hearing 
room, and have been waiting for some time. I am going to slip 
out for awhile, and if I miss your entire remarks, I will look 
for you at our caucus lunch and maybe you can give me the 
shorthand version. Thanks very much.
    Senator Boxer. Senator Kerry, we are honored you are here. 
You have 10 minutes.

      STATEMENT OF HON. JOHN KERRY, U.S. SENATOR FROM THE 
                 COMMONWEALTH OF MASSACHUSETTS

    Senator Kerry. Thank you very much, Madam Chairman.
    Thank you, Senator Carper, for your comments. I appreciate 
it and look forward to working with you.
    Madam Chairman, thank you so much for having this hearing. 
It is wonderful to have the Chair of this committee 
particularly who is looking at this issue and wanting to move 
forward.
    I just came back from the World Economic Forum meeting in 
Davos. It is interesting that this was really the dominant 
issue on the table among businessmen and leaders all over the 
world. It was the centerpiece of Prime Minister Blair's 
comments to the plenary session there. Everyone in the world is 
looking to the United States now. We are 25 percent of the 
world's greenhouse gas emissions. We have a responsibility to 
act. Like it or not, no matter what happens, yes, we need a 
global solution, but if the United States does not act, there 
won't be a solution.
    I look forward also, and I thank you for the conversations 
we have had. We are going to have some hearings in the Small 
Business Committee and see how small business can proceed, and 
also, in the Commerce Committee on which you serve, and you 
will sort of have a double hat to wear in that capacity. But we 
are going to use every leverage we have here to move on this.
    Back in 1987, on the Commerce Committee under the 
leadership of then-Senator Gore, we held the first hearings on 
global climate change. And then in 1990, we held an 
interparliamentary conference with Senator Wirth, Senator 
Chafee and others trying to raise the profile of this issue. In 
1992, and I mention this history because I want to emphasize 
the urgency of why we are here. In 1992, I was a member of the 
delegation that went with those same folks to Rio for the Earth 
Summit. We came together with about 170 nations or so to 
discuss various ways to tackle this problem back then.
    We came up with a voluntary framework, the international 
framework on climate change, which President George Herbert 
Walker Bush signed. We ratified, but it was voluntary. Nations 
were given an opportunity to participate. We set in process a 
series of meetings, several of which I attended. I went to 
Buenos Aires for the COP meeting. I went to The Hague for the 
COP meeting. We began to see the tensions between the less 
developed countries and the developed countries, and the near 
developed countries, and the struggle to try to get this 
passed.
    I managed the Kyoto agreement issue on the floor of the 
Senate, when the Byrd-Hagel resolution came up. We accepted the 
notion that, yes, we want less developed countries in, but we 
as a Nation never made an effort during those years to try to 
bring less developed countries to the table by working 
agreements with them for technology transfer, for recognition 
of the steps they were taking for fuel switching and other 
things.
    So the bottom line is, nothing happened. We are here in 
2006, 16 years or so after these meetings, and almost 20 years 
after the first hearings, and the United States, some are still 
in denial, and we are still not proceeding forward.
    The American people are moving ahead of the Congress, which 
is astonishing and a sad statement about congressional 
irresponsibility. About 376 Mayors from 50 States have signed 
onto the U.S. Mayors Climate Protection Agreement, to advance 
the goals of Kyoto. And now we have mounting scientific 
evidence, which will be capped in a report that will come 
forward from the Intergovernmental Panel on Climate Change, 
written by more than 600 scientists, Madam Chairman, reviewed 
by another 600 experts, and edited by officials from 154 
governments, to reflect the scientific consensus. Already, it 
is being called the smoking gun of global warming by those who 
have studied it.
    The basic facts are that at every point in between the two 
poles of this planet, the Earth's surface is heating up, and at 
a catastrophic rate. According to the 2001 IPCC report, we have 
already increased an average of 1.4 degrees, about .08 C.
    With what is in the atmosphere today, there is an 
inevitable increase. We can't do anything about it, up to about 
1.4 or 1.5 degrees. Scientists now tell us by consensus, recent 
discussions with Jim Hansen, with John Holden at Harvard and 
Woods Hole, say that we really only have a latitude of about 
.06 degrees. You have to hold your temperature increase to 2 C 
or we have catastrophic consequence.
    A few years ago, they thought it was 3 degrees. A few years 
ago, they thought we should hold it to 550 parts per million, 
but now they realize we have to decrease it to 450 parts per 
million to hold it down to 2 degrees because of what we have 
already seen in terms of the destruction that is taking place.
    In 2005, 1998, 2003, 2002, 2004, 2006, were respectively 
the 6 warmest years on record, and all but one of the hottest 
20 years on record have occurred since 1980, since the time 
they started measuring. We know this is the result of human 
activity, and we also know that carbon dioxide in our 
atmosphere has increased about 30 percent from the pre-
industrial level of 270 parts per million. It is currently at 
370 parts per million.
    So Madam Chairman, that means we have a latitude of going 
from 370 to 450. This is the highest level of concentration of 
carbon dioxide in the atmosphere at any time in the past 
150,000 years. If we let it go the way it is now, it could 
reach 600 to 700 parts per million and there will be 
catastrophe.
    Now, here is the bottom line. Those who oppose doing 
something serious, as John Holdren says, to be credible, they 
have to explain what alternative mechanism could account for 
the pattern of changes being observed, and they have to explain 
how it could be that the known human-caused buildup in 
greenhouse gases is not having an impact. So they have to show 
those two things, what is causing it, why is what we have done 
not causing it. They have failed to even suggest a legitimate 
theory for either of those.
    Senator Boxer. Senator, I am going to give you an 
additional 5 minutes.
    Senator Kerry. Thank you very much, Madam Chair. I 
appreciate that.
    So we are seeing these changes all over the Country. I have 
just been finishing writing a book about not just this, but all 
the environmental challenges we face today, toxins, water, 
oceans, et cetera. As I read about this, after 22 years in the 
Senate I have to tell you, it became more and more ominous, 
more and more frightening, more and more urgent and compelling 
than anything I have read in all the time I have been here, 
with the exception of a couple of security reports, but this is 
national security.
    You have hunters noticing these changes. In Arkansas, the 
winter duck population has shrunk from 1 million to a .5 
million over the past half century. Last year, drought dropped 
that population to 160,000. In South Carolina, they wouldn't 
have duck hunting now if it weren't for farm-raised ducks, and 
the population of migrant ducks is down to about 3,000. The 
number of category four and five hurricanes has nearly doubled 
in the last years.
    As John Holdren and others will tell you, climate change is 
the envelope within which all the other changes take place, 
species change, climate, winds, hurricanes, ocean temperature. 
There is this ominous notion of the tipping point which we have 
to avoid.
    So the bottom line is, Madam Chairwoman, the only way to 
avoid the catastrophe that they warn us of, the oceans, the ice 
in the oceans in the north, in the Arctic, is going to melt. 
Jim Hansen sat with me several months ago and said it is no 
longer a question of if, when or how. It is just a question of 
it is going to happen, probably 30 years from now. What happens 
if that ice melts is that more ocean is exposed. As more ocean 
is exposed, the heating of the sun has a greater impact on the 
warming of the ocean, which has a greater impact ultimately on 
the Greenland ice sheet.
    Now, we are already seeing melting underneath that ice 
sheet on the top of the rock. The potential for slippage of 
that rock, and major breakoff like the one we saw on Ellesmere 
Island a few months ago, actually a year and a half ago as was 
detected, and reported recently, where you had a 66 kilometer 
square ice sheet that just broke off and is now floating as its 
own island in the ocean.
    The ice in the Arctic as it melts doesn't change the 
displacement of the oceans, so sea level rise is not as much of 
an issue, though it is going to increase. But if the Greenland 
ice sheet melts, you have something ranging between a 16-foot 
and 23-foot sea level increase, which wipes out all ports, 
lowlands, and islands globally.
    The impact of this on poor people, the impact of this on 
commerce, on species, on disease and all kinds of things is 
gigantic.
    So Madam Chairwoman, the bottom line is we really, and the 
reason I mention all this, I know it is accepted. I know the 
science is accepted. Senator Bingaman said it. But the urgency 
is not accepted up here. The urgency is just not accepted. 
There are business leaders who are showing greater urgency, the 
recent 10 corporations that announced what they are going to 
do, then the Congress of the United States is, or then our 
government is. There is only one way to deal with this issue. 
It is carbon dioxide that is the principal greenhouse gas 
emission that is causing this. There are other greenhouse 
gases, but that is the principal one, and we have to cap the 
level of these greenhouse gas emissions. It is the only way to 
do it.
    Senator Snowe and I introduced legislation last year to 
achieve this. We are going to reintroduce it. We establish an 
economy-wide cap and trade program to reduce these emissions 
and we will set that out further later this week. But I 
remember being part of this debate in 1990, with John Sununu, 
George Mitchell, Bill Riley and others at the table, into the 
wee hours of the morning. I remember the industry sitting there 
saying to us, if you do this, it is going to cost $8 billion 
and it is going to take 10 years, and you are going to ruin the 
industry.
    The environment community said, ``no, no, no, no,'' it 
won't do that. If you do it, it will take $4 billion and it 
will be done in about 4 years, and it won't ruin the industry.
    Well, guess what? Both were wrong. It was done at about 
half the cost the environmental industry said it would, and in 
half the time. Why? Because no one was able to predict what 
happens when you start down the road and the technology begins 
to make advances, and technology begets technology and begets 
advances that we are not capable of predicting, which is why we 
need to make this commitment.
    The fact is, there are only three big ways of doing this. 
No. 1, is energy efficiency. There are enormous gains to be 
made in our Country in terms of energy efficiency. DuPont and 
General Electric and a host of companies are recognizing this 
and grabbing the profits. This is a for-profit effort, and we 
need to get people to realize this isn't just sacrifice. This 
is an ability to take the lead on health, on the environment, 
on jobs, on national security, as well as the ability to live 
up to our obligation morally for the next generation. So you 
get about five major pluses. There are few public policy 
choices where you get that.
    The final comment I would make, Madam Chairwoman, is that, 
let me pose this to you. There are two sides here. There are 
sides of people who are still obstructing, still saying no, and 
still fighting this, status quo-ists. They refuse to accept 
some of even the science now. Then there are those fighting to 
make it happen.
    Well, what is the downside of accepting the predictions of 
the Stern Report that says we can do this at 1 percent of GDP 
and the costs of not doing it are fivefold to twentyfold times 
more expensive than the cost of doing it.
    So I ask colleagues in the Senate and I ask Americans a 
simple question: If the people who think climate change is a 
serious problem are wrong, and we take the steps to deal with 
it, what is the worst that can happen? The worst that can 
happen is we have cleaner air, a healthier Nation, more jobs 
created. We lead the world in technology. We have made 
ourselves more energy independent, and we have a better 
environment.
    What is the worst that can happen if the people who say it 
is not happening or want to stop it? What is the worst if they 
are wrong? Catastrophe, absolute catastrophe. So the question 
for the U.S. Senate, for the Congress, for the Country, is 
which side of the ledger do we want to fall on. I think the 
answer to that is pretty clear.
    Senator Boxer. Senator Kerry, I want to thank you for your 
excellent contribution to this. You gave us the overview that I 
certainly agree with. I mean, it is a very simple thing. If you 
do the right thing, the conservative thing, really, the 
conservative thing is to say the worst could happen; let's 
prepare. You have five or six tremendous benefits, starting 
with the health of our families, saving in their pocketbooks 
and the rest, profits for industry, jobs we can export, a safer 
world because we don't have to rely on folks we don't want to 
rely on. You laid it out.
    So that is why I hope we can really come together. With 
your help, I honestly think that we can do it.
    Senator Kerry. Let me just say something.
    Senator Boxer. Yes, please go ahead.
    Senator Kerry. Two things I just want to add in closing 
out.
    Senator Boxer. Yes?
    Senator Kerry. In addition to the energy efficiency, Madam 
Chairwoman, obviously the clean and alternative fuels are 
something everybody is talking about. But we have to be a 
little bit careful about where the major input is put into 
that, because there are huge land use, water issues and energy 
issues, consumption issues, in the focus on just ethanol, and 
not cellulosic.
    Senator Boxer. Right.
    Senator Kerry. Second, we have to look carefully at the 
clean coal technology issue and sequestration. There are 
serious questions about how much sequestration you could 
actually achieve, and we have to push forward on it.
    Those are the three big ones, and those are the places 
where we are going to get the greatest grab in the shortest 
time. If we accept the science, and I think we are duty-bound 
to do it, than you only have a 10-year window. If there is a 
10-year window, then I think we have a moral responsibility to 
accept that. Then, you have to grab the biggest pieces, the 
fastest you can.
    Senator Boxer. Right.
    Senator Kerry. As you know.
    Senator Boxer. We call it the low hanging fruit. There is a 
lot of it around. The terrible news is we have done so little. 
The good news is we have done so little it is easy to start. I 
mean, that is really kind of where we are. We just have to 
start and get out of our paralysis.
    Senator, I also thank you for making the distinction 
between alternative fuels and renewable fuels because when the 
President talks about alternatives, we don't know that they are 
clean. We don't know that they will necessarily help us with 
the greenhouse gas emissions. So there are lots of things we 
have to be wary of.
    Obviously, you are a leader on this. You have been a leader 
for many years, and I am very pleased we will work together 
both on legislation that will come before this committee, as 
well as in the Commerce Committee, where we can really work 
together on fuel economy and the rest.
    So I think it is going to be a good year for us. We are 
going to move forward. I thank you for your contributions.
    Senator Kerry. My pleasure. Thank you very much.
    Senator Boxer. The committee is going to stand in recess 
until 12:45 p.m., when we expect to hear from Senators Obama 
and McCain. If there is any change in that, we will let 
everyone know. Otherwise, that is the plan.
    At 2:30 p.m., we have a host of people coming, Senators 
Levin, Murkowski, Akaka, Lincoln, Durbin and Nelson of Florida. 
So at this point, we intend to be back here at 12:45 p.m., and 
then again at 2:30 p.m. If there is any change, we will let 
folks know.
    Thank you. We stand in recess.
    [Recess.]
    Senator Boxer. The committee will come to order.
    We will now hear from Senator McCain. Welcome.

 STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator McCain. Madam Chairman, let me thank you for 
calling today's hearing to discuss the most important 
environmental issue of our time, climate change.
    Over the past several years, a number of my colleagues and 
I have spent considerable time on the issue of climate change. 
We have traveled around the globe to see firsthand the impacts 
of climate change and how it is changing the lives of people 
even as we speak. I am pleased to have visited Alaska, 
Antarctica, Canada, New Zealand, South America, Norway, and 
other parts of the Arctic region. Let me say, if anyone remains 
in doubt that climate change is real, I invite them to visit 
some of these places to see for themselves.
    The number of individuals in Washington who reject the 
clear evidence of global warming is shrinking as its dramatic 
manifestations mount. A large number of prominent scientists, 
industry leaders, environmentalists, State and local government 
officials, the faith-based community, and others agree that 
climate change is real and we must move quickly to address the 
problem in a meaningful and sustainable manner.
    We are no longer just talking about how climate change will 
affect our children's and grandchildren's lives, as we did just 
a few years ago, but we now are talking about how it is already 
impacting the world with declining snow packs, forest fires, 
melting ice caps, species dislocation and habitat loss, and 
extreme weather events. All are examples of how climate change 
is impacting us. We need to act to mitigate and adapt to these 
devastating events.
    More and more Americans are acknowledging that climate 
change is not only real, but that it is critical. On Monday of 
last week, a coalition of major U.S.-based businesses, with a 
combined market capitalization of over $750 billion, joined 
with environmental organizations to call upon our Federal 
Government to quickly enact national legislation to achieve 
significant reductions of greenhouse gas emissions. The members 
of the U.S. Climate Action Partnership recognize that setting 
rules now about greenhouse gases will unleash American 
ingenuity in an all-out effort to meet this complicated 
challenge.
    In their letter to President Bush, the Coalition said that, 
``A properly constructed policy can be economically 
sustainable, environmentally responsible, and politically 
achievable. Swift legislative action on our proposal would 
encourage innovation and provide needed U.S. leadership on this 
global challenge.'' They further stated that climate change 
will create more economic opportunities than risks for the U.S. 
economy.
    While action at the national level is essential, it will 
eventually occur because the American people will demand it. I 
am pleased to also mention progress that is already being made 
at the State and local levels.
    Just 6 months ago, the State of California enacted 
legislation requiring mandatory reduction of greenhouse gas 
emissions, the first of its kind in the Nation. That 
legislation would require that California's emissions be 
reduced to the year 1990 levels by the year 2020.
    The Northeast States of Connecticut, Delaware, Maine, New 
Hampshire, New Jersey, New York and Vermont agreed in December 
2005 to implement a cap and trade program to lower carbon 
emissions from powerplants. This effort is continuing to grow 
as evidence by the State of Massachusetts joining this regional 
effort 2 weeks ago.
    Also 2 weeks ago, an alliance of prominent U.S. scientists 
and members of the faith community pledged to work together to 
push for a reduction in the Nation's greenhouse gas emissions. 
In their statement, the group said that Earth is ``seriously 
imperiled by human behavior,'' and called on Americans to 
``steward the natural world in order to preserve the planet for 
ourselves and future generations.''
    The U.S. Mayors have also agreed to take action. Over 375 
U.S. Mayors, representing over 55 million people, have signed 
an agreement calling for emission reductions of 7 percent below 
1990 levels by the year 2012.
    Madam Chairman, we will continue to learn more about the 
science of climate change and the dangerous precedent of not 
addressing this environmental problem. The science tells us 
that urgent and significant action is needed.
    Later this week, we expect to receive the United Nations' 
Intergovernmental Panel on Climate Change summary of their 
Fourth Assessment Report. Some well respected scientists are 
already calling it the smoking gun, and the ``iconic 
statement'' on the issue of global warming.
    We recognize that many fear the costs of taking action. But 
there are costs to delay as well. Failure to implement 
significant reductions in net greenhouse gas emissions in the 
near term will yield only more climate change, and a much 
harder job in the future. Simply stated, inaction is 
unsustainable.
    As Senator Lieberman and I have continued working for 
passage of legislation to address climate change in a 
meaningful way, and are continuing our efforts to further 
improve upon our legislation with the goal of producing the 
most innovative, meaningful and economically feasible measure 
that can be embraced by the Senate, it has become clear to us 
that any responsible climate change measure must contain five 
essential components.
    First, it must have rational, mandatory emission reduction 
targets and timetables. It must be goal oriented, and have both 
environmental and economic integrity. Let us realize that the 
climate system reacts not to emission intensity, but to 
atmospheric concentration levels. We need policy that will 
produce necessary reductions, not merely check political boxes. 
The reductions must be feasible and based on sound science, and 
this is what we have tried to do in our bill.
    We realized that this problem is an environmental problem 
with significant economic implications, and not an economic 
problem with significant environmental implications.
    Second, it must utilize a market-based economy-wide cap and 
trade system. It must limit greenhouse gas emissions and allow 
the trading of emission credits across the economy to drive 
enterprise, innovation and efficiency. That is a central 
component, in my view, of any legislation. Voluntary efforts 
will not change the status quo. Taxes are counterproductive, 
and markets are more dependable than regulators.
    Third, it must include mechanisms to minimize costs and 
work effectively with other markets. The ``trade'' part of cap 
and trade is such a mechanism, but it is clear it must be 
bolstered by other assurances that costs will be minimized. I 
am as concerned as anyone about the economic impacts associated 
with any climate change legislation. I know that many 
economists are developing increasingly sophisticated ways to 
project future costs of compliance.
    Lately, we have seen the increased interest in this area of 
research. As we learn more from these models about additional 
action items to further reduce costs, we intend to incorporate 
them.
    Already, based upon earlier economic analysis, we have 
added offsets provisions in this bill in an effort to minimize 
costs and to provide for the creation of new markets. I assure 
my colleagues we will continue to seek new and innovative ways 
to further minimize costs.
    Let me again mention, Madam Chairman, what the Coalition of 
CEOs of major U.S.-based companies and environmental groups 
said just last week, ``In our view, the climate change climate 
will create more economic opportunities than risks for the U.S. 
economy.'' That is what the industrialists are saying.
    Fourth, it must spur the development and deployment of 
advanced technology. Nuclear, solar and other alternative 
energy must be part of the equation, and we need a dedicated 
national commitment to develop and bring to market the 
technologies of the future as a matter of good environmental 
and economic policy. There will be a growing global market for 
these technologies, and the United States will benefit greatly 
from being competitive in capturing its share of these markets.
    Unlike the Energy bill, it would be funded using the 
proceeds from the auctioning of allowable emission credits, 
rather than from the use of taxpayers' funds or appropriations 
that will never materialize.
    Finally, Madam Chairman, it must facilitate international 
efforts to solve the problem. Global warming is an 
international problem requiring an international effort. The 
United States has an obligation to lead. If we don't lead 
proactively, we will find ourselves following. There is no in 
between.
    However, our leadership cannot replace the need for action 
by countries such as India and China. We must spur and 
facilitate it. We have added provisions that would allow U.S. 
companies to enter into partnerships in developing countries 
for the purpose of conducting projects to achieve certified 
emission reductions, which may be traded on the international 
market.
    I believe those five components are integral to any 
legislation. Madam Chairman, you have a very big challenge here 
in trying to put this all together. I believe it has to be 
based on those principles. I believe we can do it so that it is 
valuable to the stockholders of major corporations. GE has gone 
green. They allege that it is going to help their stockholders. 
One reason is because they have to do business in Europe. I was 
very happy to see what happened last Monday. That would not 
have been possible a short time ago.
    I am happy to see what is happening in California, other 
coalitions of States. As I said at the beginning of our 
conversation, one, I am grateful for your leadership and your 
commitment, and two, the time is now.
    [The prepared statement of Senator McCain follows:]
         Statement of Hon. John McCain, U.S. Senator from the 
                            State of Arizona
    Madame Chairman, let me thank you for calling today's hearing to 
discuss the most important environmental issue of our time: climate 
change.
    Over the past several years, a number of my colleagues and I have 
spent considerable time studying the issue of climate change. We have 
traveled around the globe to see first hand the impacts of climate 
change and how it is changing the lives of people even as we speak. I 
am pleased to have visited Alaska, Antarctica, Australia, Canada, New 
Zealand, South America, Norway, and other parts of the Arctic region. 
Let me say, if anyone remains in doubt that climate change is real, I 
invite them to visit some of these places to see for themselves.
    The number of individuals in Washington who reject the clear 
evidence of global warming appears to be shrinking as its dramatic 
manifestations mount. A large number of prominent scientists, industry 
leaders, environmentalists, state and local government officials, the 
faith-based community, and others agree that climate change is real and 
we must move quickly to address the problem in a meaningful and 
sustainable manner.
    We are no longer just talking about how climate change will effect 
our children's and grandchildren's lives, as we did just a few years 
ago, but we now are talking about how it is already impacting the 
world. Drought, declining snow packs, forest fires, melting ice caps, 
species dislocation and habitat loss, and extreme weather events--all 
are examples of how climate change is impacting us. We need to act to 
mitigate and adapt to these devastating events.
    More and more Americans are acknowledging that climate change is 
not only real, but that our action is critical. On Monday of last week, 
a coalition of major U.S.-based businesses, with a combined market 
capitalization of over $750 billion, joined with environmental 
organizations to call upon our federal government to quickly enact 
strong national legislation to achieve significant reductions of 
greenhouse gas emissions. The members of the U.S. Climate Action 
Partnership recognize that setting the ground rules now for managing 
greenhouse gasses will unleash American ingenuity in an all out effort 
to meet this complicated challenge.
    In their letter to President Bush, the coalition said that, 
(properly constructed policy can be economically sustainable, 
environmentally responsible, and politically achievable. Swift 
legislative action on our proposal would encourage innovation and 
provide needed U.S. leadership on this global challenge.'' They further 
stated that ``. . . climate change will create more economic 
opportunities than risks for the U.S. economy.'' I agree.
    While action at the national level is essential--and it will 
eventually occur because the American public will demand it--I am 
pleased to also mention progress that is already being made at the 
state and local levels.
    <bullet> Just six months ago, the state of California enacted 
legislation requiring mandatory reductions in greenhouse gas emissions, 
the first of its kind in the nation. That legislation would require 
that California's emissions be reduced to the year 1990 levels by the 
year 2020.
    <bullet> The Northeast states of Connecticut, Delaware, Maine, New 
Hampshire, New Jersey, New York, and Vermont agreed in December 2005 to 
implement a ``cap-and-trade'' program to lower carbon dioxide emissions 
from power plants. This effort is continuing to grow as evidenced by 
the state of Massachusetts joining this regional effort two weeks ago.
    <bullet> Also two weeks ago, an alliance of prominent U.S. 
scientists and members of the faith community agreed to work together 
to push for a reduction in the Nation's greenhouse gas emissions. In 
their joint statement, the group said that Earth is ``seriously 
imperiled by human behavior'' and called on Americans to ``steward the 
natural world in order to preserve [the planet] for ourselves and 
future generations''.
    <bullet> And, the U.S. mayors have also agreed to take action. Over 
375 U.S. mayors, representing over 55 million people, have signed an 
agreement calling for emission reductions of 7 percent below the 1990 
levels by the year 2012.
    Madam Chairman, we will continue to learn more about the science of 
climate change and the dangerous precedence of not addressing this 
environmental problem. The science tells us that urgent and significant 
action is needed.
    Later this week, we expect to receive from the United Nation's 
Intergovernmental Panel on Climate Change a summary of their Fourth 
Assessment Report. Some well respected scientists are already calling 
it the ``smoking gun'' and the ``iconic statement'' on the issue of 
global warming.
    We recognize that many fear the costs of taking action. But there 
are costs to delay as well. Failure to implement significant reductions 
in net greenhouse gas emissions in the near term will yield only more 
climate change and a much harder job in the future. Simply stated, 
inaction is unsustainable.
    As Senator Lieberman and I have continued working for passage of 
legislation to address climate change in a meaningful way, and are 
continuing our efforts to further improve upon our legislation with the 
goal of producing the most innovative, meaningful, and economically 
feasible measure that can be embraced by the Senate, it has become 
clear to us that any responsible climate change measure must contain 
five essential components:
    First, it must have rational, mandatory emission reduction targets 
and timetables. It must be goal oriented, and have both environmental 
and economic integrity. Let us realize that the climate system reacts 
not to emission intensity but to atmospheric concentration levels. We 
need policy that will produce necessary reductions, not merely check 
political boxes. The reductions must be feasible and based on sound 
science, and this is what we have tried to do in our bill. We realized 
that this problem is an environmental problem with significant economic 
implications and not an economic problem with significant environmental 
implications.
    Second, it must utilize a market-based, economy wide ``cap and 
trade'' system. It must limit greenhouse gas emissions and allow the 
trading of emission credits across the economy to drive enterprise, 
innovation and efficiency. This is the central component of our 
legislation. Voluntary efforts will not change the status quo, taxes 
are counterproductive, and markets are more dependable than regulators 
in effecting sustainable change.
    Third, it must include mechanisms to minimize costs and work 
effectively with other markets. The ``trade'' part of ``cap and trade'' 
is such a mechanism, but it's clear it must be bolstered by other 
assurances that costs will be minimized. I am as concerned as anyone 
about the economic impacts associated with any climate change 
legislation. I know that many economists are developing increasingly 
sophisticated ways to project future costs of compliance. Lately, we 
have seen the increased interest in this area of research. As we learn 
more from these models about additional action items to further reduce 
costs, we intend to incorporate them. Already, based upon earlier 
economic analysis, we have added ``offsets'' provisions in this bill in 
an effort to minimize costs and to provide for the creation of new 
markets. And, I assure my colleagues, we will continue to seek new and 
innovative ways to further minimize costs. Let me again mention what 
the coalition of CEO's of major US-based companies and environmental 
groups said last week, ``In our view, the climate change challenge will 
create more economic opportunities than risks for the U.S. economy.''
    Fourth, it must spur the development and deployment of advanced 
technology. Nuclear, solar, and other alternative energy must be part 
of the equation and we need a dedicated national commitment to develop 
and bring to market the technologies of the future as a matter of good 
environmental and economic policy. There will be a growing global 
market for these technologies and the U.S. will benefit greatly from 
being competitive and capturing its share of these markets. Our 
legislation includes a comprehensive technology title that would go a 
long way toward meeting this goal. Unlike the Energy bill, it would be 
funded using the proceeds from the auctioning of allowable emission 
credits, rather than from the use of taxpayers' funds or appropriations 
that will never materialize.
    And fifth, it must facilitate international efforts to solve the 
problem. Global warming is an international problem requiring an 
international effort. The United States has an obligation to lead. If 
we don't lead proactively, we will find ourselves following. There is 
no in between. However, our leadership cannot replace the need for 
action by countries such as India and China. We must spur and 
facilitate it. We have added provisions that would allow U.S. companies 
to enter into partnerships in developing countries for the purpose of 
conducting projects to achieve certified emission reductions, which may 
be traded on the international market.
    These five components represent a serious challenge that will 
require a great deal of effort, the concentration of substantial 
intellectual power, and the continued efforts of our colleagues and 
those in the environmental, industrial, economic, and national security 
communities. I look forward to collaborating with the Committee in this 
effort as we continue to shape our legislation into its most effective 
form.
    Madame Chairman, I believe that Senator Lieberman has already 
provided the Committee with a thorough description of our bill, S. 280, 
the Climate Stewardship and Innovation Act of 2007. I won't seek to 
repeat it. However, I would like to address one issue that I know has 
been of concern for some on the Committee, and that is the topic of 
nuclear energy.
    I know that some here maintain strong objections to nuclear energy, 
even though today it supplies nearly 20 percent of the electricity 
generated in the U.S. and much higher proportions in places such as 
France, Belgium, Sweden and Switzerland--countries that are not exactly 
known for their environmental disregard. The fact is, nuclear energy is 
CLEAN. It produces ZERO emissions in operations. It has the lowest 
carbon footprint, and is, therefore, undeniably a valuable tool for 
reigning in greenhouse gas emissions both quickly and economically.
    Nuclear energy is growing, and it will continue to grow 
substantially in the coming decades given the growing electricity needs 
around the world. Not only should we promote U.S. companies in their 
efforts to compete for important roles in this growing market 
throughout the world, we should be helping them in promoting nuclear in 
a safe and efficient manner here in the United States. The Nuclear 
Regulatory Commission (NRC), which is under this Committee's 
jurisdiction, is already preparing for a substantial number of license 
applications for new plants. I am confident that this committee, under 
the Chairman's and Ranking Member's leadership, will work to ensure 
that safety remains first and foremost among the NRC's 
responsibilities, as it must.
    Finally, I, too recognize and share the concerns of what to do with 
nuclear waste. I am confident that given political will and time for 
technology development and deployment, we can solve that problem. It is 
important to recognize the responsible waste management that occurs in 
the nuclear industry today. Yet, while there is a great concern over 
comparatively small quantities of responsibly managed nuclear waste, 
there is an even more dangerous event occurring under our noses. And 
that is 900 tons of carbon dioxide per second being dumped in the 
atmosphere from fossil fuel use. Now that is a an urgent waste problem 
that should be concerning us most.
    Therefore, I hope we can have a thorough debate about the 
importance of nuclear energy and its future as we grapple with how best 
to address global warming. We need to better understand what is 
necessary to bring new, safe and reliable nuclear power plants on line. 
I hope that we can work together, Madame Chairman, to ensure we put all 
options on the table so that the Senate can pass the most innovative, 
effective, and economically feasible climate change legislation 
possible.
    The status quo is a strong and stubborn force. People and 
institutions are averse to change, even when that change is critical 
for their own well-being, and that of their children and grandchildren. 
If the scientists are right and temperatures continue to rise, we could 
face environmental, economic, and national security consequences far 
beyond our ability to imagine. If they are wrong and the Earth finds a 
way to compensate for the unprecedented levels of greenhouse gases in 
the atmosphere, what will we have accomplished? Cleaner air; greater 
energy efficiency, a more diverse and secure energy mix, and U.S. 
leadership in the technologies of the future. There is no doubt; 
failure to act is the far greater risk.

    Senator Boxer. Senator, before you leave, I want to say 
thank you for your consistency on this issue for years, and 
also your intensity. When we talk about carbon reductions, 
there is a whole argument over intensity. But intensity, when 
it comes to politics, is a very important thing. The reason I 
did these hearings, where we have such a great turnout of 
members, and then members outside the committee, is to gauge 
the intensity of feeling.
    I am proud to tell you, I think it is there, for many, many 
reasons, not the least of which is that you and Senator 
Lieberman have been pounding away on this. Senator Carper, 
Senator Alexander and others have been pounding away on this. I 
am just very glad that we gave you this opportunity for you to 
come forward once again, because without you, frankly, we can't 
put this together. We thank you very much for your 
contribution.
    Senator McCain. Thank you very much, Madam Chairman. 
Senator Lieberman has been a millstone around my neck as we 
move forward.
    [Laughter.]
    Senator Lieberman. I was just going to ask you if you 
wanted to venture an opinion on your leader co-sponsor, and you 
went ahead.
    Senator Boxer. He did it.
    [Laughter.]
    Senator Lieberman. Senator McCain has been very--he started 
with questions and we spent a lot of time before we introduced 
this bill, meeting with environmentalists, business people, and 
academics. This bill actually is the result of a process. It 
wasn't just, as great as our individual capacities are, and 
even more jointly. It built from a lot of work we did, and we 
started out trying to do something that we thought would work 
and be acceptable. And then, of course, John has been tireless 
in traveling around the world to see the actual effects of 
global warming, which has intensified his commitment to this.
    So he has been a great leader in this. I think we both feel 
that we are on the verge of critical mass, the tipping point. 
We are pleased to have others join us on this bill, and now 
look forward to working together with you, Madam Chairwoman, to 
make this happen.
    Senator McCain. Madam Chairwoman, I just want to say again, 
we don't feel that this proposal of ours is engraved in golden 
tablets. We think that it can be improved. We want to work with 
you and build a larger consensus under your leadership. We have 
no pride in authorship. This is too important. Whatever 
direction and additions or subtractions that you and our 
colleagues feel is necessary, the object is to get something 
done and soon.
    Senator Boxer. Right. We are in agreement. I thank you so 
much, Senator McCain.
    Now, our last speaker of the morning session, actually the 
early afternoon session, not the least is of course the Senator 
from Illinois, Senator Obama, if we can hear him above the 
clicks of the cameras. I always kid him. He is like a brother 
to me, so he has to put up with these jokes.
    But Senator Obama, I miss you from this committee, but I am 
very glad that you took time out to come here today. I want to 
fill you in, as I did Senator McCain. We had an extraordinary 
day to day. We started at 9 o'clock a.m., and 14 members of the 
committee came and spoke. I am trying to put together in my 
mind where everybody is so we can craft something.
    We had Senators Bingaman, Feinstein and Kerry come and 
speak, Senator McCain and now you. After lunch, we will have 
Senators Levin, Murkowski, Akaka, Lincoln, Durbin, Nelson and 
hopefully Joe Biden, who is stuck in another room in another 
hearing.
    The point is, this is getting exciting, and we may be 
feeling that there is a critical mass here to be very serious 
about this at long last.
    I also read into the record the most dramatic statements I 
have seen on this by Senators Snowe and Judd Gregg.
    So we have bipartisanship emerging and I am just really 
delighted you are here. You have 10 minutes or whatever you 
need to present to us.

 OPENING STATEMENT OF HON. BARACK OBAMA, U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Obama. Madam Chairman, thank you so much for your 
leadership and for holding this hearing. I want to commend you. 
I know that you have made people across the Country who takes 
this seriously, you have made them much encouraged because of 
the immediate efforts that you are putting into place.
    I want to thank Senator Lieberman as well as Senator McCain 
for the outstanding leadership that they have shown on this 
issue. Sometimes I know it has felt like you are howling to the 
wind, but fortunately, I think the American people have come to 
understand how important this issue is. I think those who still 
diminish the real threat that climate change poses to our 
children and our grandchildren, they are going to be lagging 
behind where the American people are at this point. So I want 
to thank both of you for your great work, as well as Senator 
McCain, who just provided testimony.
    For decades, we have been warned by legions of scientists 
and mounds of evidence that global warming is real, that we 
couldn't just keep burning fossil fuels and contributing to the 
changing atmosphere without consequence. Yet for decades, far 
too many have ignored the warnings, either dismissing the 
science as a hoax, or believing that it was solely the concern 
of environmentalists looking to save polar bears and rain 
forests. We have heard some of those views expressed, Madam 
Chairman, on this committee. You and I both recall some of 
those statements.
    But today's bipartisan hearing is a sign that the long 
running debate over the existence of climate change is over. It 
represents a sea change in the attitudes of this Country and 
this Congress, that we have moved from the question, ``Is it 
real?'' to the question, ``What can we do about it?'' We know 
that climate change is about more than a few unseasonably mild 
winters or hot summers. It is about the chain of natural 
catastrophes and devastating weather patterns that global 
warming has begun to set off around the world, the frequency 
and intensity of which are breaking records thousands of years 
old.
    It is about the devastating consequences climate change 
might have on human health, access to water, and the production 
of our food. Still, despite all the ominous harbingers of 
things to come, and I am sure it has been noted already at this 
committee, the most recent studies that came out indicating 
that the polar ice caps would no longer exist in approximately 
35 to 40 years, so it is no longer even an issue just for our 
children or our grandchildren, but potentially for us.
    We don't have to stand helplessly by and accept this 
future. In fact, we can't afford to. Climate change may be 
unleashing the forces of nature, but we can't forget that while 
this has been accelerated by man, it can also be slowed by man. 
Since coming to Washington, I believe that the right approach 
begins with the proposal put forward by Senator Lieberman and 
Senator McCain, a proposal they have been pushing for years, 
and I thank them again for their leadership on this issue.
    The Lieberman-McCain bill establishes limits for greenhouse 
gas emissions well into the 21st century. To remain below these 
limits, the bill encourages the market to determine how best to 
reduce greenhouse gas emissions, reward cost-effective 
approaches using a system of tradable allowances. The idea here 
is simple. If you are a business that cannot yet meet a lower 
cap on harmful carbon emissions, you have two choices. You can 
either purchase credits from other companies that have achieved 
more than their emission goals, or you can temporarily purchase 
a permit from the government. The money from the sale of these 
permits will go toward investments in clean energy technologies 
such as green buildings, high powered batteries for hybrid 
cars, safer nuclear plants to generate electricity, large scale 
biofuel facilities, and advanced coal powerplants that capture 
the carbon dioxide they generate.
    This will actually spur American innovation, as Senator 
McCain noted, creating business opportunities as new markets 
develop in low carbon technologies and services. Fred Krupp, 
the president of Environmental Defense has said, ``Once you put 
a value on carbon reduction, you make winners out of 
innovators.'' And that I think is the classic American way.
    In short, the Lieberman-McCain proposal addresses the real 
costs and consequences of our current patterns of energy use 
and establishes a framework for a market-based solution that 
relies on American will, ingenuity and technological expertise. 
It is a framework that is not only good for the environment; it 
is also good for business.
    In the face of Federal inaction, States, localities and 
private enterprise have begun to fill the void with a number of 
truly innovative proposals to reduce greenhouse gas emissions. 
I just want to give you one example from my hometown, the 
Chicago Climate Exchange, a voluntary global marketplace for 
reducing and trading greenhouse emissions. Such measures have 
been an important step in the right direction, but businesses 
that operate around the Country need regulatory certainty and 
that is just not possible when they are facing a hodgepodge of 
State and local regulations, which is why action on this 
committee and hopefully on the floor of the Senate is so 
important.
    Ultimately, climate change is one of the major tests of our 
generation. It is a challenge that asks us, will we stand by 
while drought and famine, storms and floods, overtake our 
planet? Or will we look back at today and say that this was the 
moment when we took a stand, that this was the moment when we 
began to turn things around. The climate changes we are 
experiencing are already causing us harm, but in the end, it 
will not primarily be us who deal with its most devastating 
effects. It will be our children and our grandchildren.
    This is our generation's chance to protect their futures. 
It is a chance that won't last much longer, but if we work 
together and seize this moment, we can change the course of 
this Nation forever. The Lieberman-McCain bill makes me hopeful 
that we can start right away. I am proud to be an original 
cosponsor. I am proud of the work that you are doing, Madam 
Chairman. I think I would be remiss also if I failed to mention 
the outstanding work that former Vice President Al Gore has 
done on this issue, because I think that through his film, An 
Inconvenient Truth, as well as his book, he has done more to 
proselytize on this issue, not just here in the United States, 
but around the world.
    Ultimately, the most important thing that we have to have 
is a sense of urgency on the part of the American people. Once 
the American people make a determination that something is 
important, politicians follow. He has made an enormous 
contribution in helping to make that happen.
    One final note I would like to make, Madam Chairman. I was 
heartened by Senator McCain's comment that the Lieberman-McCain 
bill is not written in stone. Obviously, there are improvements 
that can be made. We actually have some lessons that we can 
learn from the cap and trade systems that they have set up in 
Europe under the Kyoto Protocol. We know that in some cases, 
windfalls have gone to companies that really did not do a lot 
of work because of the way that the system was calibrated. We 
know that there are adjustments that we can make as a 
consequence of the work that they did that can make our system 
work even better. I am sure that we are going to be examining 
those carefully in our hearings.
    It may be that as we build consensus, it is possible that 
we can go even further than we have gone in this bill. That 
would be a wonderful thing, but I think this is a wonderful 
framework with which to start.
    The final point I would make would be that obviously 
setting up a cap and trade system will be difficult politically 
and presents a challenge to all of us, but we shouldn't stop 
there. There are other things that are going to be important to 
do. I have a bill that I am going to be introducing relating to 
making sure that our fuel efficiency standards in cars are 
higher than they currently are.
    There have been recent articles showing how much we could 
gain from improving basic efficiencies in buildings, in homes, 
the things that are relatively painless, but would have an 
enormous effect if we simply were systematic about it and 
provided incentives to both consumers and to businesses to 
implement some of these steps. We are way behind countries like 
Japan when it comes to energy efficiency, and that would make 
an enormous difference.
    Finally, Madam Chairman, I think that you are aware that 
there is an important convergence between the vital 
environmental concerns that we face and our national security 
interests. If we can move to conserve our energy consumption, 
our consumption of fossil fuels, then we get not only an 
economic benefit and not only an environmental benefit, but we 
also are able to strengthen our position relative to 
geopolitics. It gives us additional leverage in the Middle East 
and can potentially go a long way in terms of reducing some of 
our military obligations around the world.
    And so this is a win-win situation, and under your 
leadership I am confident that we can make great progress this 
year.
    Thank you very much.
    Senator Boxer. Thank you so much, Senator. Before you 
leave, we are going to go to a conference lunch in a moment. I 
just wanted to say that what has been fascinating for me to sit 
here through everybody's presentations is how we are coming 
together.
    We say it in our own way. We come from different parts of 
the Country. But I would say a broad consensus of those who 
spoke, a couple of exceptions, but not too many, is the time 
for action is now. We are not going to take a lot of time 
debating this anymore. We are just moving forward. If people 
still want to debate, it is free speech. Fine. But we are 
moving beyond the argument, and we are going to move forward to 
solutions.
    I would close by saying, and we will resume at 2:30 p.m., 
you asked the central question, and it is really I think a 
challenge to the whole Senate. You said, ``is this the moment 
we took a stand?''
    Senator Obama. Right.
    Senator Boxer. That is the central question. I think after 
what I have heard today, I want to report to you, since you 
asked the question, I think this is the moment that we will 
take a stand. It is with your enthusiasm, and Senator 
Lieberman's and Carper's and Alexander's and all of us 
together, Senator McCain, and Senators from both sides, that if 
we all feel this is our moment, because few have this 
opportunity that we have been given, by chance, by fate.
    So, I think the answer is yes. This is the moment we are 
going to take a stand.
    Senator, did you want to respond?
    Senator Obama. Look, I am ready and willing to work as hard 
as I can on this issue. One point that I am sure has been made 
in previous testimony is that the world is going to be watching 
us over the next several years to see what kind of leadership 
we take on this issue. We did not ratify Kyoto, and I think all 
of us would acknowledge that there were problems with Kyoto, 
but we did not come back with a solid proposal that we could 
participate in.
    As a consequence, we abdicated responsibility. The world 
moved forward. The industrialized world moved forward. We were 
laggards on this issue and that has then given an excuse to 
some of the rapidly developing nations, like China and India, 
to say if the United States, with all its wealth and its 
enormous energy consumption, is unwilling to do this, why would 
we, who are still trying to feed our people, want to invest in 
dealing with this problem?
    It is inexcusable, I think, for a country of our wealth and 
ingenuity and power not to be leaders. This gives us an 
opportunity to show the world that we are prepared to work with 
them in a constructive, positive, but aggressive way to deal 
with this threat.
    The only other point I would make, for those who are still 
skeptical about the issue of climate change, almost everyone in 
this room, I presume, has some form of insurance. You hope that 
you are not going to get cancer. You hope that you are not 
going to get hit by a bus. You hope that things work out in the 
end, but you plan for the possibilities of personal 
catastrophe. Even those who are skeptical about climate change, 
and still dispute the pace with which climate change is taking 
place, or are still disputing the causes of climate change, 
have to acknowledge that something out there is happening that 
is disturbing; that it is potentially an enormous problem; and 
that if we can take intelligent steps now to assure that this 
problem is dealt with, why wouldn't we do so? Why wouldn't we 
take that step?
    It is a significant investment, but in an economy of our 
size, it is not an insurmountable one. As Senator McCain 
indicated, it actually may point the way toward an entire new 
set of industries and enormous economic development. So my hope 
is that even for those who are still debating the science, they 
recognize that there is a serious enough possibility of a 
threat that it is worthwhile for us to take the steps now, as 
opposed to waiting until it is too late.
    Senator Boxer. Senator, thank you.
    Senator Lieberman, the last word.
    Senator Lieberman. Thanks, Madam Chairwoman.
    I wanted to thank our colleague, Senator Obama, for his 
eloquent statement and for his decision to sign onto the bill 
as an original cosponsor with Senator McCain and me. It matters 
a lot to us, but more than that I think it matters a lot to the 
cause that you have put the weight of your support behind this 
proposal.
    I was thinking as you were talking, you know, some 
scientists think we are approaching a climatological tipping 
point where we may get to a point where it is hard to come 
back, and some of the effects of climate change will indeed be 
catastrophic. We are in a race, and the question is do we hit 
the political tipping point when America comes together to 
assume its appropriate leadership role in the fight against 
global warming. Does that political tipping point come before 
the climate tips against us?
    I think what we are seeing here, including your moving to a 
leadership position here, is that maybe we will see the light, 
if you will, and hear the call to responsibility and show 
political leadership.
    Second, the President spoke less than a sentence about 
global warming in the State of the Union, but as I said earlier 
today, it was enough to elicit an eruption of hope around the 
world. It shows how much the world is yearning for American 
leadership. Of course, we have a moral responsibility to do 
that. I hope the President's statement, and I believe it is, 
will also encourage some of our Republican colleagues here in 
Congress to now become part of a solution, because I believe 
the President was clearly stating this is a real problem.
    The final point, just to state again, none of us who are 
original cosponsors of our proposal believe it is fixed in 
stone. The key parts are fixed, which is that there needs to be 
a cap. We tried it without a cap during the 1990's after the 
Rio agreements, and nobody did anything. So you need to create 
a cap, and that trading system underneath, but there is a lot 
of room to negotiate a lot within those parameters. I am 
hopeful together we will do that.
    Thank you very much.
    Senator Obama. Thank you so much, Madam Chairman.
    Senator Boxer. Senator Obama, thank you so much.
    Senator Lieberman, thank you again.
    We will stand in recess until 2:30 p.m. when we will hear 
from a number of our colleagues.
    [Recess.]
    Senator Boxer. The committee will come to order.
    I am very delighted that we expect this afternoon Senators 
Levin, Murkowski, and Akaka who are here, Lincoln, Durbin, and 
Nelson of Florida. We have also gotten several colleagues to 
send in statements. What I wanted to just tell my colleagues 
is, we are having an amazing day. We started at 9 a.m. We heard 
from 14 members of the committee, and then we had outside 
members come in, Senators Bingaman, Feinstein, Kerry, McCain 
and Obama.
    So we are really moving along, and now with the three of 
you, I am just delighted.
    Now, is it true, Senator Levin, that you are in a very big 
rush?
    Senator Levin. Yes, Madam Chairman. [Remarks off 
microphone.]
    Senator Boxer. We did. Is it possible for us to go Levin, 
Murkowski and Akaka? Is that all right? OK.
    Senator Levin, I was just saying, we have heard from about 
20 of our colleagues in person, and we have about six 
statements put in the record. So by the time the end of the day 
comes, we will have heard from more than one-third of the 
Senate on global warming.
    So we welcome you, Senator, and you have 10 minutes. If you 
have a statement to put in the record, we will do that. If you 
want to summarize it or read it, is your call. Thank you, 
Senator.

 STATEMENT OF HON. CARL LEVIN, U.S. SENATOR FROM THE STATE OF 
                            MICHIGAN

    Senator Levin. Madam Chairman, your meeting here is very, 
very important.
    Senator Boxer. Is your mic on?
    Senator Levin. Thank you. You are performing here a really 
great service by having hearings such as this, and opening up 
yourself, your other colleagues on this committee and the staff 
to hearing various positions on the subject at hand.
    Global warming is a fact as far as I am concerned. It has 
been for a long time. There is a consensus or near consensus 
among scientists that action is required. It is a global 
problem. It will get worse unless there is a global agreement 
to do something about it.
    I believe we need an effective international treaty for 
starters that is enforceable. The only way I know to enforce it 
and make sure that the countries that are producing more and 
more CO<INF>2</INF> come on board is if there are ways, if 
there are teeth in a treaty. One of the ways that I would 
contemplate if there were a reopening of the global warming, 
the Kyoto discussion, would be to allow countries that have 
trading relations with other countries who are not on board a 
global warming or CO<INF>2</INF> reduction scheme, to tell 
those countries that we are not going to accept products that 
come from countries that are not in agreement with a global 
warming scheme.
    I think you have to have some kind of teeth. It has to be 
global. It is global warming. You need an international 
agreement, a treaty that binds all nations, including the 
countries such as China and India whose increase in 
CO<INF>2</INF> production will swamp any reductions we are able 
to achieve in this Country unless they are on board. So an 
effective international treaty is No. 1. It has to be 
enforceable.
    No. 2, I understand that China is opening up a coal-fired 
powerplant every week. We can argue here all day, night and 
year about what we should do to reduce our contribution to this 
major problem, but unless China, India and other countries are 
on board, it is almost irrelevant. I wouldn't say it's 
irrelevant, but it is just going to be almost fruitless what we 
are hoping to do in this Country by various ways.
    Now, where does the United States fit? We have a chart. 
This is really to help me understand the picture. This is just 
a chart we finished this weekend. The square is the global 
CO<INF>2</INF> production in 2007. The square inside of that 
square is the U.S. contribution, which is 21 percent. The 
square inside that square is the transportation contribution to 
the U.S. contribution. And then inside that is the U.S. 
passenger vehicle and light trucks.
    So these numbers we will put in the record. World 
CO<INF>2</INF> production is 28 million metric tons. The U.S. 
contribution is 6 million metric tons.
    Senator Boxer. Senator, before you go on, I just want to, 
because I am having a difference with you on something you 
said, and I want to make sure. The big square is?
    Senator Levin. World CO<INF>2</INF>.
    Senator Boxer. World CO<INF>2</INF>. The next one is our 
contribution, 21.8 percent.
    Senator Levin. Right.
    Senator Boxer. The next square, as I understand it, 
according to my experts here, is the 6.8 percent is a 
percentage of the world, not the percentage of the United 
States.
    Senator Levin. That is correct.
    Senator Boxer. Because in the United States, it is one-
third of the problem.
    Senator Levin. That is correct.
    Senator Boxer. Thank you.
    Senator Levin. It is one-third of the U.S. contribution.
    Senator Boxer. That is right. Thank you.
    Senator Levin. I misspoke.
    Senator Boxer. We are together.
    Senator Levin. The transportation contribution to the U.S. 
contribution, it is one-third of the U.S. contribution.
    Senator Boxer. Correct.
    Senator Levin. Then the passenger vehicle contribution is 
about less than one-fifth of the U.S. contribution. It is about 
1.1 million metric tons of the 6.1 million metric tons.
    As we see it, that is the big picture.
    Now, a common goal would be to reduce carbon dioxide. I 
assume that is why we are here, is to reduce that, and I am 
going to focus just on vehicles, although vehicles are not the 
major part of the contribution. Nonetheless, obviously that is 
the part, coming from Michigan, which I have been focusing on 
for many years.
    Senator Boxer. Of course.
    Senator Levin. We want to reduce carbon dioxide. If we do 
it right, Madam Chairman, if we do it right, I believe we can 
unleash great technological advances in vehicles. We can make 
leaps in hydrogen use, in hybrid use, including plug-in 
hybrids, and biofuels, if we focus on the leap-ahead 
technologies and give the incentives to manufacturers to move 
to those technologies, instead of to meet the incremental 
increases which we otherwise would be arguing about relative to 
CAFE.
    On the CAFE issue itself, I want to make one point, which 
it may not even be visible on the chart that is up there 
already. That green box, which is the U.S. passenger vehicle 
and light truck contribution, if the bill that has been 
introduced relative to CAFE is passed, the reduction in the 
size of that box in 2012 will be that little tiny triangle in 
the upper right hand corner of that box.
    Senator Boxer. Which bill are you referring to? Snowe? 
Feinstein? Snowe?
    Senator Levin. I am not sure, the ones that call for 4 
percent per year. That is kind of basically what some of the 
bills are doing. Now, that is the way we look at it. I think it 
is right. I hope it is right. We have done the best we can.
    It is almost unnoticeable. It is hard even to see, not just 
because the color was too light. That was not intentional, but 
if you can see that little tiny triangle in the green box. If 
we pass CAFE reduction or increase in CAFE, reduction in 
CO<INF>2</INF> of the type which is being talked about, 4 
percent per year roughly, that is the reduction 5 years from 
now in carbon dioxide, that little tiny piece of that box 
represented by that triangle in the upper right hand corner.
    Now, Madam Chairman, if we do this right, instead of 
spending huge amounts of money trying to reach those numbers, 
if we can give incentives, tax incentives, research and 
development programs; if we can put together a program which 
will work with the automobile industry, we can instead of doing 
the incremental things which produce a tiny little bit of 
advantage for CO<INF>2</INF>, we would be able to promote the 
leap-ahead technologies which I know you, Madam Chairman, are 
interested in, and I think most of us are interested in.
    But that is going to be an alternative that we face. We are 
going to have a choice, two paths we can follow, one of which 
is going to not only follow the current approach on CAFE, but 
is going to have less resources available as a result to put 
into the plug-in hybrids which we all want, hopefully, and to 
the advanced diesels, which many of us want, and to really do 
something significant, dramatic with carbon dioxide.
    Now, if we do it wrong by focusing on that CAFE number, if 
that is our focus, we are going to do one other thing. We are 
not going to do even that much for the air because under the 
current CAFE rules, the Japanese, because of the way their 
fleets were structured and the credits which have been built 
up, can continue to sell large vehicles. What we are saying is 
if we follow the current CAFE structure is that they can sell 
as many big Tundras and other SUVs that they want, even though 
they are not more fuel efficient than comparably sized American 
vehicles.
    There is a myth that Japanese vehicles are more fuel 
efficient than American vehicles. They are not. The same size 
vehicles are the same, either fuel inefficient or fuel 
efficient. We have another chart on that issue, and then my 
time is up.
    We have taken examples of a large SUV, a medium-size SUV 
and a pickup truck. We will go down the line. A Chevrolet 
Suburban gets 17 miles to the gallon. A comparably sized Toyota 
Sequoia gets 16 miles to the gallon, less; a mid-size, Dodge 
Nitro, Toyota 4Runner, the same; a large pickup truck, a 
Silverado gets 18 miles to the gallon; Toyota Tundra gets 16 
miles to the gallon.
    It doesn't do anything for the air. It doesn't do anything 
for the environment to tell people you can buy all the Toyota 
Tundras you want at 16 miles per gallon, but you can't buy all 
the Chevrolet Silverados that are more efficient. It doesn't do 
anything for the environment and it hurts the American economy.
    So I would urge you to do a number of things. No. 1, and I 
don't have to urge you to do No. 1, No. 1 you are doing, which 
is to look at this globally in terms of trying to figure out a 
way to reduce carbon use in the world. When you focus on the 
American contribution to the problem, that we give incentives 
to industry to do the leap-ahead technologies which will really 
make the difference, rather than to debate endlessly whether or 
not CAFE is raised 2 percent per year, 3 percent, or 4 percent 
a year.
    For two reasons: No. 1, it doesn't do much. It is a peanut 
in the scheme of things, if that is all we are going to do. No. 
2, it is highly discriminatory against American production, 
American workers. We lost 3 million manufacturing jobs in this 
Country, and if we do nothing for the environment, at the same 
time we lose more jobs in America, we have made two mistakes. 
No. 1, we focused on the wrong place to help the environment; 
and No. 2, we have taken a shot at American workers instead of 
solving our problem.
    I thank again the Chair. I have gone over my time.
    [The prepared statement of Senator Levin follows:]
          Statement of Hon. Carl Levin, U.S. Senator from the 
                           State of Michigan
    Madam Chairman, you are doing a great service by hearing different 
colleagues and various positions on the subject at hand.
    Global warming is a fact. There is a consensus, or a near 
consensus, among scientists that action is required. The risks of 
inaction far outweigh the costs of action. The dislocations that would 
result from an increase of even a few degrees in global average 
temperatures are enormous. If we are to rise to this challenge, we need 
to take dramatic action and to do so without delay.
    Climate change is a global problem, and it requires a global 
solution. I believe we need an effective and enforceable international 
agreement that binds all nations to reductions in greenhouse gasses, 
including developing nations such as China and India. Although the U.S. 
is currently the top emitter of greenhouse gases, China and India are 
producing more and more CO<INF>2</INF> each year. China is opening up a 
new coal-fired power plant every 7 to 10 days, and in seven years China 
is expected to produce more greenhouse gases than we do.
    We can argue here about what we should do to reduce the U.S. 
contribution to this major problem. But unless China and India and 
other countries are on board, it's almost irrelevant. Whatever we are 
hoping to do in this country would be almost fruitless unless these 
other countries join in these efforts.
    Not only is it necessary that the countries that are producing more 
and more CO<INF>2</INF> come on board with a new international 
agreement, there must be teeth in that treaty. One of the things we 
must contemplate would be to allow countries to reject products from 
other countries that do not join an international agreement on 
CO<INF>2</INF> reductions. Additionally, we should insist that 
international development agencies the U.S. helps fund, such as the 
World Bank, the International Monetary Fund, and USAID not support 
countries that violate international agreements on global warming.
    Where does the United States fit into an international global 
warming agreement? World CO<INF>2</INF> production is 28 billion metric 
tons. The U.S. contribution is 6 billion metric tons, or 21.8% of world 
production. U.S. transportation contributes 6.8% of the world 
production, and U.S. passenger vehicles and light trucks contribute 
4.2% of world CO<INF>2</INF> production. The U.S. passenger vehicle 
contribution to world emissions is therefore less than one-fifth of the 
U.S. contribution. (It's about 1.2 billion metric tons of the 6 billion 
metric tons.)
    Although vehicles are not the major part of the U.S. contribution, 
we want to reduce carbon dioxide emissions from vehicles, and, if we do 
it right, I believe we can unleash great technological advances in 
vehicles. We can make leaps in hydrogen use, in hybrid use, including 
plug-in hybrids, and biofuels. We need to focus on these leap-ahead 
technologies and give the incentives to manufacturers to develop and 
move to those technologies.
    If we focus on corporate average fuel economy (CAFE) as the 
mechanism for CO<INF>2</INF> reductions, we will miss an opportunity to 
do real good and perhaps do real harm. If we pass a bill that would 
increase fuel efficiency by 4% per year, the reduction in 
CO<INF>2</INF> emissions by 2012 would be almost unnoticeable. It would 
lead to a reduction in CO<INF>2</INF> of less than one-tenth of one 
percent of world CO<INF>2</INF> emissions.
    There is an alternative which makes more sense because it could 
have a far greater impact on CO<INF>2</INF>. We can spend huge amounts 
of money trying to reach increased CAFE numbers which produce only a 
tiny reduction of CO<INF>2</INF>. Or we can give incentives, develop 
research and development programs, and work with industry to promote 
leap-ahead technologies and alternative fuels that will really do 
something significant to reduce carbon dioxide emissions.
    If we make the wrong choice, not only are we not going to do much 
to reduce CO<INF>2</INF>, we will also be hurting our economy. Under 
the current CAFE rules, because of the way their fleets were structured 
and the credits which have been built up, the Japanese auto companies 
sell more and more large, fuel inefficient vehicles. If we use the 
current CAFE structure, we will be simply pushing consumers into 
imported large SUVs instead of domestic SUVs of the same size and 
efficiency.
    There is a myth that Japanese vehicles are more fuel efficient than 
American vehicles. They are not. The same sized American vehicles have 
the same or in some cases better fuel efficiency than their Japanese 
counterparts. Take the examples of a large SUV, a medium-sized SUV, and 
a large pick-up truck. A Chevrolet Suburban gets 17 mpg, while a 
comparably-sized Toyota Sequoia gets 16 mpg. For the Medium-sized SUV, 
the Dodge Nitro and Toyota 4Runner have the same fuel economy, 20 mpg. 
Finally, the large pickup truck, the Chevrolet Silverado gets 18 mpg, 
while the Toyota Tundra gets 16 mpg.
    It doesn't do anything for the air or the environment for Toyota to 
be able to sell all the Tundras they want at 16 mpg, but GM cannot sell 
all the Chevrolet Silverados they would be able to sell, even though 
they are actually more efficient. It doesn't do anything for the 
environment, and it hurts the American economy and costs American jobs.
    So, I would urge you to do a number of things. Number one, look at 
this issue of global warming globally, to reduce carbon use in the 
world through a comprehensive agreement which includes all countries. 
Second, when we focus on the American contribution to the problem, that 
we give incentives to industry to develop the leap-ahead technologies 
and alternative fuels which will really make a difference, rather than 
debate endlessly whether or not the highly discriminatory against the 
U.S. CAFE structure should be raised 2% per year, 3%, or 4%. We have 
lost three million manufacturing jobs in the last six years, and if we 
continue to focus on CAFE we will be making two mistakes. One, we focus 
on the wrong place and wrong way to help the environment. And two, we 
take a shot at American workers instead of solving our CO<INF>2</INF> 
problem.
    Again, I thank the Chair.

    Senator Boxer. Thank you, Senator. That is all right, 
Senator.
    Senator Murkowski, are you on the Commerce Committee still? 
OK. I am on the Commerce Committee, and a lot of the CAFE issue 
will be debated at the Commerce Committee. I think there are 
various degrees of interest in moving forward. But I will say 
your points are very well taken. I can tell you this, if you 
can sit down with the auto companies whom you represent 
beautifully, and the workers you represent beautifully, and 
have them come to the table to talk about what would be most 
useful, and then winding up with cars that get us somewhere.
    Because you are right. This doesn't solve the whole 
problem. It is just a little tiny piece of the problem. As we 
look at energy efficiency, appliances, you could say the same 
thing about air-conditioners, you know, if you represent them. 
Gee, we get better efficiency.
    But I hear you, and I think the good news that you bring to 
me, it is not all bad from my perspective. The good news is you 
are saying there are ways for the automobile industry, if I 
read you right, to cut back on these emissions, but it is other 
ideas other than CAFE.
    Senator Levin. With leap-ahead technology.
    Senator Boxer. I hear you.
    Senator Levin. They can do it.
    Senator Boxer. As someone who owns three hybrid cars, I 
know the difference it makes in getting what I got before, 18 
miles or even less. Now, one of those hybrids gets over 50. The 
other one gets about 40.
    So the thing is, we can work together, and that is why I am 
very glad you came here. You could have stayed away. This is 
not a happy issue for you back home. I know that, but I like 
what you said. The only thing I would say is, I heard when you 
said we have to act globally, and absolutely we do. You are 
right. China is going to surpass us, India. We need to work 
with those nations. But I think we also need to take the lead 
as well. I mean, Britain went ahead and did it, and now 
according to Tony Blair, they are reaching past their goals and 
there are more jobs produced.
    But I think you have brought to the table this notion of 
the leap-ahead technologies, and I think the phrase is a good 
one. Why don't we pledge that we will work together to see 
whatever bills come out of here, that we are incentivizing 
those kinds of technologies, because I think it is essential 
that we do it, and it will be part of the mix.
    Senator Levin. Thank you.
    Senator Boxer. Thank you so much.
    Senator Levin. Thank you, Madam Chairman, and again to my 
colleagues, I intruded on the other order that would have taken 
place, and my apologies.
    Senator Boxer. We are fine. You all came very early. It is 
wonderful.
    Senator Murkowski, the floor is yours for 10 minutes. We 
are honored to have you here today.

 STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM THE STATE 
                           OF ALASKA

    Senator Murkowski. Thank you, Madam Chairman. It is nice to 
be back in a familiar committee room.
    I want to thank you for your leadership on this issue. Very 
early on, before you were even officially made Chairman of this 
committee, you indicated your intentions as it related to 
global warming and climate change, and your interest in hearing 
from everybody. So I appreciate the invitation to appear before 
the committee today to kind of speak from the Alaska 
perspective.
    I think it is important to remind my colleagues, up north 
in Alaska, we are America's only Arctic State. It is in the 
State of Alaska that I think it is fair to say we are uniquely 
affected by climate change, particularly if the trends continue 
as they have in the recent past.
    Alaska is also going to be uniquely impacted since, I don't 
need to tell anybody, it gets cold back there. Our winters are 
long and they are dark and they can be very extreme. As a 
consequence, Alaskans are among the highest consumers of energy 
on a per capita basis. We are also one of the largest producers 
of energy in the Nation. So we have a lot at play when we talk 
about the issue of climate change.
    Alaska theoretically leads the world in coal reserves. We 
likely hold about half of the Nation's undiscovered reserves of 
outer continental shelf oil and natural gas. We likely hold the 
Nation's largest single reserve of onshore oil yet to be 
tapped. We hold the Nation's largest unconventional source of 
energy; these are the gas hydrates that Senator Akaka and I 
have been working on developing. We have probably enough energy 
there with the gas hydrates to power the Country for 1,000 
years.
    On climate change, from Alaska's perspective, in my opinion 
there is no question but that something is going on, something 
demonstrable that we can view. Since 1979, this was the start 
of the satellite monitoring up north, Arctic Sea ice has shrunk 
by an area twice the size of Texas. Sea ice covers less of the 
Arctic Ocean now than ever before observed. The ice sheet in 
March 2006 was 300,000 square kilometers smaller than it was 
just a year earlier.
    NOAA, in an updated report on Arctic conditions released 
last October, reported that our average permafrost temperatures 
in the State continue to rise. Everyone wants to know what is 
happening with the glaciers. Well, a few of our Alaska glaciers 
are advancing, but the majority are in retreat. The melting of 
the Arctic Ocean ice pack has meant more stretches of open 
water earlier and later, which has allowed the waves to buildup 
during the fall and spring storms. This is causing erosion 
damage the likes of which we just haven't seen in the State, 
forcing many, many of our villages and our coastal communities 
to look toward relocation, an extremely costly expense, but 
endangering the lives of many in our villages.
    The warmer temperatures have had impacts on marine mammals, 
birds and sea life. You have clearly heard about the study now 
underway to determine whether or not to list the polar bears as 
threatened under the Endangered Species Act. This is not 
necessarily because their current populations are down. They 
are not in Alaska, but because they may decline if enough sea 
ice melts that reduces their hunting zones in the summer and 
harms their nutritional intake.
    We also have firmer data about the Kittlitz's murrelet. 
This is a bird that lives near the glaciers. They are 
declining. Their numbers are down 83 percent since 1976 in the 
Kenai Fjords area; 60 percent down in Glacier Bay. We also have 
the black guillemot, this is an Arctic sea bird. They used to 
thrive in the northern islands in the Beaufort Sea, but melting 
sea ice has cutoff their foraging areas and wiping out, or 
nearly wiping out, a major colony on Cooper Island.
    If we had more time this afternoon, I could speak to the 
issue of the spruce bark beetle infestations, which killed to 
date more than 5 million acres of Sitka spruce trees. We could 
talk about the lakes that appear to be drying up since the 
melting permafrost is allowing their waters to drain. We could 
talk about the effect on the fisheries and the marine mammals. 
We see our crab stocks falling, but our salmon stocks have been 
increasing.
    The question is whether or not we are simply in a natural 
cyclical warming trend that will reverse itself, or whether 
man-made greenhouse emissions are permanently changing the 
climate, overwhelming nature's ability to maintain a balance in 
the atmosphere. Now, the props that I have in front of me today 
are not just stuff from my desk. These are copies of the 
scientific reports that my office has been accumulating since I 
have been here in the Senate on climate change as it relates 
specifically to the State of Alaska.
    So there are some of the reports that say absolutely we are 
seeing a change. There are other reports that will contradict 
that. Last fall's NOAA report entitled, ``State of the 
Arctic,'' actually reports that ocean salinity and temperature 
profiles at the North Pole and in the Beaufort Sea, which had 
shown abrupt warming in the 1990's, have been moderating back 
toward normal since the year 2000. We have permafrost layer 
thickness at some testing stations in Alaska that have actually 
been slightly increasing over the past few years, although I 
will note that that is not the case in a majority of our test 
sites.
    NOAA's report for the end of last winter showed a return to 
more normal temperatures in parts of the Arctic Ocean that 
could drive both sea ice and air temperatures back to their 
previous norms.
    So again, the question that we find ourselves asking is 
whether these findings are simply a natural variability in the 
other direction, or is it a sign that an atmospheric cycle is 
ending. I have to admit, I don't know. I don't know the answer. 
So what I would like to suggest today, though, is not focusing 
too exclusively on one report, and the Stern Commission report, 
or the critiques of it, or that we don't venture into the 
storms of whether or not 2005 record number of hurricanes in 
the Atlantic were furthered by global warming.
    Those are to a certain extent a sideshow, a detractor of I 
think what our main issue is. Today, I am not going to focus on 
all the ideas to directly limit greenhouse gases, whether by 
cap and trade or mandatory regulations. I think what we need to 
consider is that all of these options will mean a more complex, 
complicated, a time consuming process that deserves careful 
consideration. I think, Madam Chairwoman, you are starting that 
conversation today, and that is very, very important.
    What I am suggesting that we do now is to turn our 
attention to seriously funding, funding through both grants and 
tax policy, the research and development of the new 
technologies to produce alternative forms of energy, some 
renewable, some continuing to come from fossil fuels, but in 
ways that cause little or no greenhouse gas emissions. And then 
to produce that energy at prices that will not harm our economy 
or lower the standard of living, and as you have mentioned, a 
key focus on promoting energy conservation and fuel efficiency.
    We have a great deal to do in that area, but without the 
technological breakthroughs and an economy that is strong 
enough and healthy enough to nourish and move forward that 
scientific advancement, we won't be able to cut our levels of 
emissions of greenhouse gases. We won't be able to help the 
developing world and other nations to reduce their emissions, 
something that is going to be vitally important as we look to 
what China is doing, and their world leader as an emitter of 
carbon.
    What I am proposing is that we debate the science and what 
to do about it, and that while we are debating, we launch a 
full scale effort to fund a host of technologies to improve 
energy production that is going to be needed regardless of the 
outcome of the climate change debate.
    In 2005, we passed legislation to aid wind and biomass and 
solar. We worked to jump start the next generation of nuclear 
power. We took some small steps toward combined cycle coal 
gasification. We need to do more of that. We need to provide 
the same support for geothermal, for hydroelectric, for all 
forms of budding ocean energy. This is an area I get excited 
about, and coming from California, you should have some 
interest there, too. We need to do the same things that we have 
done for wind, solar and biomass. We need to increase our 
funding for the advanced coal technologies so that we can make 
carbon sequestration affordable, not just possible. That is 
something that we must focus on.
    We have to continue to support the development of biofuels, 
as the President has suggested, to help them to maturity, but 
to get them to the point where they are economically and 
environmentally sound at the same time. We need to treat 
funding alternative energy sources and advancing fuel 
conservation as a priority, and not as an afterthought.
    We in Congress 2 years ago authorized considerable funding 
for a good bill to promote alternative energy technologies, but 
really, in fairness, we have funded very little of it. We need 
to implement the loan programs that we created. Because of the 
fiscal impacts of aid to our new technologies and our budget 
process, we limited the tax breaks in 2005 to such short time 
periods that most people can't actually design and then build 
the plants in time, and they can't benefit because we have 
narrowed those windows down. Frankly, the private sector would 
have been insane to proceed with too many projects based on 
what I consider to be very tepid price signals and a shallow 
show of Federal support that was offered.
    I am going over my time, Madam Chairman, but I want to put 
in a brief plug for legislation that I have introduced that 
would improve our CAFE standards and performance, authorize 
more funding for geothermal, ocean energy, small hydrate 
energy. I have a wonderful acronym, the REFRESH Act, and I 
would love to talk with you about it at some point in time.
    But again, we must expand the pace of moving new energy 
technologies out of the development and into the practical use 
so that we can move the economy forward, producing the new 
industries, the new jobs for Americans from the new 
technologies that we advance.
    I look forward to working with this committee, even though 
I am no longer a member. This is something that regardless of 
the State, regardless of the committees that you serve, we all 
have an interest in what is happening to our environment as it 
relates one State to another, one country to another.
    So I do hope that this is the beginning of a good and a 
productive dialog, and would encourage you to keep up the very 
ambitious pace that you have set already.
    [The prepared statement of Senator Murkowski follows:]
        Statement of Hon. Lisa Murkowski, U.S. Senator from the 
                            State of Alaska
    Madame Chairman (woman), Ranking Member Inhofe, thank you so much 
for the opportunity to appear before you. It is a pleasure to be back 
among you all today; who says you can't go home.
    I appreciate the opportunity to offer my perspectives as Alaska--
America's only Arctic state--will be uniquely affected by climate 
change if trends continue like they have in the recent past. Alaska 
also will be uniquely impacted, since Alaskans, to ward off the long 
winter's cold, are among the highest consumers of energy on a per 
capita basis, and also one of the largest producers of energy in the 
nation.
    Alaska theoretically leads the world in coal reserves, likely holds 
about half of the nation's undiscovered reserves of Outer Continental 
Shelf oil and natural gas, likely holds the nation's largest single 
reserve of onshore oil yet to be tapped, and holds the nation's largest 
unconventional source of energy, gas hydrates--probably enough to power 
the country for a 1,000 years.
    On climate, from an Alaska perspective, there is no question that 
something has been going on.
    Since 1979--the start of satellite monitoring--Arctic sea ice has 
shrunk by an area twice the size of Texas. Sea ice covers less of the 
Arctic Ocean now than ever before observed. The ice sheet in March 2006 
was 300,000 square kilometers smaller than it was just a year earlier.
    NOAA in an updated report on Arctic conditions released last 
October reported that average permafrost temperatures in the state 
continue to rise. While a few Alaska glaciers are advancing, the 
majority are in retreat.
    The melting of the Arctic Ocean ice pack has meant more stretches 
of open water earlier and later, which has allowed waves to build 
during fall and spring storms, causing more coastal erosion damage than 
previously seen. That has endangered a number of villages.
    The warmer temperatures have had impacts on marine mammals, birds 
and sealife. You have heard about the study now underway to determine 
whether to list polar bears as threatened under the Endangered Species 
Act, not because their populations currently are down--they aren't--but 
because they may decline if enough sea ice melts that it reduces their 
hunting zones in summer and harms their nutritional intake.
    There is firmer data that Kittlitz's murrelet, a bird that lives 
near glaciers, are declining, their numbers down 83% since 1976 in the 
Kenai Fjords and 60 percent in Glacier Bay. The black guillemot, an 
Arctic seabird, used to thrive on northern islands in the Beaufort Sea. 
Melting sea ice has cut their foraging areas, nearly wiping out a major 
colony on Cooper Island.
    If I had more time we could discuss spruce bark beetle infestations 
that have killed more than 5 million acres of Sitka spruce trees. We 
could talk about lakes that appear to be drying up since melting 
permafrost is allowing their waters to drain. We could talk about 
affects on fisheries and marine mammals: crab stocks falling, while 
salmon stocks have been increasing.
    But the question is whether we are simply in a natural cyclic 
warming trend that will reverse itself or whether man-made greenhouse 
gas emissions are permanently changing the climate, overwhelming 
nature's ability to maintain a balance in the atmosphere.
    My staff has been collecting scientific reports on climate change 
as it relates to Alaska for several years, (as you can see from the 
piles in front of me); yet the jury still seems out on the issue.
    Last fall's NOAA report, State of the Arctic, actually reports that 
ocean salinity and temperature profiles at the North Pole and in the 
Beaufort Sea, which showed abrupt warming in the 1990s, have been 
moderating back toward normal since 2000. Permafrost layer thickness at 
some testing stations in Alaska actually have been slightly increasing 
over the past few years--although that is not the case at the majority 
of test sites. And NOAA's report for the end of last winter (March 
2006) showed a return to more normal temperatures in parts of the 
Arctic Ocean that could drive both sea ice and air temperatures back 
toward their previous norms.
    Are these findings simply natural variability in the other 
direction or a sign that an atmospheric cycle is ending? I don't know.
    What I would like to suggest, though, is that we shouldn't focus 
too excessively on the Stern Commission Report, or the lengthy 
critiques of it, or that we don't venture into the storms over whether 
2005's record number of Atlantic hurricanes were furthered by global 
warming. Those are side shows.
    And for this moment, I'm not even going to focus on all the ideas 
to directly limit greenhouse gases, whether by mandatory regulations, 
cap-and-trade mechanisms, or carbon taxes. In a multi-trillion dollar 
economy, analyzing what all of those options will mean is a complex and 
time-consuming process that needs more careful consideration than we 
have time for today.
    What I am suggesting we do right now is turn our attention to 
seriously funding through both grants and tax policy, the research and 
development of new technologies to both produce alternative forms of 
energy, some renewable and some continuing to come from fossil fuels--
but in ways that cause little or no greenhouse gas emissions--and then 
to produce that energy at prices that will not harm our economy or 
lower our standard of living. And as a corollary we should focus on 
promoting energy conservation and fuel efficiency; and also on more 
domestic production.
    Even if we overnight perfect hydrogen fuel cell vehicles, we will 
still need to find and use more oil, natural gas or coal to produce the 
feed stocks for petrochemicals and building supplies and the thousands 
of products that come from hydrocarbons: everything from aspirin to 
plastics.
    Without technological breakthroughs and an economy that is healthy 
enough to nourish scientific advancement, we can't cut our emissions of 
greenhouse gases by 60% to 80% without returning to the Stone Age. And 
we won't be able to afford to help the developing world to reduce 
emissions, something that will be vital given that China is likely to 
surpass the U.S. as the leading emitter of carbon within just two 
years.
    What I am proposing is that while we debate the science and what to 
do about it, that we launch a full-scale effort to fund a host of 
technologies to improve energy production that will be needed 
regardless of the outcome of the climate change debate.
    In 2005 we passed legislation to aid wind, solar and biomass. We 
worked to jumpstart the next generation of nuclear power and we took 
fledging steps toward combined-cycle coal gasification and liquid fuel 
plants that can actually separate out the carbon they emit and then, if 
we have the will, pump it and lock it back underground.
    We need to do far more of that. We need to provide the same support 
for geothermal, hydroelectric and all forms of budding ocean energy 
that we have provided for wind, solar and biomass/landfill gas 
development. We need to increase our funding for advanced coal 
technologies so that we make carbon sequestration affordable, not just 
possible.
    We need to utilize the CO<INF>2</INF> we will be generating to get 
more oil out of the ground, so-called enhanced oil recovery, because 
the hybrid vehicles that are reducing our fuel consumption run best on 
gasoline--at least until hydrogen fuel cells can be perfected or 
battery life for plug-in hybrids can be improved significantly.
    We need to get on with finding a storage solution for nuclear 
waste, since nuclear power does not produce greenhouse gases, and 
because the world is proceeding with building nuclear power plants 
whether we do or not. So we will be facing the issue of their waste 
whether we follow suit or not.
    We need to continue to support the development of bio-fuels as the 
President proposed, and help them to maturity, but only to the extent 
that they ultimately will prove economically and environmentally sound.
    And I truly think we need to treat funding alternative energy 
sources and advancing fuel conservation as a priority, not an 
afterthought. We in Congress two years ago authorized considerable 
funding for a good bill to promote alternative energy technologies, but 
we have actually funded very little of it. We and the Administration 
have barely begun to implement the loan programs that we created.
    Because of the fiscal impacts of aid to new technologies on our 
budget process, we limited the tax breaks in 2005 to such short periods 
that most people couldn't actually design and build plants in time and 
thus couldn't benefit. And frankly the private sector would have been 
insane to proceed too far with too many projects based on the tepid 
price signals and the shallow show of federal support that we offered.
    At this point I want to put in a plug for a bill I introduced that 
would improve CAFE standards and performance, and authorize more 
funding for ocean, geothermal and small hydro energy development. I'll 
be happy to buttonhole you to explain the merits of S. 298, the REFRESH 
Act, and I'll be happy to discuss my support for the many good ideas 
that others have already proposed.
    We must expand the pace of moving new energy technologies out of 
development and into practical use so that we propel our economy 
forward--producing new industries and new jobs for Americans--from the 
new technologies we advance.
    In the meantime I believe we still need to both explore for and 
produce fossil-fuel energy to help cover our needs and improve our 
national and economic security until this new technology can change the 
current energy playing field. The idea that we aren't ``weaning 
ourselves'' off oil, simply because we continue to produce it is 
irrational, as long as we seriously fund, encourage and send clear 
signals to the markets that we want to move toward using 
environmentally cleaner forms of energy, as soon as they can be safely 
advanced.
    Thank you for your time and attention.

    Senator Boxer. Thank you so much, Senator Murkowski. We do 
miss you on this committee. I can assure you that new 
technologies, I think there is broad agreement that we can't do 
this without the new technologies.
    In a free market system, they have to be able to compete, 
and that is why we need to make some of these investments that 
you are talking about. But I think you are going to find a 
broad array of agreement on that.
    I think one of the interesting things about my having this 
hearing and listening to everybody is that there is just enough 
common ground here, I think, where we can come together on 
various aspects, because there isn't one thing that we are 
going to do to solve it. It is going to be many things. I think 
you have laid out that whole new technology idea.
    I will say this. I think the majority of this committee, if 
not every person, has agreed it is time to do something. You 
are right. The debate will continue, but in most of our minds, 
there is a consensus. We are going to move forward. I think you 
have put before us some very exciting ideas, and I will work 
with you on your bill and look forward to moving those ideas 
into law.
    Senator Murkowski. If the committee would like to avail 
themselves of any of ours studies, we would be happy to share 
them with you, but we do look forward to working with you.
    Senator Boxer. We do appreciate it, and I know there are so 
many words written about global warming. One of the things I 
did today in my presentation was to take what I consider to be 
the growing consensus from the business community, even from 
some of the largest producers of coal, or I would say 
purchasers of coal like Duke Energy and others, saying now it 
is time to really move. That is really remarkable, to have the 
business community saying hurry up and do something. Because 
what is happening is a lot of our States and localities are 
moving ahead, and then there is a patchwork of these different 
rules, not to mention the EU has different rules.
    So I think it is important for the economic prosperity of 
this Country in the future is to grapple with this issue. I 
think you have laid that down. I thank you for your 
contribution.
    Senator Akaka, it is wonderful to have Hawaii and Alaska 
here together, our newest States and our States that will be 
very impacted by this. So we really appreciate your being here, 
Senator Akaka.
    Thank you again, Senator Murkowski.

STATEMENT OF HON. DANIEL AKAKA, U.S. SENATOR FROM THE STATE OF 
                             HAWAII

    Senator Akaka. Thank you very much, Madam Chairman.
    Madam Chairman, I want to congratulate you and your 
Committee on Environment and Public Works, and what you are 
doing in promoting global warming as a problem, and as an 
opportunity to find relief because of global warming.
    I would like to also commend our new colleague, Senator 
Sanders, and you for your hard work and efforts to continue the 
legacy of Senator Jim Jeffords on this critical topic of global 
warming.
    I congratulate you both on the reintroduction of S. 309, 
the Global Warming Pollution Reduction Act of 2007, of which I 
am an original cosponsor.
    I also commend Senators McCain, Lieberman and Bingaman, who 
have each been critical in introducing legislation that has 
moved the debate forward, bills which I have cosponsored or 
supported as well. The cumulative effects of this discussion 
and debate are gratifying, and I believe we have the momentum 
to move our Country forward with your leadership.
    The global warming debate began in Hawaii over 30 years 
ago, when the Mauna Loa Climate Observatory first documented 
evidence of increased carbon dioxide levels in the Earth's 
atmosphere. The international scientific community now concurs 
that human activities are altering the entire system.
    It is important that the United States, which is the 
world's largest emitter of greenhouse gases, be accountable as 
a leader in reducing emissions and combating the threats 
resulting from global warming.
    This bill, one of several that we will be considering 
during the Congress, is comprehensive legislation that will 
assist in decreasing U.S. greenhouse gas emissions. I have 
spoken before about the fact that my home State of Hawaii is 
disproportionately susceptible to increases in sea level and 
ocean temperature that jeopardize public safety, economic 
development, and the health of our unique island ecosystems and 
wildlife.
    It is clear that coastal States will also face similar 
challenges caused by sea level rise, resulting in the flooding 
of low-lying property, loss of coastal wetlands, beach erosion, 
salt water contamination or drinking water, and damage to 
coastal roads and bridges.
    Immediate action is needed to reverse current trends and to 
reduce emissions. This will be achieved by the energy 
efficiency targets set by S. 309, that will assist both the 
industry and consumers in meeting these standards. A 
substantial investment in research to develop technologies to 
control greenhouse gas emissions, including renewable energy 
technologies, will play a crucial role in successfully meeting 
the objectives of the legislation. This investment will also 
boost economic activity and create jobs in the United States.
    In addition, I have great concern for the public health 
implications for tropical and subtropical areas like my State. 
Part of the South Atlantic and the Caribbean and Gulf of Mexico 
States, and territories in the Pacific. Scientists are warning 
that the effects of global warming will only intensify the 
likelihood of severe weather events, and of overall warming, 
particularly in tropical areas.
    These trends are likely to lead to a number of public 
health issues, such as the growth and spread of infectious 
disease, air pollution, asthma and waterborne diseases. In 
fact, the group, Physicians for Social Responsibility, has 
called responding to global warming, ``a public health 
imperative.''
    S. 309 set ambitious goals which will put the United States 
on a path to provide necessary requirements and incentives for 
EPA to minimize U.S. emissions and assist in the stabilization 
of global atmospheric greenhouse gas concentrations. We have 
much at stake, and I am pleased that the United States can now 
take a leadership role in promoting responsible energy use on a 
global level.
    I remain committed, Madam Chairman, to working with my 
colleagues to enact legislation that will improve the health of 
our planet and the quality of life for all Americans.
    Thank you and I ask that my full statement be submitted for 
the record.
    [The prepared statement of Senator Akaka follows:]
       Statement of Hon. Daniel K. Akaka, U.S. Senator from the 
                            State of Hawaii
    Thank you, Chairman Boxer, Ranking Member Inhofe, and Members of 
the Environment and Public Works Committee for holding this hearing 
today. I commend my friend and colleague, Senator Boxer, and our new 
colleague Senator Sanders, for their hard work and efforts to continue 
the legacy of Senator Jim Jeffords on the critical topic of global 
warming. I congratulate them both on the re-introduction of S. 309, the 
Global Warming Pollution Reduction Act of 2007, of which I am an 
original cosponsor.
    I also commend Senators McCain and Lieberman for increasing 
awareness on the issue over the last five years and introducing their 
groundbreaking legislation. In addition, I thank Senator Bingaman for 
his leadership in putting forward a cap and trade bill that I supported 
during debate on the 2005 Energy bill and in the critical Senate vote 
in 2005. The cumulative effects of this discussion and debate are 
gratifying and I believe we have the momentum to move our country 
forward.
    The global warming debate began in Hawaii over 30 years ago when 
the Mauna Loa Climate Observatory first documented evidence of 
increased carbon dioxide levels in the earth's atmosphere. The 
international scientific community now concurs that human activities 
are altering the climate system. It is important that the U.S., which 
is the world's largest emitter of greenhouse gases be accountable as a 
leader in reducing emissions and combating the threats resulting from 
global warming. This bill, S. 309, is one of several that we will be 
considering during this Congress and it is comprehensive legislation 
that will assist in decreasing U.S. greenhouse gas emissions.
    I have spoken before about the fact that my home state of Hawaii is 
disproportionately susceptible to increases in sea level and ocean 
temperature, which jeopardize public safety, economic development, 
cultural resources, and the health of our unique island ecosystems and 
wildlife. It is clear that coastal states will also face similar 
challenges caused by sea level rise resulting in flooding of low-lying 
property, loss of coastal wetlands, beach erosion, saltwater 
contamination of drinking water, and damage to coastal roads and 
bridges.
    In addition, I have great concern for the public health 
implications for tropical and subtropical areas like my state, Pacific 
island nations, and states along the Atlantic, Carribean, and Gulf 
coasts. Scientists warn us that global warming will intensify the 
likelihood of severe weather events and overall warming, and that these 
trends are likely to lead to a number of public health issues, such as 
the growth and spread of infectious diseases, air pollution and asthma, 
and water-born diseases. In fact, the group Physicians for Social 
Responsibility has called responding to global warming ``a public 
health imperative.''
    As stewards of our planet, immediate action is needed to reverse 
current trends and actively seek solutions to curb the buildup of 
greenhouse gases. S. 309 sets energy efficiency targets to assist both 
the industry and energy consumers in meeting these standards. This 
legislation lays out ambitious goals and necessary incentives to 
minimize U.S. emissions and assist in the stabilization of global 
atmospheric greenhouse gas concentrations.
    We must invest in technology research to control greenhouse gas 
emissions. Encouraging renewable energy technologies will play a 
crucial role in successfully meeting the objectives of this 
legislation. This investment will also boost economic activity and 
create jobs in the U.S. Much is at stake and I am pleased that the U.S. 
can now take a leadership role in promoting responsible energy use on a 
global level.
    Under the guidance provided by this bill, I firmly believe the 
state of Hawaii, along with the rest of the United States, will be 
poised to substantially reduce greenhouse gas emissions. I remain 
committed to working with my colleagues to enact legislation that will 
improve the health of our planet and the quality of life for all 
Americans.

    Senator Boxer. Without objection.
    Senator Akaka, I want to thank you for your leadership 
here. You were one of the first to go on the Jeffords bill and 
one of the first to go on the Sanders-Boxer bill. I call that 
the gold standard bill because I believe that is the bold bill, 
that is the one that does what California does. It is really 
the best insurance policy that we have against the worst 
predictions.
    I think what has been so wonderful, and I will share this 
with Senator Lincoln, who I will call up in a moment, we have 
already heard from 27 Senators today. It is just unprecedented. 
We had 14 members of the committee. We had seven of you who are 
not on the committee, McCain, Feinstein, Kerry, Obama, 
Bingaman, Murkowski and Akaka. We have two statements in the 
record. We now have an additional four.
    Now we are going to hear from Senators Lincoln, Durbin, and 
who are the other two? Nelson of Florida. So we are really 
getting toward hearing from about one-third of the Senate.
    With that, I will let you go, Senator Akaka. I thank you 
very much for your wisdom, and we will work together.
    Senator Akaka. Thank you very much.
    Senator Boxer. I am thrilled that our colleague, Senator 
Blanche Lincoln of Arkansas is here. I am asking her if she 
would come up and join with us. She is on some very important 
committees, not the least of which, of course, is Finance, 
which is going to have a lot of ability here to give the kind 
of incentives and tax breaks and so on, that Senator Murkowski 
talked about, Senator Lincoln, the incentives to our business 
community, incentives to our consumers to do the right thing, 
and to move to those better technologies.
    So we welcome you here. I am really thrilled that you are 
here. You have 10 minutes, so please use it as you will.

STATEMENT OF HON. BLANCHE LINCOLN, U.S. SENATOR FROM THE STATE 
                          OF ARKANSAS

    Senator Lincoln. Thank you, Madam Chairman.
    It is certainly not by accident that I do sit on the 
Finance Committee, the Agriculture Committee, and the Energy 
Committee, because renewable energy, as well as looking for 
alternative energy sources, is absolutely essential for me. As 
you and I have mentioned many times, it is absolutely essential 
for future generations, for our children and our grandchildren, 
that we put the dedicated time and energy into finding the 
solutions that will really make a difference in their lives.
    So pairing those committees up together, I feel like I can 
look for the new and innovative ideas. I think I can look for 
the incentives that need to be there. I also think that we can 
look at using the opportunity for renewable fuels and for 
alternative energy sources as a way to revitalize rural 
America.
    I look forward so desperately in working with you to really 
focus on what this could mean for rural America in the coming 
years. I think it is an important place for us to make an 
investment, and it is an essential part of our culture in this 
great Country, and I think it will make a big difference for 
the lives of all Americans, not just those that live in rural 
America, but for our entire Nation.
    So I am grateful to your committee, and especially to you. 
I appreciate the opportunity to come before the committee and 
speak on such a critical issue to all of us. I would especially 
like to thank you, Senator Boxer, for your leadership and your 
energy particularly on climate change. There is no doubt that 
if you singlehandedly had to, you could put the energy that 
needs to be into this issue to solve this problem. We are so 
grateful to you for your dedication and your energy toward 
that. You have been out front on this from the beginning, and I 
certainly look forward to working with you in this Congress.
    In 2003, Madam Chairman, when the Climate Stewardship Act 
came up for a vote in the Senate, I opposed it. It was one of 
the most difficult votes I have taken in the Senate, and I had 
great thought and great prayer over that vote, knowing that 
there were things that we needed to do, but wondering whether 
or not we had arrived at being able to do it through that bill.
    I was concerned that the bill could drive up utility rates, 
with energy companies forced to use more expensive fuels or 
forced to develop new infrastructure, with the attendant costs 
being passed on to the consumers. In a State like mine, Madam 
Chairman, with pervasive crippling poverty, even a $5 a month 
increase is enormously significant in the lives of many of our 
families. These are people living paycheck to paycheck, with 
all of their income committed each month, and oftentimes more 
than they have in their pay being committed. That $5 has to 
come from somewhere, if that is what the increase is. For a 
family with children, it might mean school supplies or new 
shoes or books. For an elderly person, it could mean giving up 
money that should be spent on prescription drugs in order to 
pay those utility bills.
    Either way, this would be forcing the least amongst to bear 
a burden that many others would not. At that time, that was the 
way I viewed the issue and could not support the bill on the 
floor. Since then, I have had continual dialog with many of my 
colleagues about how we include in what we do the capacity that 
we have in this great Nation, and certainly in this body, to be 
able to ensure that there are provisions there that will not 
put the burden of what it is we have to do collectively as a 
culture and as a people, on the backs of those that are the 
least among us.
    Now, I stand before you as not only a supporter of the 
Climate Stewardship Act, but one of its original cosponsors. 
Many have asked what has changed. The answer is simple. It is 
abundantly clear that we must take action on this issue now if 
we are to have any hope of correcting it. We are stewards of 
this Nation and of this planet. Our ultimate responsibility is 
to leave it a better place for our children. I fear that if we 
do not take action soon, we will have lost that chance.
    Madam Chairman, it is as simple as that. We have an 
opportunity. We have a window of opportunity that has grown 
smaller and smaller, and if we don't seize the opportunity now, 
it is not only what we might do to ourselves, but unfortunately 
what we might do to our children and our children's children.
    I would like to give you an example from my home State of 
Arkansas, and this is one that you will see readily applies to 
me and to my family. Recently, my husband and I took our two 
boys, Reese and Bennett, duck hunting. My husband and I both 
grew up in the duck blinds with our fathers. It was a family 
outing. My sisters as well would join us, and our fathers spent 
many cold mornings in the duck blind with their children.
    We visited there. We talked about the environment. We 
talked about the world around us. We talked about challenges 
that we faced then, and that we might face in the future in our 
lives. It is something that generations of our families have 
enjoyed for quite a long time, being in the outdoors, enjoying 
one another's company, in the solitude of the environment.
    Recently, a study by the Arkansas State University revealed 
the potential effects global warming would have on duck 
populations and migration patterns in Arkansas. What they found 
was not surprising. Ducks migrating from the north were not 
coming as far down the continent as they once did, likely 
because they didn't have to fly as far to find the climate that 
was acceptable to them. While the northern and middle parts of 
the Country were experiencing increasing numbers of ducks, the 
southern region was seeing a dramatic decrease.
    If climate change were to continue on its current path, it 
is not too farfetched to say the ducks could stop migrating to 
the Deep South altogether as warmer temperatures in more 
northern regions would reduce their need to do so.
    As the study points out, the effect on the small 
communities whose economies depend on hunting season could be 
devastating. Now, I know that is regional, and I know it is 
something that probably only myself and a few others could 
really identify with. My objection to supporting the Climate 
Stewardship Act in 2003 was based on economics, but as the 
above example illustrates, the economic impacts are far from 
straightforward. They multiply across the globe and certainly 
across regions.
    These communities that depend on duck season and the boost 
it gives their economies once a year are filled with the people 
I described earlier as living from paycheck to paycheck. If a 
mother who is working as a waitress at the local diner loses 
her job because the diner closes due to the lack of its usual 
customers during hunting season, is that not an economic 
impact? We can write these bills in such a way as to compensate 
for an increase in utility rates for low-income people, and any 
bill I support must do just that.
    But I am proud to say that my colleagues have reached out 
to me, understanding my concerns about our low-income consumers 
and making sure that we will have a portion of that bill 
dedicated to that. But I do not know if Congress has the 
capability to rebuild communities across this Country that will 
have such severe economic livelihood fundamentally altered by 
climate change.
    It is time that we begin to ask serious questions about not 
just the cost of action, but more importantly, Madam Chairman, 
the cost of inaction. These costs can be quantified, but they 
can also be psychological.
    My husband and I want our boys to have that wonderful 
opportunity to hunt on those very same lands that for 
generations in our families they have enjoyed, being a part of 
the family, enjoying one another, and enjoying the gorgeous 
environment that we have been blessed with. It is my belief 
that the only way this can happen is if we take significant 
action, not way down the road, but in the near future.
    I want to thank the committee for giving me the opportunity 
to speak on this very important issue and I certainly look 
forward to working with this Chairwoman and this committee and 
all of the others interested in this body, in moving something 
in a timely fashion that will truly make a difference for 
future generations.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Lincoln follows:]
       Statement of Hon. Blanche Lincoln, U.S. Senator from the 
                           State of Arkansas
    Ladies and gentleman of the committee, I appreciate the opportunity 
to come before and speak on this very important issue. I would like to 
especially thank Senator Boxer for her leadership and energy on climate 
change. She has been out front on this from the beginning and I look 
forward to working with her in this Congress.
    In 2003, when the Climate Stewardship Act came up for a vote in the 
Senate, I opposed it. It was one of the most difficult votes I have 
taken in the Senate. I was concerned that the bill could drive up 
utility rates, with energy companies forced to use more expensive fuels 
or forced to develop new infrastructure, with the attendant costs being 
passed on to consumers. In a state like mine, with pervasive crippling 
poverty, even a $5 a month increase is significant. Now, I stand before 
you as not only a supporter of the Climate Stewardship Act, but an 
original co-sponsor. Many have asked, what changed? The answer is 
simple; it is abundantly clear that we must take action on this issue 
now if we are to have any hope of correcting it. We are stewards of 
this nation and this planet, and our ultimate responsibility is to 
leave it a better place for our children. I fear that if we do not take 
action soon, we will have lost our chance to do so.
    Let me give you an example from my home state of Arkansas. 
Recently, my husband and I took our two boys, Reece and Bennett, duck 
hunting. My husband and I both grew up in duck blinds with our fathers, 
and our fathers spent many cold mornings in duck blinds with their 
fathers. It is something that generations of our family have enjoyed. 
Recently, a study by Arkansas State University revealed the potential 
effects global warming could have on duck populations and migration 
patterns in Arkansas. What they found was not surprising. Ducks 
migrating from North were not coming as far down the continent as they 
once did, likely because they didn't have to fly as far to find a 
climate that was acceptable to them. While the Northern and middle 
parts of the country are experiencing increasing numbers of ducks, the 
Southern Region is seeing decreases. If climate change were to continue 
on its current path it is not too far fetched to say that ducks could 
stop migrating to the deep south altogether as warmer temperatures in 
more northern regions would reduce their need to do so. As the study 
points out, the effect on the small communities whose economy depends 
on hunting season could be devastating.
    My objection to supporting the Climate Stewardship Act in 2003 was 
based on economics, but as the above example illustrates, the economic 
impacts are far from straight forward. It is time that we begin to ask 
serious questions about not just the cost of action, but the cost of 
inaction. Those costs can be quantified, but they can also be 
psychological. My husband and I want my boys to have the opportunity to 
hunt on the same lands that their grandfathers and our grandfathers 
hunted on. It is my belief that the only way this can happen is if we 
take significant action in the near future.
    I want to again thank the committee for giving me the opportunity 
to speak on this important issue and look forward to working with you 
during this Congress.

    Senator Boxer. Senator, I really want to thank you for your 
contribution. As usual, you have got it down to, you know, the 
family. It all comes back to that at the end of the day. You 
would have been very interested to hear Senator Whitehouse go 
through how the southerners, particularly from the Carolinas, 
would always come up to Rhode Island just to get away from the 
very hot summers, and now it is already starting to change, and 
the summers in Rhode Island now are getting very warm.
    You point out that these are real serious changes in our 
way of life, in the American way of life. You talked about the 
hunting industry, then of course there is the fishing industry, 
there is the skiing industry that we have so much in our State. 
The ripple effect to these recreation industries, as you point 
out, to the waitress who serves in the diner down the road, is 
what we are talking about here.
    I think on a larger scale, you have taken it to the small 
scale, on a larger scale the Stern Report that basically said 
every dollar we put in now to mitigate will come back to 
benefit us in about $5 in worldwide gross product.
    So there is no question that you have hit on something, and 
I am very proud that you are on the, I think it is now 
Lieberman-McCain bill, or McCain-Lieberman. I think that is a 
huge amount of momentum for that approach of a cap and trade. 
The fact that you allowed yourself to be open to the arguments 
just says a lot about you as a legislator, and your 
constituents should be very proud.
    Senator Lincoln. Well, I appreciate that. I just want to 
say, you know, so much of this is about the environment, but it 
is about the environment of our lives and not just the 
outdoors. But if you think about it, one of the things that the 
American family is craving for the most is time. They want time 
to spend as a family so they can strengthen their family, so 
they can love and encourage their children, so that they can be 
a family and enjoy all of the aspects of that.
    I would say that the climate, the environment that we have 
in this great land is one of those things that encourages that 
time, whether it is time that you spend on vacation at the 
beach or in the duck woods, or really just traveling to see the 
wonders of our great Nation. But it is time that people spend, 
and more often than not, when they need time to be a family, 
what they look to is the outdoors, the environment, and it is 
an enormous part.
    I would just say that if there is anything, I have always 
been an enormous believer in recycling, whether it is recycling 
of plastics or aluminum or anything else. One of the best ways 
I could convince the men in my life to recycle was to let them 
know that the more they recycled, the less would go into 
landfills that would usually cover up the duck woods that they 
wanted to hunt in.
    So I think as we look for the practical application of 
making sure that whoever may not be sold on the initiatives 
that we want to see move forward, there are multiple ways we 
can explain it to them. I look forward to working with you to 
do just that.
    Senator Boxer. Senator, no one could do it like you can. I 
thank you very much.
    We will take a brief break while we wait for, is it two 
more Senators? Senator Nelson and Senator Durbin. So we will 
stand in recess.
    Thank you, Senator Lincoln, very much.
    [Recess.]
    Senator Boxer. Senator, we started in this committee room 
at 9 o'clock a.m. We have heard from about 27 Senators either 
in person, the vast majority, and a few in writing. You and 
Senator Durbin are going to close down this hearing today, 
which has been just extraordinary.
    I know what a great steward you are of the environment, so 
I was thrilled when I heard that you wanted to be heard. So you 
have the floor for 10 minutes, and I know that you are going to 
be part of the solution. So please go right ahead.

 STATEMENT OF HON. BILL NELSON, U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Nelson. I am going to, with your permission, 
distill my remarks, Madam Chair, and let me just say, as you 
and I have discussed privately for some period of time, I 
became more of an environmentalist when I went into space and 
could look back and see the entire ecosystem at once. When you 
look at the rim of the Earth from space, you see a thin little 
film and you realize that that is what sustains all of life. 
That is the atmosphere.
    From that perspective, our home is so beautiful, and yet it 
looks so fragile. It is clearly exceptional.
    Do you want me to suspend and defer to my senior colleague?
    Senator Boxer. You just go ahead. You have 9 minutes left, 
and Senator, you have the floor, and you will close down these 
hearings today, if that is OK.
    Bill was just talking about his trip up in space, and he is 
so articulate about it, this little thin, what did you say, 
film of?
    Senator Nelson. As you look at the rim of the Earth from 
space, you see the thin film that sustains all of life. It is 
the atmosphere. Our home is so incredibly beautiful. It is this 
colorful creation suspended in the middle of nothing, and space 
is nothing. Space is an airless vacuum that goes on and on for 
billions of light years, and there in the middle of it is this 
wonderful, colorful, alive planet that is home.
    You can't help, when you have an experience like that, of 
having some sense of greater responsibility for stewardship. 
For example, coming across South America, even at that 
altitude, I could see the destruction of the rain forests by 
the color contrast with the naked eye. In the same window of 
the spacecraft, I could look and see to the east partially the 
result of that destruction of the rain forest, because at the 
mouth of the Amazon, the waters of the Atlantic were discolored 
for hundreds of miles out into the Atlantic from the additional 
silt that comes. Now, silt is a natural phenomenon in the 
Amazon, but the destruction of the trees upriver is all the 
more so.
    So I wanted to lay that as the predicate to tell you why I 
come to the table as a sensitive person for the environment. 
Now, of course, the States that we represent likewise are 
highly sensitive, and of course global warming, if somebody is 
going to be affected, it is going to be Florida. You have about 
800 miles of coastline in your State. We have 1,500 miles of 
coastline in Florida, only exceeded by Alaska, but Alaska 
doesn't have any beaches compared to the beaches of Florida.
    So there is a lot at stake. I can tell you when I was 
Insurance Commissioner, I could not get the heads of the 
insurance companies out of the sand. They were acting like 
ostriches on something that was going to have an enormous 
financial consequence upon them, because as the Earth warms and 
the seas rise, the storms have become more frequent and more 
ferocious. The plagues increase, and you have the result in a 
State like mine.
    So I come to the table convinced, and we have been going 
through this drill where people are saying, and the scientific 
community is split. Well, anybody can say that they are split, 
but the vast majority, almost unanimous opinion, is that it is 
real. So we ought to do something about it and quit playing 
these games.
    So I have sponsored the McCain-Lieberman bill. I have done 
that for the last 4 or 5 years. I am doing it again, but thank 
goodness, you are the Chair and we are going to get something 
moving. There will be others. Your colleague from California 
wants to talk to me about a particular approach that she has.
    Global warming, you are really not going to do anything 
until we address the issue of fossil fuels. Wouldn't it be 
wonderful for us suddenly to understand that two policy goals, 
protecting the environment and at the same time getting 
ourselves less dependent on foreign oil, they happen to 
coincide, and that you could address one by addressing the 
other.
    So why are we still the handmaidens of the oil industry and 
the American automobile industry that continues to refuse to 
modernize? Why don't we have a mandated 40 miles per gallon 
fleet average within 10 years? Look what that would do to our 
dependence on foreign oil that comes from where? Places like 
the Gulf, Nigeria, Venezuela, which happen to be areas of 
considerable political instability.
    We have gone back to sleep when we had the warning in the 
early 1970's and we had again warning in the late 1970's, and 
here we are. We are back.
    Now, I am going to conclude my remarks with something that 
I intend to address since Danny Inouye has made me his new 
Chairman of the Space and Related Sciences Subcommittee in the 
Commerce Committee. That is, we have a bunch of highly 
sensitive environmental surveying satellites that are going to 
go kaput by the year 2010. We have a lack of cooperation 
between NASA and NOAA. We have some satellites that have been 
planned to replace the other satellites that haven't been 
designed right. What this is going to be is a spelling disaster 
if we don't get it up.
    Now, I don't want you, Madam Chairman, to fall for this 
seductive argument that it is either manned space flight or 
this. It isn't that. In a little R&D agency like NASA, which 
has produced so much accomplishment of exploration of peeling 
back the unknown, surely in a Nation as large as ours, we can 
find the resources not only to keep pressing the envelope on 
technology, which happens to be in the unmanned program, 
scientific satellites and so forth, but also in the manned 
program.
    The President speaks a big line about all this. He has all 
this initiative, back to the moon, and go to Mars, which I 
support. But just like in the No Child Left Behind, when it 
comes time to putting the money out, he cut NASA by $1.1 
billion from the authorization bill that we had passed in the 
Congress. As a result, the Administrator of NASA, Dr. Griffin, 
who is doing a great job, we finally have a rocket scientist 
there who knows what he is going, who also has a sense of 
humility, I might say. Where is he going to get the money to do 
everything he has to do? So there is some cut that is coming in 
this area.
    The National Academy of Sciences have warned, mind you, 
they have warned that we are going to lose access to valuable 
information that these satellites provide, and according to 
that Academy report, 40 percent of the sensors and instruments 
on NASA's aging weather and global monitoring satellites is 
going to stop working, are going to stop working in 2010.
    So the study blamed the budget cuts, replacement costs and 
delays and the lack of cooperation on NASA and NOAA. So we have 
to all address this, Madam Chairman, and that is what I wanted 
to come and share with you today.
    [The prepared statement of Senator Nelson follows:]
         Statement of Hon. Bill Nelson, U.S. Senator from the 
                            State of Florida
    Madam Chair, thank you for allowing me to speak to you today on the 
issue of global warming.
    Twenty-one years ago I was privileged to see our fragile ecosystem 
from the window of the shuttle Columbia as it orbited the earth. It's 
truly awesome to see the soft, white clouds, brilliant blue oceans, and 
subdued brown continents against the backdrop of the vast darkness of 
space.
    But, from down here, we're finally acknowledging that climate 
change will have devastating effects on the Earth's very delicate 
ecological balance.
    Experts largely agree that weather extremes will be more intense if 
global warming goes unabated. If the trend continues, Florida, and many 
other places around the world, could suffer relentless heat waves, 
beaches submerged by rising sea levels, contaminated drinking water, 
and more severe and damaging hurricanes.
    And it will only get worse unless we begin controlling our 
greenhouse gas emissions.
    It's about time we start taking this threat seriously. It's time 
for Congress to take meaningful steps to cut down on our nation's 
greenhouse gas emissions.
    I am a co-sponsor of the Climate Stewardship and Innovation Act of 
2007 (CSIA)--a bill offered by my colleagues Senators Lieberman and 
McCain, which will work towards this goal.
    This legislation will not only hold at bay the devastating impact 
of global warming, but also ensure that American companies and American 
ingenuity plays a large role in reducing greenhouse gas emissions.
    By capping greenhouse-gas emissions at 2004 levels in the next five 
years, we will make substantial reductions in a root cause of global 
warming.
    But this proposal goes even further by requiring several major U.S. 
economic sectors to reduce by \2/3\ their greenhouse gas emissions by 
the year 2050.
    Making this legislation law is just the first step in fighting 
global warming, and Congress can't delay any longer.
    While this is just one of several ideas being debated in Congress, 
we also must take steps to improve the fuel efficiency of our vehicles 
and develop energy alternatives to fossil fuels.
    Madam Chair, I also want to tell you all about another aspect of 
this important debate: the tools our scientist use to measure global 
warming--our first line of defense against climate change.
    Much of our information on global warming comes from satellites 
orbiting the earth. These satellites play a key role in helping us keep 
an eye on planetary changes. Scientists use the data to, among other 
things, monitor the ozone layer, solar and earth radiation, sea levels; 
sea temperature, wind changes, air pollution, and measure glacier and 
ice cap changes.
    Unfortunately, according to a group of the country's leading 
scientists, our nation's weather and global monitoring satellites are 
at ``great risk''.
    Members of the National Academy of Sciences, warned that the U.S. 
will soon lose access to valuable information these satellites provide. 
According to the report, 40 percent of the sensors and instruments on 
NASA's aging weather and global monitoring satellites will stop working 
by 2010.
    The study blamed budget cuts, replacement costs and delays, and the 
lack of cooperation between NASA and NOAA.
    Those of us in Congress need to take this warning seriously.
    We can't afford to go without the tools that help us monitor and 
prepare for the effects of global warming. And, we can't afford to cut 
corners when lives, property, economies and ecosystems are at stake.
    We must maintain these satellites that provide our scientists, 
forecasters and others with the data they need to help observe and 
better understand our ever-changing weather patterns and conditions 
here on earth.
    We must do everything we can to ensure the earth remains as 
beautiful as it appeared from space. And, we must take meaningful steps 
now to reach this goal.
    I look forward to working with this committee and all of my 
colleagues to make real progress towards reducing the effects of global 
warming.

    Senator Boxer. Well, Senator Nelson, again my deepest 
thanks. You know, Vice President Gore introduced me to a 
scientist who said that it is critical that these satellites be 
continued, because otherwise we are flying blind. We don't know 
what is happening to us.
    So I just want you to count me in as a real partner in 
this. I know our colleague, Senator Durbin on the 
Appropriations Committee and in the leadership of the Senate, 
this is crucial. We cannot understand global warming if we lose 
our eyes on this matter. So we are very fortunate to have you 
as Chair of that subcommittee, and look forward to working with 
you.
    Senator Durbin, it is very appropriate in many ways that 
you are our final speaker. We will have heard from one-third of 
the Senate today. To close with your testimony is an honor for 
me, because you are, you know, the Assistant Leader of the U.S. 
Senate. So we are thrilled that you are here, and you have the 
floor.

  STATEMENT OF HON. RICHARD J. DURBIN, U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Chairman Boxer, thank you. You arrived in 
the nick of time, and I mean that. Having seen the documentary, 
An Inconvenient Truth, I really sense that time is running out, 
the time for talk, the time for excuses. If we don't do 
something decisive and soon, it literally may be too late. Some 
of the damage we may not be able to ever repair. I am glad you 
are here to lead us in this effort, which I believe will be a 
bipartisan effort. I think we will have many supporters, some 
on the other side of the aisle joining us in this effort, which 
is exactly what we need.
    I was heartened when President Bush mentioned global 
warming in relation to energy security in the State of the 
Union Address. You and I have been disappointed in the last 6 
years in several things that have occurred in this 
Administration when it comes to the environment, climate 
change. The President and his Administration commissioned 
government experts and scientists to complete a study on global 
warming, only to omit parts of the final report that really got 
down to the heart of the matter.
    They attempted to silence a NASA scientist wanting to 
inform us that climate change is in fact real and must be 
addressed immediately. There is a long list of things which I 
think have been done by this Administration that moved us in 
the wrong direction.
    But having said that, let me give you an example of one 
thing they suggested that is moving us in the right direction. 
It is called FutureGen. It may not be a big news item in 
California, but it is in Illinois, because what the 
Administration has proposed is that we would take as a 
demonstration project using local coal, and we have high 
sulfur, dirty coal in some parts of Illinois, and generate 
electricity with that coal with zero emissions, sequestering 
carbon dioxide, saying it can be done.
    Well, there are four finalists for this plant, two in Texas 
and two in Illinois. I hope this year that Illinois is the 
winner, but regardless we need to develop that technology. We 
have this great local energy source that has been handcuffed by 
the environmental concerns that we share. So having been 
critical of the Bush administration for a lot of the scientific 
things that they have done in this area, let me commend them 
when it comes to this FutureGen. I think it is a futuristic 
look at where we need to go.
    I just want to suggest to you, Madam Chair, if you would 
consider, before I talk a little bit more about global warming, 
I think we ought to have a very clear starting point in this 
debate. We ought to work together on a bipartisan basis to 
write this starting point, and have it enacted by the Senate. 
It should be a starting point that says global warming and 
climate change are a clear and present danger to our 
environment, our economy, our security and our health, and the 
survival of many species on Earth.
    Recognizing that, we have an obligation to move with all 
deliberate speed to address this problem in America, setting an 
example here for the rest of the world. If we started there, if 
we had a consensus there, then a lot of things would follow. 
Until you took over the chairmanship, the debate was still on 
as to whether it was even an issue. Thank goodness we are 
beyond that on this committee. Now we have to move beyond it in 
the Senate and in this Nation.
    I recently returned from an official trip with Senator Reid 
down to South America. We had a delegation of six Senators from 
both sides of the aisle. We made a point of asking in Bolivia 
and Ecuador and Peru what they thought about global warming. 
They all looked at us and kind of smiled and said, why of 
course it is going on. Do you want us to show you glaciers or 
snow melt? We can see it here. Don't you see it there?
    Well, we do, but we have ignored it and we have 
rationalized some position that we can't do anything about it 
or don't need to do anything about it. Those days are over. I 
think it is time for us to move forward and to understand that 
if we don't do it in the United States, setting the example, 
very few people will consider.
    It also creates political instability, as we know. People 
who are the victims of this get up and move. I just had this 
recent report that came out last week from the Royal United 
Services Institute for Defense and Security. At a conference, 
Paul Rogers from Bradford University explained that recent 
climatology work suggested global warming could increase 
migratory pressures by an order of magnitude, ``In other words, 
about 400 million people, not the current 40 million people, 
desperate to cross borders.'' That is political instability, 
that is failed states, that is the United States drawn into 
conflicts in the far reaches of the world that we don't want to 
be drawn into.
    So we know now that this is a matter of security. The 
Department of Defense is joining us in that. We know that the 
United States has to lead the way. We use the most energy in 
the world. We have the most prosperous economy in the world, 
and we are looked to. Developing countries think the United 
States is trying to hold us back because they have already 
reached economic development success. Well, we have to 
demonstrate that we can achieve success economically, while 
still respecting the environment.
    Exhibit A, your home State. For how many years did we use 
to kind of laugh behind our friends in California as they 
talked about California engines in cars and California 
standards for energy efficiency. But you can tell that story 
better than anyone here today, about that dedication to energy 
efficiency, and how as a result of it, you were able to have an 
expanding economy, while reducing the use of energy. It can be 
done.
    Your example in California and other places in the United 
States should be an inspiration to all of us, because what I 
see coming is an opportunity, an opportunity for the United 
States to once again lead the world in the production of energy 
saving devices and technologies. Let's get out in front of this 
and commit ourselves to it, and have the world come to our door 
when they want to find ways to keep their economy moving 
forward and still reduce the use of energy and the pollution 
that results.
    I think it is much like Silicon Valley and what we saw with 
information technology, when it comes to this new environmental 
technology, a great opportunity for great jobs.
    Now, let me say a word about an issue near and dear to my 
heart, and I will confess against my own interests that I have 
had little or no success on the floor of the Senate with it, 
and that is CAFE standards. For the longest time, it struck me 
that if we were serious about fuel economy and fuel efficiency 
in the vehicles we drive, we would never seriously tackle this 
issue. Sixty percent of our oil goes into the cars and trucks 
we drive, and if we don't make them more fuel efficient, when 
we are going to be driving the same or more miles using more 
gas every single year, burning more, emitting more.
    Well, as the Senator knows because she has been by my side, 
that each time that I tried to improve CAFE standards, I have 
not received a majority vote. I was disappointed, but I sense 
that things are changing. I sense that with the statements 
being made from our colleagues on both sides of the aisle, they 
understand this. We have to challenge automobile manufacturers 
and truck manufacturers in the United States and around the 
world to do better. We have to really tell them that it is 
unacceptable for us to continue to build and buy these heavy 
vehicles with less fuel efficiency.
    I think if they get the message, they can respond to it. In 
1975, faced with 14 miles per gallon, Congress mandated an 
increase in fuel economy and fuel efficiency in the fleet of 
vehicles other than trucks, and saw that number rise over 10 
years to 27 miles a gallon. People say, well, I hate government 
mandates. Well, it worked. This mandate worked, and at the end 
of the day we had more fuel efficient cars.
    Since 1985, we have done absolutely nothing. As a 
consequence, our overall statistics on fuel economy have gone 
down, instead of up. I think we need to rededicate ourselves to 
more fuel efficiencies in these cars and trucks. I hope that 
our friends in Detroit, making cars in America, will be 
listening. I think they have been too slow to respond to this 
change. They have unfortunately in many instances seen Japanese 
competitors get their first, the long lines to buy a Prius, the 
long lines to buy a new hybrid Toyota Camry. All of these 
suggest there is strong pent-up consumer demand there, and I 
hope that Detroit will realize it.
    My wife and I bought a Ford Escape hybrid. It is good. It 
could be a lot better. It uses Toyota technology. I am sorry 
that it is Toyota technology, but at least we are trying to do 
the right thing in the production of those vehicles. Plug-in 
hybrids and all those opportunities lie ahead.
    Let me conclude by thanking you for your patience. I can't 
think of anyone more patient than someone who would sit and 
listen to 33 Senators in the course of a day. But I think that 
all of us understand, this may be our last chance. If we don't 
do this right, things are going to change in this world for the 
worse for our kids. That is unacceptable.
    Thank you, Madam Chair.
    Senator Boxer. Senator Durbin, it means a lot to me that 
you came on a personal level, and also on a policy level, 
because anything we do we are going to need you down there on 
the floor getting those votes.
    The reason I was so happy to do this today is I am really 
trying to figure out where the votes are and where the passion 
lies. I think today we have learned a lot.
    So I just want to thank you. I know you are very, very 
hectic, so you go right ahead and you go, and while you are 
going I am going to put in the record, I am going to complete 
the record.
    Senator Durbin. Thanks.
    Senator Boxer. Thank you, Dick.
    I am going to put in the record a statement by Senator 
Feingold, one by Senator Enzi, one by Senator Kennedy, one by 
Senator Lugar. These are all extremely interesting. I would say 
to be fair that Senator Feingold believes that ``with each 
passing year we fail to act, the challenge of addressing global 
warming and reducing emissions becomes increasingly difficult 
and costly. The time to act is now.''
    Senator Enzi has a different view. He says he didn't think 
we had to have this hearing. He thinks people could have just 
expressed themselves on the floor of the Senate. He said he 
doesn't believe climate change is as pressing a problem as many 
would suggest. He says he doesn't trust his weatherman to 
predict the temperature, let alone what is going to happen 100 
years from now. He does say, and this is the part where I 
always found a little nugget in everybody's testimony, that the 
right approach is to develop technologies and to share that 
technology with other nations. So as cleaner technologies 
spread through the world, they will address what many believe 
is a global problem.
    So I think even Senator Enzi and his, shall we say, 
negative view of what we are viewing, does come up with the 
pathway toward better technology.
    Senator Kennedy strongly supports the Sanders-Boxer bill. 
He says, ``We need to act now.''
    Senator Lugar I think has a very interesting statement. He 
says that, ``Solving these challenges will require a stronger 
commitment by our government to scientific research, policy 
innovation and diplomacy.'' He calls on Congress to work with 
the executive branch in a way that inspires Americans, and he 
wants to work with us to do that.
    [The prepared statement of Senator Feingold follows:]
        Statement of Hon. Russ Feingold, U.S. Senator from the 
                           State of Wisconsin
    Thank you Chairwoman Boxer and Ranking Member Inhofe for inviting 
your colleagues to testify today on the important issue of global 
warming.
    The question before us today is not should we act to address global 
warming. The question is how. Politicians are often portrayed as only 
having their sights on the next election, and being unwilling to make 
changes in the near-term in order to produce long-term benefits. I am 
delighted that this Committee is intent on seeking effective long-term 
solutions to this serious problem.
    I was pleased to join you, Chairwoman Boxer, and several of our 
colleagues in co-sponsoring Senator Sanders' bill, the Global Warming 
Pollution Reduction Act. I believe this bill provides the leadership 
and the comprehensive, scientific-based approach to addressing global 
warming that Americans demand and deserve.
    Leading climate scientists have identified 450 parts per million of 
atmospheric carbon dioxide and increases above 3.6 degrees Fahrenheit 
above pre-industrial levels as the tipping point. To stay below these 
levels, this bill commits to incrementally reducing the United States' 
emissions to 1990 levels by 2020, and then to making further reductions 
between 2020 and 2050. I believe these goals are achievable using a 
combination of mandatory measures and incentives.
    The bill also recognizes the importance of taking an economy-wide 
approach to addressing global warming, and not one that targets a 
single sector. Industry, power, transportation, and building sectors 
all have a role to play in reducing global warming-causing emissions. 
As many of my colleagues and I wrote to the President last year, by 
sending the right market signals and supporting the ``deployment of 
existing technologies and development of new technologies to reduce 
emissions,'' we can keep U.S. businesses competitive in the emerging 
carbon-conscious global marketplace. I am also heartened that the 
economy-wide approach is supported by the majority of the 160 
organizations that attended last year's conference hosted by the Senate 
Committee on Energy and Natural Resources.
    Another key component to addressing global warming is right in the 
name--global. As a member of the Foreign Relations Committee, I was 
pleased to cosponsor, last Congress, a Lugar/Biden resolution on the 
need for the United States to reengage with the international community 
on climate change. We must continue to participate in international 
negotiations with the objective of securing United States participation 
in agreements that advance and protect our interests, establishing 
mitigation commitments by all countries that are major emitters of 
greenhouse gases, establishing flexible international mechanisms to 
minimize the cost of efforts by participating countries, and achieving 
a significant long-term reduction in global greenhouse gas emissions. 
As of the Chair of the Senate Foreign Relations Subcommittee on African 
Affairs, I am concerned about the threats global warming pose to the 
continent of Africa. As we look to the future, we must address the 
consequences our global energy habits will have on less developed 
nations, in addition to the consequences on our own constituents.
    I think we all agree there is no use in a plan that does little to 
reduce global warming-causing emissions and makes our economy 
vulnerable. I do not pretend that the decisions before us are going to 
be easy. However, with each passing year that we fail to act, the 
challenge of addressing global warming and reducing emissions becomes 
increasingly difficult and costly--not only economically but 
environmentally. The time to act is now.

    [The prepared statement of Senator Enzi follows:]
       Statement of Hon. Michael B. Enzi, U.S. Senator from the 
                            State of Wyoming
    Madame Chairman and Ranking Member Inhofe, thank you for allowing 
me the opportunity to submit a statement at today's hearing. I agree 
with the Ranking Member of the Committee that such a statement is 
better suited for a session of morning business on the Senate floor. 
However, I believe it is important to have a balanced debate, and so I 
want to make my views clear for the record.
    There is no question that the issue of climate change is on the 
minds of the American people. Discussions on climate change, which are 
traditionally commonplace in the media, are now commonplace around the 
water cooler. Unfortunately, those discussions are dominated by 
misinformation and are based on scare tactics. Rather than allowing the 
science to run its course, the issue has become politicized.
    I do not believe that climate change is nearly as pressing a 
problem many proponents would suggest. We do not trust our weathermen 
to predict the temperature a week in advance, and so it is difficult 
for me to believe that individuals can predict the weather 100 years 
from now. Particularly given that just a few decades ago, we were told 
that the world was entering the next ice age, I struggle to see how 
some can discuss the issue with absolute certainty.
    Because the science is not settled on the issue of climate change, 
I will not support any actions that will put the United States at an 
economic disadvantage without any guarantees that the problem is real 
and without any guarantees that these so-called solutions will address 
the issue.
    As that is the case, I base my position on climate change on the 
Byrd-Hagel Resolution, which passed the United States Senate on June 
12, 1997 by a vote of 95-0. The legislation should set the standards 
for United States signature on any treaty that forces the reduction of 
greenhouse gases. The resolution requires that all nations, including 
developing nations like China and India, be a part of any agreement. 
Additionally, the resolution requires that any measures enacted 
domestically do not harm our country's economy.
    If we act, we must do so in a way that makes sense and does not 
dramatically disadvantage the United States. My experience at the Kyoto 
Conference tells me that the mandatory CO<INF>2</INF> caps that have 
been proposed do not meet the high standard laid out under the Byrd-
Hagel Resolution.
    I was a member of the United States Senate delegation to Kyoto, 
Japan in 1997 where the Kyoto Protocol was drafted. One of the things I 
noticed when I got to that conference was that the delegation from the 
United States was one of the only delegations who were treating Kyoto 
as an environmental conference. The vast majority of nations in 
attendance realized that it was an economic conference. They saw Kyoto 
as an opportunity to harm the U.S. economy. The Chinese delegation, 
whose country represents the world's fastest growing emitter of 
CO<INF>2</INF>, made it clear that they would never be part of a treaty 
that forced them to reduce their CO<INF>2</INF> emissions. Without 
involving China, no treaty or action to reduce CO<INF>2</INF> makes any 
sense.
    Instead of enacting costly legislation to cap CO<INF>2</INF> 
emissions, I think the right approach is to develop technology and to 
share that technology with other nations. Doing so allows cleaner 
technologies to spread throughout the world, which is the best solution 
to what many believe is a ``global problem.''
    Thank you again for allowing me to share my thoughts on this issue.

    [The prepared statement of Senator Kennedy follows:]
      Statement of Hon. Edward M. Kennedy, U.S. Senator from the 
                     Commonwealth of Massachusetts
    I commend Chairman Boxer and the Committee for scheduling this 
hearing today to give Senators the opportunity to voice our concerns 
about the growing climate crisis and our ideas on how to avert it.
    We can no longer ignore the consequences of America's excessive 
reliance on fossil fuels. The evidence is overwhelming that they are 
devastating our environment and threatening public health, and our 
reliance on foreign oil is putting our national security at risk.
    I strongly support the ``Global Warming Pollution Reduction Act'' 
introduced recently by our new colleague, Senator Sanders. The act 
calls for ambitious, but necessary and achievable greenhouse gas 
reductions--including a ``20 by 2020'' renewable portfolio standard--to 
gain control over these emissions before major damage is done to the 
global climate.
    In dealing with the global warming challenge, Congress must also 
set aggressive fuel economy targets and encourage greater fuel 
diversity. The fuel economy standards enacted 30 years ago are no 
longer adequate. They should be increased for cars to at least 40 miles 
per gallon over the next 10 years and to at least 27.5 miles per gallon 
for SUVs and vans.
    There's no silver bullet to end global warming, but greater use of 
renewable energy and increased fuel efficiency could have a major 
impact on cutting the nation's carbon dioxide emissions.
    So can greater use of passenger rail and other forms of public 
transportation. In a single year, Americans travel nearly five trillion 
miles in the United States, more than 80 percent in personal vehicles. 
Yet, Amtrak is twice as energy efficient as highway traffic by car, 
truck, or motorcycle.
    Unfortunately, the Administration is no friend of public transit. 
It has even sought to zero-out Amtrak's operating subsidy. Instead, we 
should support Senator Frank Lautenberg's bill to give Amtrak the 
resources it needs to manage its debt and make capital improvements, 
particularly in the heavily-used Northeast Corridor.
    We must do more to increase fuel diversity so that cars and trucks 
aren't so heavily reliant on petroleum. Senator Bayh and Senator 
Brownback have offered legislation, the DRIVE Act, to steer motor 
vehicle technology in the direction of bio-fuels, fuel cell vehicles 
and hybrid-electric cars, and support alternative fueling 
infrastructure so that consumers can fill their tanks with alternatives 
to petroleum.
    Tax policy is also an important part of the solution to the 
challenge, and I hope this Committee can work closely with the Finance 
Committee to develop a comprehensive approach. We should certainly 
extend the tax credits for renewable energy technology such as hydrogen 
fuel cells and solar energy cells. Senator Gordon Smith proposed 
legislation in the last Congress for a multi-year extension of the tax 
credits for each of these technologies, and I urge this Congress to 
pass it or similar legislation as soon as possible.
    A long-term extension of these tax credits is needed to attract 
potential investors in these technologies. Massachusetts, California 
and Ohio are among the nation's leaders in this field. In Massachusetts 
alone, more than 60 companies are involved in fuel cell and hydrogen 
technologies.
    We should also do more to enable consumers to make environmentally-
wise decisions about the power they use. Hundreds of utilities across 
the nation now offer ``Green Pricing'' programs that enable consumers 
to have their homes powered with electricity generated from renewable 
energy technology. We could encourage more rapid conversion to green 
power by offering a ``Green Power Pricing'' tax credit equal to the 
difference in the cost of clean power over dirty power.
    We can reduce energy consumption in homes. We should make 
construction more energy efficient, such as by establishing a grant 
program to train the next generation of architects and building 
designers in ``zero-energy home'' principles, so that building owners 
can install more energy efficient technologies. Adopting these 
principles for new home construction will bring down the cost of 
household energy and support one of our nation's bedrock industries.
    Finally, any comprehensive plan should reinstate the windfall 
profits tax on the oil industry. We cannot rely on the oil companies to 
restrain themselves during the worst of times, so a windfall tax is 
clearly needed to protect consumers from price manipulation.
    Again, I commend the Committee for taking up this immense 
challenge, and I look forward very much to working with you in the 
weeks ahead to enact legislation to deal with the urgent problem of 
climate change.

    [The prepared statement of Senator Lugar follows:]
       Statement of Hon. Richard G. Lugar, U.S. Senator from the 
                            State of Indiana
    Chairwoman Boxer, members of the committee, I thank you for holding 
this important hearing to examine the global climate change debate and 
to train our minds on possible solutions.
    For too long, the climate change debate has been a niche issue, 
pitting implacable skeptics against so-called ``green idealists.'' Yet, 
safeguarding the environment should not be viewed as a zero-sum 
decision, where limited resources may be diverted away from programs 
that more directly impact our immediate well-being. To the contrary, 
the environment and energy security are interlinked priorities, the 
advancement of which increases the welfare of all Americans. 
Conversely, the deterioration of either will harm our national security 
interests, economic well-being and our way of life. Both priorities 
also have many of the same solutions.
    Current trends are endangering the priorities of our foreign 
policy. High prices and booming demand for oil are enriching some 
authoritarian regimes, which use revenues to repress democracy and fund 
terrorism or demagogic appeals. As we attempt to lift developing 
countries from poverty, high oil prices also dull the effect of our 
foreign aid. Without a diversification of energy supplies that 
emphasizes environmentally friendly energy sources that are abundant in 
most developing countries, the national incomes of energy poor nations 
will remain depressed, with negative consequences for stability, 
development, disease eradication, and terrorism.
    Additionally, the burning of these fossil fuels has greatly 
increased greenhouse gases in the atmosphere that could cause major 
changes in the earth's climate. Climate change will bring more 
droughts, floods and other weather calamities. Pests and disease will 
spread into new regions of the world, threatening public health and 
economic growth and making these areas more prone to conflict.
    The interlinked challenges of global health, energy security, 
democracy promotion, and extreme climate change should be addressed in 
a comprehensive way. In my view, there are at least four components in 
devising such a strategy.
    First, America must radically reduce its reliance on oil, with an 
emphasis on transforming the transportation sector. In 1999, when a 
barrel of oil was just $20, I joined former CIA Director Jim Woolsey in 
warning that our over-reliance on petroleum made it more difficult for 
America to act responsibly in the world to safeguard peace, security 
and prosperity. Dr. Woolsey and I advocated the development of 
cellulosic ethanol as an alternative to petroleum for transportation 
fuel. In terms of environmental impact, cellulosic ethanol's advantages 
over gasoline substantially outweigh its disadvantages.
    Today, President Bush and a large bipartisan coalition in Congress 
support the production of more biofuels like ethanol. We must now put 
in place the economic incentives to ensure that all cars and trucks can 
burn these fuels and that filling stations readily provide them.
    Second, the United States needs effective programs that harness 
market forces to prod carbon constraints and cuts. Such programs should 
include a carbon trading mechanism. Last year, I listed my farm in 
Indiana on the Chicago Climate Exchange to set an example for farmers 
and foresters in my state and throughout America. The hardwood trees on 
my farm sequester 3,400 tons of carbon, which have market value on the 
exchange despite the lack of a broader cap and trade system in America. 
Changes sometimes come slowly, but I am hopeful that the Chicago 
Climate Exchange will illustrate how easily market value can attach to 
the most rudimentary of carbon reduction efforts.
    For example, the exchange mechanism could be utilized by turning 
unused farmland into tree farms that sequester carbon while providing 
farmers with extra money. Or, farms could be used to grow grasses, 
which are then converted into cellulosic ethanol. I was pleased to 
learn of farmers in Iowa who use no-till cultivation practices--thus 
keeping carbon in the ground--and have subsequently placed their farms 
on the Chicago Climate Exchange. In short, American farmers could 
become the vanguard in using market forces to the benefit of both the 
environment and the pocketbook.
    Madam Chairwoman, I would ask consent to submit into the record a 
report from the Pew Center on Global Climate Change entitled 
``Agricultural & Forestlands: U.S. Carbon Policy Strategies'' in which 
Professor Kenneth Richards of Indiana University discusses in further 
detail strategies for greenhouse gas sequestration in agriculture and 
forestry.
    Last October, I had the privilege to meet several energy 
entrepreneurs on a tour through Indiana. One dairy farm I visited was 
designed to capture methane gas from feedlots to power the farm. The 
captured methane, which would otherwise be released into the atmosphere 
as a potent greenhouse gas, will eventually be sold to a nearby ethanol 
plant. Completing a remarkable cycle, the distillers dry grains--a 
byproduct of ethanol production--will be returned to the farm as cattle 
feed. Such exemplary innovations not only improve our nation's net 
energy position, but generate new revenues and less waste in 
agriculture.
    These innovations could create the foundation for an entirely new 
business model for rural and small town America: by utilizing crops and 
agricultural waste for fuel, American agriculture could reinvigorate 
itself, while simultaneously alleviating our energy dependence.
    Third, America needs to carry out coordinated and sustained energy 
diplomacy with our partners abroad. Just as securing our energy 
requires international agreements and cooperation, so too does securing 
our environment. As China, India, Brazil, and other industrializing 
countries come on line as major energy consumers, they will 
increasingly become a source of global climate change and environmental 
degradation. It is in our interest to coax these countries into 
international environmental frameworks by actively participating in the 
agreements ourselves. For this reason, I have co-authored with Senator 
Biden S. RES. 30, which calls on the United States to pursue agreements 
under the United Nations Framework Convention on Climate Change.
    Fourth, America must ready itself for the security ramifications of 
energy dependence and climate change in the international political 
sphere. As a preliminary step, I authored and the Senate approved a 
resolution that calls upon the United States to lead discussions about 
the role NATO could play in energy security. The resolution also 
instructs the President to submit a report to Congress that details a 
strategy for NATO to help in the development of secure, sustainable, 
and reliable sources of energy, including contingency plans should 
current supplies be put at risk.
    In a speech I delivered in advance of the NATO Summit in Riga, 
Latvia, I urged NATO to consider invoking its mutual defense commitment 
in case of an energy cut-off affecting a NATO member state: an attack 
on one may require a response by all. Any such threats to America's 
energy supplies could be greatly reduced by focusing on sustainable 
fuels and preparing for supply disruption.
    We must also develop strategies for dealing with environmental 
calamities related to climate change. Soybean rust has already migrated 
from tropical areas to the detriment of crops as far north as Indiana. 
The spread of disease or pest infestations could likewise cause 
political, economic and social turbulence throughout the world.
    Solving these challenges will require a stronger commitment by our 
government to scientific research, policy innovation and diplomacy. It 
will require Congress and the Executive Branch to come together in ways 
that inspire Americans rather than divide them. I believe that we have 
many opportunities for furthering this work in this Congress, and I 
look forward to working with my Colleagues to do so.
    Thank you, again, Madam Chairwoman, for calling this timely 
hearing.

    [The referenced document follows on page 1054.]
    Senator Boxer. So I think all in all, it has been quite a 
day. Now, is there anything else? We will keep the record open 
for just about 3 working days, and I will be able to publish 
this hearing because I think there is a lot in here for the 
American people to really look at.
    So we will do that. We will also see if we can put it in 
the congressional Record as a hearing. I don't know if we can 
do that or not, but we are going to certainly publish it.
    I meant to say to Senator Durbin something that some of you 
may already know. My staff will correct me if I don't say this 
exactly right. But if the rest of the Country had the energy 
efficiency record of California, in other words, the per capita 
use of energy in California, if just the rest of the Country 
did it, we would save the equivalent in energy of all the oil 
we import from the Middle East, at least.
    So I think energy efficiency is a way to go that doesn't 
require giving up really any creature comforts. The first thing 
that every man I know asks me when I step out of the hybrid is, 
but does it have pick-up? I can tell you, it absolutely has 
pick-up.
    So with that, I just want to thank the audience. A lot of 
you were here through this entire hearing, and I do think this 
is a beginning of what is going to be a fascinating journey, 
and at the end of that journey, as soon as we can, we are going 
to have something to show for it, and we are going to start to 
have America take the lead on this issue that is facing us.
    Thank you very much, and we stand adjourned.
    [Whereupon, at 3:55 p.m. the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
       Statement of Hon. Daniel K. Inouye, U.S. Senator from the 
                            State of Hawaii
    I would like to take this opportunity to thank Senator Boxer for 
initiating this Members hearing on this important issue. It is an 
excellent opportunity to bring together the various Committees and 
Members with an interest in energy conservation, climate change, and 
the environment.
    I also want to commend Senator Boxer for her leadership on these 
serious issues. I am proud to be an original co-sponsor of the Global 
Warming Pollution Reduction Act of 2007, introduced by Senators Boxer 
and Sanders. I look forward to working on other legislation with my 
many colleagues who are committed to addressing the very real problem 
of global warming.
    As Chairman of the Commerce Committee, I would like to explain the 
important role the Committee would play in developing policy responses 
to the many problems associated with global warming. With jurisdiction 
over rail, surface, and air transportation, we oversee the sector of 
our economy that is responsible for the largest proportion of our 
nation's greenhouse gas emissions. The Commerce Committee exercises 
jurisdiction over the National Highway Traffic Safety Administration 
(NHTSA) and its Corporate Average Fuel Economy (CAFE) program, which 
sets miles per gallon (mpg) targets for the passenger automobile fleet.
    The Committee has jurisdiction over science and technology matters 
directly relevant to climate change. For example, the Committee has 
primary jurisdiction over atmospheric monitoring and science, and over 
the principal federal agencies that conduct or fund climate change 
research--the National Oceanic and Atmospheric Administration (NOAA), 
the National Aeronautics and Space Administration (NASA) and the 
National Science Foundation. The Committee also developed and oversees 
the Global Change Research Act, which sets forth authority for federal 
interagency research on climate change, as well as the White House 
Office of Science and Technology Policy, which is charged with guiding 
and integrating research and science policy across government agencies. 
Finally, the Commerce Committee has jurisdiction over engineering and 
technology research and development, as well as the National Institute 
of Standards and Technology (NIST), which has a role to play in 
developing better measurements, standards, and technologies to help 
reduce the production of greenhouse gases.
    Because of our broad jurisdiction, and the imminent need to address 
climate change related issues, my Commerce Committee colleagues and I 
anticipate an active agenda for the Committee in terms of both 
legislative initiatives and our hearing schedule. Let me briefly 
highlight some of the legislation and hearings that we anticipate 
working on during this session.
    Last week, Senators Feinstein, Snowe, Durbin and I introduced the 
``Ten-in-Ten Fuel Economy Act of 2007,'' which would mandate that the 
passenger fleet, which would include light trucks weighing less than 
10,000 lbs., as well as cars, achieve a combined CAFE average of 35 mpg 
by 2019. I would like to thank Chairman Boxer for joining us in this 
important effort. This bill takes a real world approach to improving 
passenger fleet fuel economy and would be a significant positive step 
in cutting our national greenhouse gas emissions. By 2025, the 
provisions of this bill would reduce emissions of carbon dioxide by 358 
million metric tons, which is the equivalent of taking 52 million cars 
and trucks off our nation's roadways. In addition, assuming today's 
price for a gallon of gas, the Act would effectively reduce consumption 
of foreign oil by 2.1 million barrels a day by saving over 35 billion 
gallons of gasoline annually.
    The Committee's agenda at the start of the 110th Congress will 
feature a number of hearings on climate change science and technology 
issues. In a few weeks, we will be holding a hearing on climate change 
science and scientific integrity to address federal scientists' ability 
to convey research findings and conclusions to policy makers and the 
pubic without being constrained by any political agenda. We also expect 
to hold hearings on the relationship between our oceans and climate 
change, including the impact of climate change on our coastal 
environments and our marine resources.
    The Committee is also concerned with the declining federal budget 
for climate change research, and reports that the federal climate 
research program is not only stagnating, but also subject to cutbacks 
that would endanger the future health of research and monitoring. The 
Committee will be pursuing legislation to strengthen the federal 
climate research program to ensure support for the fundamental science 
needed to fully understand the impact of climate change.
    The Committee may also pursue legislation aimed at promoting 
innovative energy technology, and directing the National Institute of 
Standards and Technology to improve measurement technologies and 
standards that are essential to decreasing greenhouse gas emissions.
    Given the growing number of uses of our oceans and the Commerce 
Committee's jurisdiction over the transportation and commerce aspects 
of the Outer Continental Shelf, coastal zone management, marine 
fisheries, and oceans, we hope to revisit some of the language in the 
Energy Policy Act of 2005 to account for these other aspects and to 
improve coordination of the permitting process for offshore activities, 
including oil and gas exploration.
    I look forward to working with all of you to improve the 
environment and decrease our dependence on foreign oil.
                               __________
     Statement of Hon. Joseph R. Biden, Jr., U.S. Senator from the 
                           State of Delaware
    If anyone wants evidence that the climate is changing, just look 
around this room. The climate has changed here in the Senate and 
climate change is on the agenda. The heat is on us to do something 
about it.
    I congratulate Senator Boxer on her ambitious agenda for this 
committee, and for convening this forum today.
    One of the President's first acts in office was to break his 
promise to do something about climate change. Instead of action, he 
turned his back on international cooperation and pulled us out of the 
Kyoto process.
    That train has now left the station. The rest of the industrial 
nations have taken on commitments to reduce their emissions to 7 
percent below 1990 levels, during the period 2008 to 2012. We missed 
the chance to find a way to make the Kyoto Protocol workable for the 
United States. We missed a chance to begin the process of slowing, 
stopping, and reversing our emissions.
    We missed the chance to turn the impending threat of catastrophic 
climate change into an opportunity to reduce the security threat of our 
dependence on oil, to reduce the health threat from pollution, to 
reduce the sheer waste and inefficiency in our economy.
    And we missed the chance to do what many of the leading businesses 
in this country know we should do capture a leadership position in the 
global competition for the next generation of clean technologies. Last 
week, we heard from an alliance among some of our most important 
corporations and some of our most respected nongovernmental 
organizations, the United States Climate Action Partnership. I am 
particularly proud that DuPont, from my home state of Delaware, has 
taken the lead on this issue for many years.
    Once again this year, Senator Lugar and I have joined together to 
introduce a resolution calling on the Administration to return to a 
leadership role in international climate change talks.
    Our resolution calls for United States participation in 
negotiations under the United Nations Framework Convention on Climate 
Change--signed by the first President Bush--that will protect the 
economic and security interests of the United States, and that will 
commit all nations--developed and developing--that are major emitters 
of greenhouse gases to achieve significant long-term reductions in 
those emissions.
    The resolution also calls for a bipartisan Senate observer group--
based on our experience with arms control negotiations--to monitor 
talks and ensure that our negotiators bring back agreements that all 
Americans can support.
    S. Res. 30 states that evidence of the human role in global warming 
is clear, that the environmental, economic, and security effects will 
be costly, and that the response must be international. The resolution 
recognizes that there are real economic benefits from both reducing the 
waste and inefficiencies inherent in greenhouse gas emissions, and from 
the markets for new, climate-friendly technologies. Most importantly it 
puts the Senate on record, calling for the United States to resume its 
role as leader in the international effort to address this global 
threat.
    As the body that will ratify any international treaty on climate 
change, the Senate's position must be clear to the rest of the world. 
This resolution says we are reading to take on binding commitments that 
achieve significant long-term reductions in global greenhouse gas 
emissions.
    The physical consequences of global warming are right before our 
eyes: the shrinking polar ice cap, retreating glaciers, stronger storms 
driven by warmer ocean waters, and changing growing seasons, animal 
migration, and rainfall patterns.
    Future consequences if we continue business as usual will include 
rising sea levels, the spread of diseases, abrupt climate shifts that 
could shut down of the Atlantic cycle that warms Europe, or the shrink 
the Amazon rainforest that provides twenty percent of the oxygen we 
breathe.
    These changes will profoundly alter the assumptions on which the 
economic, political, and security arrangements of our world have been 
constructed. Our national borders, our cities, our cultures, are all 
built around patterns of rainfall, arable land, and coastlines that 
will be redrawn as global warming proceeds.
    By one estimate, 200 million people, in the coastal cities of New 
York, Tokyo, Cairo, and London, in low-lying countries such as 
Bangladesh, in the islands of the Pacific and Caribbean, could be 
permanently displaced by climate shifts.
    Throughout human history, massive population shifts, frustrated 
expectations, and the collapse of economies, have all led to conflict. 
Even the richest nations, source of the emissions behind global 
warming, will face huge costs coping with those catastrophes.
    The poorest nations, whose economies have contributed little or 
nothing to the greenhouse gases in our atmosphere, will be hit the 
worst, and will have the fewest resources with which to respond. This 
is a recipe for global resource wars, and even greater resentment of 
our wealth by those less fortunate--a new world disorder.
    We are failing in our responsibility to steward the riches we have 
inherited. We are bequeathing our children not just a ruined landscape, 
but a world of conflict as well.
    This is a classic tragedy of the commons. We have treated our 
atmosphere as a costless dump for the waste gases that are the 
byproduct of our great wealth.
    There was a time when we could plead ignorance. That day is past. 
The science is now clear. There was a
    time when we might have claimed the cost of changing our ways was 
too great. That day is past. We now know the costs of inaction are 
unacceptably high. There was a time when we could claim that our 
actions, in isolation, would be ineffective. That day is past. It is 
now clear that our inaction reduces the effectiveness of international 
efforts to address climate change, and provides an excuse for China, 
India, Mexico, Brazil, and the other leading emitters of the future to 
stay with us on the sidelines.
    I personally believe that the single most important step we can 
take to resume a leadership role in international climate change 
efforts would be to make real progress toward a domestic emissions 
reduction regime. For too long we have abdicated the responsibility to 
reduce our own emissions, the largest single source of the problem we 
face today. We have the world's largest economy, with the highest per 
capita emissions. Rather than leading by example, we have retreated 
from international negotiations.
    Beginning with the hearing Senator Boxer has convened today, we 
will see renewed efforts to pass legislation to create that regime, to 
reduce our domestic emissions, and to open our many responsible 
American businesses to both international emissions trading and the new 
markets for clean technologies in the developing world. Moving toward 
that goal will be crucial to the effectiveness and credibility of our 
international efforts.
    There are many possible paths to that goal. Our legislative process 
will provide the forum for us to consider many options. One option that 
we do not have is inaction.
    We are all on this planet together. We cannot protect ourselves 
from the effects of climate change by acting alone--this is a global 
problem that will require a global solution. To undertake meaningful 
reductions, countries will need to know that their actions will not be 
undercut by ``free riders'' who continue business as usual while they 
commit to change. To build that trust will require commitments by all 
of the key players, and the institutions to coordinate the actions of 
independent nations.
    That is why the United States must be a leader on climate change 
issues, and that is why I have been working for three decades to take 
on this challenge.
    On this issue, quite literally, history will be our judge. I 
congratulate Senator Boxer for her leadership on this issue, as well as 
my colleagues on both sides of the aisle who will have joined in this 
effort.
    A copy of Senator Biden and Senator Lugar's resolution calling for 
the United States to return to international negotiations on climate 
change is attached.

    [The referenced document follows on page 1135.]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
